<html>
<title> - DEPARTMENT OF INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2003</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




                 DEPARTMENT OF THE INTERIOR AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2003

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                             SECOND SESSION

                                ________

   SUBCOMMITTEE ON THE DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES
                     JOE SKEEN, New Mexico, Chairman
 RALPH REGULA, Ohio                  NORMAN D. DICKS, Washington
 JIM KOLBE, Arizona                  JOHN P. MURTHA, Pennsylvania
 CHARLES H. TAYLOR, North Carolina   JAMES P. MORAN, Virginia
 GEORGE R. NETHERCUTT, Jr.,          MAURICE D. HINCHEY, New York
Washington                           MARTIN OLAV SABO, Minnesota 
 ZACH WAMP, Tennessee
 JACK KINGSTON, Georgia
 JOHN E. PETERSON, Pennsylvania     
                     
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Deborah Weatherly, Loretta Beaumont, Joel Kaplan, and Christopher 
                                 Topik,
                            Staff Assistants

                                ________

                                 PART 6
                                                                   Page
 Secretary of the Interior........................................    1
 National Park Service............................................  189
 U.S. Fish and Wildlife Service...................................  309
 U.S. Geological Survey...........................................  449
 Bureau of Land Management........................................  505
 Minerals Management Service......................................  537
 Natural Resource Damage Assessment and Restoration...............  561
 Office of Insular Affairs........................................  563
 Office of Inspector General......................................  574
 Office of the Solicitor..........................................  579
 Office of Surface Mining Reclamation and Enforcement.............  581
                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 79-796                     WASHINGTON : 2002




                       COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
   
                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
  DEPARTMENT OF INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2003

                              ----------                              

                                      Wednesday, February 27, 2002.

                       DEPARTMENT OF THE INTERIOR

                               WITNESSES

HON. GALE A. NORTON, SECRETARY OF THE INTERIOR
P. LYNN SCARLETT, ASSISTANT SECRETARY, POLICY, MANAGEMENT AND BUDGET
JOHN D. TREZISE, DIRECTOR OF BUDGET

                   Opening Remarks of Chairman Skeen

    Mr. Skeen. Good morning, Madam Secretary. We are looking 
forward to hearing your testimony on the fiscal year 2003 
budget. I anticipate that this will be a lean year from the 
allocations standpoint for the Interior bill, as we will need 
to support the war on terrorism and homeland security needs.
    We are also pleased to see Lynn Scarlett, the Assistant 
Secretary for Policy, Management and Budget, joining with you.
    I would ask you to summarize your opening statement for us. 
Your statement will be made part of the official record.
    Before I begin, I would like to defer to Mr. Dicks, my good 
friend and Ranking Member, for any opening remarks he may wish 
to make at this time.

                   Opening Remarks, Congressman Dicks

    Mr. Dicks. Good morning, Madam Secretary, and thank you for 
being here today.
    As you know, my highest priority in the bill is the 
conservation spending category that this Subcommittee enacted 
in fiscal year 2001. I was pleased to see that the President's 
proposed budget for the coming fiscal year maintains the basic 
statutory framework, but disappointed that it was not fully 
funded.
    Last year when faced with a similar budget, our 
Subcommittee worked on a bipartisan basis to restore full 
funding to the conservation program at its authorized level of 
$1.32 billion. It is my hope that we will do so again and 
provide the $1.44 billion authorized for fiscal year 2003. I 
understand that because of other budget priorities, the 
Interior Department request is essentially flat funded. 
However, when reviewing the proposed Interior budget, I am 
concerned about the introduction of new or expanded initiatives 
that have the effect of reducing existing programs.
    I look forward to hearing more details about the new 
proposals in the budget this year, especially the Cooperative 
Conservation Initiative and its impact on the Land and Water 
Conservation Fund. Similarly, it is my great hope that the 
Subcommittee will restore funding for the Urban Park and 
Recreation Recovery Program, which unfortunately was eliminated 
in the Administration request.
    I look forward to hearing directly from you about the 
status of Indian trust reform. Two weeks ago, your staff 
briefed the Chairman and myself about the litigation and its 
impact on the Department. I know this is a matter of great 
concern to you, as it is to us. Probably a little more to you, 
because your name is on a lot of these lawsuits.
    As you are no doubt aware, this Subcommittee has been 
extremely supportive of the efforts to fix this problem, 
approving every funding request made from both this 
Administration and the last. I know that you are spending an 
enormous amount of time on this personally, and I hope for all 
of our sakes that a solution is soon within reach.
    Lastly, I was extremely pleased to see the Park Service 
construction budget contains full funding for the Elwha River 
Recovery Project on the Olympic Peninsula in my district and 
State, enabling the project to proceed as scheduled. Our 
Subcommittee members had a chance three years ago to see this 
project personally. I look forward to bringing them back out 
there when it is completed, or before if necessary.
    Again, welcome, and I look forward to hearing your 
testimony. I regret the fact that we are going to have a vote 
here, but I think the Chairman was wise to get us started.
    Mr. Skeen. You guys who do not have anything else to do can 
go over there and vote.
    Secretary Norton. We will go ahead and start until we have 
to break. Good morning, Mr. Chairman and members of the 
Committee. I am pleased to be here with you today to talk about 
our 2003 budget request.
    You have already mentioned Lynn Scarlett, but let me for 
the record introduce her. She is our new Assistant Secretary 
for Policy, Management and Budget, and we are delighted to have 
her involved this year in development of our budget.
    Also with me is John Trezise, who is our Department's 
Director of Budget and who has been with me here in the past.

                 Opening Statement of Secretary Norton

    Let me just briefly talk about the Department of the 
Interior's overall responsibility. We have a huge impact on the 
lives of Americans. We are responsible for over one out of 
every five acres of land in this country. We have some of the 
most beautiful and pristine areas that are part of our 
responsibility. The pictures you have on these walls are many 
of our wonderful areas.
    We also have some of the Nation's patriotic symbols, such 
as the Statue of Liberty, Independence Hall, and the Washington 
Monument. We provide approximately one-third of the Nation's 
domestic energy supply, natural gas, oil and coal, from our 
lands. We supply the water that has made the arid west bloom. 
We serve visitors from around the Nation. There are 
approximately half a billion visits to our lands and our water 
areas every year. Over 200,000 wonderful volunteers assist us. 
We have more volunteers than we have employees by nearly three 
to one, and they are a tremendous help for us.
    In the most recently completed fiscal year, we collected 
$11 billion in revenue from the lands and the offshore areas 
that we manage, which was approximately $1 billion more than 
was appropriated to us.
    As we began the process last June to build this year's 
budget, we were guided by President Bush's commitments to build 
a new environmentalism through cooperative conservation 
partnerships, to improve our management of public lands and 
waters, to advance thedevelopment of domestic energy, to 
improve both the classrooms and the classroom performance of Indian 
students, and to manage for excellence through citizen-centered 
governance.
    Obviously, as for all of the agencies of the Federal 
government, our priorities were reshaped by September 11th. Our 
employees have responded to the call to increase our vigilance 
and our preparedness for the changed world that we face. In the 
wake of those events, we have put in place security measures to 
protect our important national assets, our visitors, and our 
employees. We have increased park police patrols in our urban 
areas, we have increased guard services and protection at our 
other significant areas, and have instituted around the clock 
security at several of our major dam facilities.
    The Department's 2003 budget request for programs funded by 
this Subcommittee is $9.5 billion in current appropriations. 
There is an additional $245.6 million for a Government-wide 
accounting adjustment for retirement and employee health 
benefits. This budget is essentially level with the budget 
enacted in 2002. It sustains a 21 percent increase over the 
fiscal year 2000 budget, well above increases in costs due to 
inflation.

                  COOPERATIVE CONSERVATION INITIATIVE

    One of the most significant aspects of this budget is the 
Cooperative Conservation Initiative. We are very excited about 
this proposal and view it as a real landmark approach to 
improving our management and our cooperation with States, local 
governments, and other partners. It fosters innovation and 
creates incentives for stewardship through a competitive 
process. It fills a void by giving our land managers a tool to 
work with their neighbors, volunteers, States, tribes, and 
community groups to achieve conservation goals.
    Of the $100 million requested for the Cooperative 
Conservation Initiative, half would go to the States through 
the Land and Water Conservation Fund State grant program. The 
other half would be divided among our land management agencies, 
the Bureau of Land Management, the National Park Service, and 
the Fish and Wildlife Service. It would address unmet needs for 
natural resource restoration in refuges, parks, and other 
public lands and adjacent areas. It complements existing grant 
programs that fund conservation by States and private 
landowners.
    The Cooperative Conservation Initiative targets 
conservation of areas for the benefit of multiple species. It 
will complement existing grant programs that focus on migratory 
bird and endangered species conservation. It is significant in 
creating a shared partnership kind of approach to these issues. 
Instead of our Federal land managers just sitting back and 
thinking about what they will ask for through the 
appropriations process, this calls on them to be creative to 
reach out to non-Federal partners and construct partnership 
approaches to solving their problems. That allows us to amplify 
the Federal resources and to build partnerships that will be 
valuable for management of those areas in the long term. So it 
fulfills both a budget need and also the need to build 
cooperative partnerships with long-term benefits.

                              TRUST REFORM

    I would like to highlight a few other aspects of our 
budget. One of those is trust reform that fulfills the needs of 
American Indians and Alaska Natives. I would also like to focus 
on education that affects those groups.
    I appreciate the support of the members of this 
Subcommittee for our efforts in both of these areas. We face 
difficult and complex challenges in our management of trust 
assets. I have announced an outline for reorganization and 
consolidation of Indian trust management functions. We are in 
the process of consulting with the tribes on what a 
reorganization might look like. We have put together what I 
believe is a very valuable process of having a task force of 
tribal representatives who will look in-depth, not just at our 
proposal, but at proposals that have been generated by the 
tribes.
    Then we have our management consulting organization, EDS--
Electronic Data Services--that will go through and analyze each 
of the different proposals to see what the management benefits 
would be from the different types of reorganization, so that we 
have a good basis of the pros and cons of each approach. We can 
then sit down and work with the tribes to determine what would 
be the best approach, one that we can get broad consensus on 
for the long term. This process is now underway, and we are 
working over the next few months to reach consensus on a 
reorganization proposal.
    We also have other challenges including the recent concerns 
identified with our information technology security measures 
related to Indian trust data. As you know, many of our computer 
systems were disconnected from the internet. We are working 
with the special master to obtain approval to reconnect them. 
The internet shut-down prevented us from making some payments 
to tribes and to individuals as well as to others. Some of our 
systems are now operating again, and we are able to go through 
the regular computer process to be able to handle those 
payments. I believe through that process we have sent out 
approximately $15 million in payments since the court's 
injunction went into effect in December. We can provide you 
with specific figures if you would like.
    There are also some other areas that deal with the Minerals 
Management System computer that processes royalty payments and 
has information on royalties. That system has not yet been 
approved for renewed operation, so we have made estimated 
payments. We are in the process of providing estimated payments 
to individuals based on what they would receive in their 
royalty payments.
    For the longer term, we have concluded that there is a need 
for a dedicated network to secure trust data. We briefed the 
Subcommittee on February 13th on this issue, and will be 
providing you with a reprogramming proposal for the network in 
the near future.
    Our 2003 budget request is based on the current 
organizational structure and does not reflect our conclusions 
on reorganization or the computer network. We will be getting 
back to you as we get the plans finalized on the computer 
system and what needs to be done on that. And we will work with 
you on exactly how the money we have requested for the Indian 
trust reform is to be allocated.
    The budget provides significant new resources to address 
these needs. These are very important requests for us, and we 
believe very important for the future of trust reform. We have 
requested an increase of nearly $84 million, which is the 
largest increase in the history of trust reform.

                            INDIAN EDUCATION

    I would now like to turn to Indian education. Our budget 
continues a high level of funding for Indian school repair and 
replacement and includes an increase of $19 million for school 
operations. Our request promotes tribal management of 
schoolsseeking increased funding for the costs related to contracting 
out, including administrative cost grants. This would allow us to out-
source to the tribes themselves, and not just to private organizations, 
so this is something that we want to explore.
    In his State of the Union address, the President emphasized 
the importance of early childhood development programs. Our 
budget includes an increase of $3 million for BIA's successful 
early childhood education program.

                              PARK FUNDING

    The budget continues robust funding to manage the 
maintenance backlog in the parks. We are requesting an increase 
of $18 million for the Natural Resource Challenge, which 
provides scientific management of resources in the Park 
Service.

                             REFUGE FUNDING

    In 1903, President Teddy Roosevelt established the first 
national wildlife refuge at Pelican Island, Florida. Our budget 
commemorates the 100th anniversary of the refuge system by 
requesting a $56.5 million increase in the National Wildlife 
Refuge System. This is an 18 percent boost in spending, and 
represents the largest dollar increase ever requested in the 
history of the National Wildlife Refuge System.

                             OTHER FUNDING

    To continue to protect our national assets, our employees, 
and our visitors, the budget includes $62 million for security 
and protection measures essentially continuing the amounts 
provided in the 2002 emergency supplemental. In support of the 
President's National Energy Policy, the budget includes 
increases totaling $28 million in four bureaus. We continue 
working with the Corps of Engineers in the Everglades, 
including implementation of the comprehensive plan.

                        MANAGING FOR EXCELLENCE

    Finally, we are committed to managing well the resources 
entrusted to us in this budget. We are working diligently to 
improve the quality, effectiveness, and efficiency of the 
services we deliver and to enhance the accountability and 
transparency of the work we do with the resources of the 
American people. We have developed a plan for citizen-centered 
governance that builds on the President's management agenda.
    Lynn Scarlett has led an effort that has resulted in an 
outstanding plan. It has been well received by both the Office 
of Management and Budget and the President's Management 
Council.
    We are working to bring innovation, competitiveness, and 
accountability to all that we do. I would like to thank the 
members of the Subcommittee. Your support on our management and 
funding issues has been very significant. I look forward to our 
continued collaboration.
    I would also like to thank the work of the Subcommittee 
staff. They have been very helpful. Their knowledge of our 
programs and their involvement in our initiatives have been 
very positive.
    Thank you very much for the opportunity to be here today.
    [The written statement of the Secretary follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Skeen. Thank you. Thank you for the kind notes about 
our supporters here. We could not do very much without them. 
Now, we will get the heck out of here and go vote. We will be 
right back.
    [Recess.]

                           BUDGET REDUCTIONS

    Mr. Skeen. Thank you for staying around.
    The budget highlights a new $100 million Cooperative 
Conservation Initiative to foster partnerships with non-Federal 
partners. Yet there are substantial reductions to core Federal 
programs. The Payments in Lieu of Taxes Program is reduced by 
$45 million. The U.S. Geological Survey is reduced by $55 
million. The Department's fire program is reduced by $25 
million and Abandoned Mine Reclamation Grants are reduced by 
$29 million. Could you explain this rearrangement of 
priorities?
    Secretary Norton. Obviously, Mr. Chairman, whenever we are 
facing a budget analysis, we have to go through and make 
choices, and we have to make choices among good programs. The 
Payment in Lieu of Taxes Program, for example, is something 
that I understand the importance of. We had to balance that 
with our other priorities, and this is the allocation that we 
felt best met our needs.
    Part of the Payment in Lieu of Taxes issue is that it is 
one of a number of programs that allow us to work well with 
local communities. Our Cooperative Conservation Initiative, for 
example, is designed as a way of make sure that that really 
happens through our management approach. We certainly will work 
with you to help you in providing the information that you all 
need in determining your allocation of those funds.
    Mr. Skeen. We appreciate that.
    Mr. Dicks.

                      INDIAN TRUST REFORM EFFORTS

    Mr. Dicks. Madam Secretary, two weeks ago your senior staff 
briefed the Chairman and several other members of this 
Subcommittee on the status of the Indian Trust reform effort. I 
have to tell you I find the situation pretty discouraging. Let 
me read a few of the findings from the latest review of the 
Indian trust reform activity submitted jointly by EDS and the 
Department last month.
    Existing trust reform has lacked a vision and strategy. 
There is no over-arching fiduciary duty focused to trust 
management. Trust reform sub-projects are not coordinated or 
integrated. Beneficiaries are not receiving services comparable 
to those found in commercial bank trusts. Insufficient human, 
financial, and technological resources have been applied to 
complete trust reform initiatives.
    Madam Secretary, why after so much effort and so much 
funding is trust reform still such a mess?
    Secretary Norton. Unfortunately, Congressman Dicks, those 
are the conclusions that we have reached after really looking 
at our trust reform process and getting EDS as an 
outsideconsultant to come in and give us their expertise on this. It is 
something like peeling an onion. Every time we peel one layer we find 
another layer of problems.
    We found in part that the planning process had been 
lacking. People in the field and in various programs were 
working hard to do the things in the trenches. And yet, because 
they had not really been focused in a way that was productive 
for the overall effort, they were not prioritizing their work 
to really achieve productive results.
    We did not have in place a management structure that 
provided the centralized focus. Different people in different 
agencies were doing different things, all in the name of trust 
asset management, but not with the kind of results that we 
wanted to see. So we have put in place an effort to bring a 
better performance structure into place. EDS is now working 
with us on an effort that will be getting underway soon to do a 
complete business practices model that will look at how a trust 
asset is managed and how the different elements of that 
management interconnect with each other, so that all of them 
are done in the right way.
    We have tremendous decentralization, so that things are 
done differently for each different tribe and each different 
BIA region and so on. There has to be some standardization to 
have a system that is really going to work well. We have to 
work with the tribes on figuring out what kinds of 
standardization are going to be appropriate.
    It is very complex. We are working with a great group of 
people in my office dedicated to that, headed by my Deputy 
Secretary, Steve Griles, to ensure that we are pushing hard to 
make real changes in that area, but it is not easy.
    Mr. Dicks. Specifically with respect to the Cobell case, 
Assistant Secretary Neil McCaleb in an interview earlier this 
month said, the only way to settle the case is a negotiated 
settlement between the plaintiffs and the Government. I 
certainly agree that that should be looked at. But there seems 
to be no indication that the settlement is likely.
    Madam Secretary, is there anything which you and the 
President in consultation with tribal leadership could do to 
push a settlement, so we can invest scarce dollars in services 
for Indians, rather than fruitless historical accounting 
efforts and litigation costs? It just seems to me that this 
thing is so, they used to say, the guy who played left field 
made so many errors that when they put the next guy in, he 
said, left field is so screwed up that nobody can play it. 
Well, this may be one of those situations where we have got 
such a mess that it would be much better to try to come up with 
a negotiated settlement. Even if the Congress had to legislate 
it. If we could work out an Administration proposal where you 
would come in and give a legislative settlement, we settle 
these disputes.
    Something like that has got to be attempted, or we are just 
going to spend hundreds of millions of dollars trying to do 
accounting and detailed factual gathering over things that I am 
afraid we cannot do. So rather than waste the money, why not 
try to work out a settlement at this point, and resolve this 
matter?
    Secretary Norton. There are some aspects of this that might 
be amenable to a legislative settlement or a regular type of 
settlement. There are other aspects that are simply managerial 
problems that need to be fixed, no matter what happens with the 
underlying litigation. For example, our computer system is 
something that we are working to bring up to the OMB circular 
A-130 standards. That is something that, while the litigation 
is providing the focus, is a management issue that we need to 
deal with one way or the other.
    Mr. Dicks. You are saying even going forward today, that we 
do not have this thing under control?
    Secretary Norton. That is correct. There is a management 
problem. That is why we have looked at reorganization, to be 
able to manage it going forward. There are things we need to do 
that are backward looking that are really litigation focused, 
but very much of this problem is also forward looking and 
managerially focused. It is not simple. We would be happy to 
work with you.
    Mr. Dicks. Fine. We want to help if we can.

               ABANDONED COAL MINE RECLAMATION REDUCTION

    Mr. Peterson. Good morning, Madam Secretary. It is a 
delight to have you here.
    I believe that coal is going to play a major role in the 
decades facing us in energy, because we are the Saudi Arabia of 
coal, and we have clean coal technology. But I question, for 
the second year in a row you have proposed cutting mine 
reclamation. And I am very aware of that, coming from a coal 
State, Pennsylvania, where those programs are very effective. 
Why are we cutting reclamation? Should we not be sending the 
message that we are going to clean up the evils of the past and 
we are going to do it right in the future?
    Secretary Norton. The cut that we are proposing this year 
is from the appropriated level. We are proposing more than we 
proposed last year.
    Mr. Peterson. That is progress. [Laughter.]
    Secretary Norton. This is a two-part program. We have the 
regular AML grants and the Federal emergency program. There are 
some funds on the Federal program that will be carried forward. 
So amounts requested for programs that are not the cut that 
they might appear to be.
    Mr. Peterson. Do you have that figure?
    Secretary Norton. John.
    Mr. Trezise. We will be carrying over a balance of perhaps 
as much as $20 million. The annual spending in that program has 
only been about $10 million, so program performance will not be 
affected.
    Mr. Peterson. So States that have money will not have 
problems?
    Mr. Trezise. Mr. Peterson, this is the Federal emergency 
program.
    Mr. Peterson. Okay. But have you consulted States on how 
much money? I know States that have money set aside, waiting 
for the Federal money, to clean up these areas. Have you 
inventoried, have you talked to the States before you made this 
cut?
    Secretary Norton. We have a new head of the Office of 
Surface Mining, who has been the head of the Pennsylvania State 
program before he came to us. He has only been in office now 
for a few weeks. So he is now going to----
    Mr. Peterson. He will get that corrected, we hope, right?
    Secretary Norton. This is something that we are still 
looking at from the perspective of the amount of acreage that 
we can reclaim. And it appears that this would allow us to 
reclaim an additional 6,900 acres.
    Mr. Peterson. I have witnessed this program in Pennsylvania 
where we had streams that were dead for decades and now are 
trout streams and almost restored to their normal habitat. When 
you remove that old trace coal and get the land cleaned up and 
reclaimed, you do reclaim the streams. I just think that is a 
program that should be high priority.
    Secretary Norton. We have also been looking at re-mining 
approaches and so forth as possibilities.
    Mr. Peterson. That is correct. That works, too. We also in 
Pennsylvania have a number of coal plants, I think we are 
building another one, that will use low BTU waste coal with the 
fluidized bed process and burn it cleanly. So that removes the 
debris, then the reclamation can move forward and the streams 
can be restored. I can name a number of streams that are 
delights today, and they were dead streams just 10 years ago.
    So I personally have at the State level witnessed that 
progress, and I would hope we could get with the States. Maybe 
your new mining guy, I will have to talk to him.

                    LAND ACQUISITION AND MANAGEMENT

    Issue of no net gain. I was reading through the proposals 
in your budget of land purchases. Where do you stand on, it is 
my view that we own enough of this, we may not own all the 
pieces we want, we may have some treasures we want to save. But 
we own a lot of this country, a third of it the Federal 
Government, when you add local and State, you are approaching 
half. I am a believer that private ownership does well. When 
the Government owns things, it is more communistic than free 
enterprise.
    And I think as far as land is concerned, the Federal 
Government is not the best manager of land, in my view. We 
ought to have a no net gain policy that when we buy pristine 
places that we want to keep, that we ought to be looking at 
land especially in areas where we own 70, 80 percent of the 
land, and let some land go back to private ownership. What is 
your theory on that?
    Secretary Norton. We have looked at the issue of land 
management from a managerial perspective and from achieving 
environmental results. I think there has been in the past a 
tendency to look at the question as being simply, do we want to 
see these resources protected? If the answer is yes, we have to 
buy it. That is not the simple, one-dimensional approach that 
we want to adopt.
    We are looking at a range of tools, conservation easements, 
the improvement of habitat through things like our landowner 
incentive program, and partnership kinds of managerial 
arrangements. So that when you look at trying to achieve the 
result of protecting the land and better managing resources, we 
can accomplish much more for a lower cost. For example, on the 
acquisition of a conservation easement, we have an example. I 
will get you the exact location, but it was about $400 an acre 
to purchase the land, and only $200 an acre for the 
conservation easement.
    In St. Lawrence County, NY, we have a Partners in Fish and 
Wildlife program. We restored 50 acres of wetlands at a cost of 
$120 an acre. To acquire that land would cost much, much more. 
The average cost to restore a forested wetland in North 
Carolina is between $10 and $80 an acre, again, far less than 
the acquisition costs. So we are looking at those kinds of 
programs, not so much from a philosophical perspective but 
because those are the kinds of approaches that are really going 
to work from an environmental perspective.
    Mr. Peterson. I think my view of the Federal Government is 
we have not been very good land managers. We have been on a 
decade of land buying, often taking the money out of management 
to buy. So we can not manage well, so we have backlogs of road 
maintenance and building maintenance and our facilities are in 
problems, and I do not think anybody can argue with that, to 
buy land. It seems to me we ought to get our priorities 
straight.
    I just want to conclude with, this week the U.S. Fish and 
Wildlife Service was quoted in the Philadelphia Inquirer saying 
that in the effort to slow the pace of sprawl on the New Jersey 
shore, the Service has identified 7,840 acres it says must be 
kept from developers. Is preventing sprawl a new criteria for 
the Federal Government?
    Secretary Norton. That is not a specific statutory 
responsibility, certainly not for our widespread types of 
programs. What I would like to see us do is to work with local 
partners to see if there are shared environmental benefits that 
we are trying to achieve. There may be local partners who would 
like to be involved and perhaps work with us on joint projects. 
That may be their motivation.
    Our responsibilities are really much broader. I recently 
saw that article myself. We will be looking at that proposal.
    Mr. Peterson. I am going to be proposing legislation that 
will say, if we own 50 percent of a county that we need local 
approval to buy more, letting the locals and the governors of 
those States have some say. And if they approve it, it will be 
okay. Would you find that a reasonable position?
    Secretary Norton. I hesitate to take a formal position on 
that. I would be happy to work with you further on it.
    There are some good examples that we have seen in the 
Nevada and Las Vegas area, where that kind of concern arose. 
Some of the land is being transferred to the private sector, 
and the proceeds from that are being used to improve habitat 
and acquire sensitive areas. The Federal government is going to 
own those lands that really make sense for Federal protection, 
and the private sector and the local governments are acquiring 
other lands.
    Mr. Peterson. I can be a witness to you that my district is 
predominantly owned, or heavily owned by State government and 
Federal Government. When a county is more than 50 percent 
owned, I want to tell you, there is huge concern there when the 
Government is buying more, unless they are releasing some that 
they have. That is why the no net gain concept. I would just 
urge you to think about it.
    Mr. Skeen. Mr. Nethercutt.
    Mr. Nethercutt. Thank you, Mr. Chairman.

                             KLAMATH BASIN

    Welcome, Madam Secretary, and to the rest of the panel. I 
want to address with you a subject that is of grave concern to 
the west, the northwest in particular, and that is the Klamath 
Basin issue. Congressman Greg Walden, who happens to be here in 
the hearing room today, and I and Mr. Dicks and others in the 
west are watching the Administration's actions with respect to 
this issue very closely, because we think it has a deep impact 
on all of the west and all of the rural counties who may be 
similarly situated.
    I have submitted for the record, or will submit here for 
the record some specific questions that I would request that 
the Department answer expeditiously. But in the limitations of 
time we have, I am going to do my best to get through them, and 
would appreciate your response.
    The President went to Portland on January 5th and made some 
encouraging remarks regarding Klamath. And that was, those 
words were watched carefully and listened to carefully as we 
looked at the budget. And as we look at the budget, there is no 
new money for Klamath.
    So there is no money for restoration or water augmentation 
in the Basin, and this is a hot bed of environmental activity. 
The Administration assures us that something is being done, but 
there is not a lot to show for it. So I would ask that you 
address that issue with the Committee and tell us, what is the 
Administration going to do, will there be money, and what is 
the plan?
    Secretary Norton. This problem unfortunately came at a 
difficult time in terms of the budget cycle. We are now going 
through the process of the biological assessment and biological 
opinion that essentially will determine what needs to be done 
there. That information is not finalized at this point. It was 
difficult in the budget process to say how much we need, when 
we do not know what those numbers need to be.
    We worked with OMB on this, and they have agreed to allow 
us to work further with them to identify funding for the 
Klamath area and for specific projects. There are some projects 
that are funded that we know will have a benefit, for example, 
a fish screenin the Bureau of Reclamation and some habitat 
restoration. We are continuing to work on releasing the biological 
assessment from the Bureau of Reclamation that forms the basis for what 
we do in that area. We take this very seriously and will continue to 
work with the congressional delegation, as well as other stakeholders 
on further developments.
    Mr. Nethercutt. So in listening to your answer, I assume 
then that there will be, that there is a commitment on the part 
of the Administration that there is a dollar amount that would 
be appropriate to address this problem? Is that accurate? Would 
you agree that this is due some resources and some money with 
respect to the farmers and the losses, the problems that exist 
out there and the financial nature of those problems?
    Secretary Norton. It is due work and activities being 
accomplished and projects being done. I do not know what that 
translates to at this point in terms of a dollar figure. It is 
not just the Department of the Interior, it is also Agriculture 
and Commerce that need to be involved in this. We are working 
together on these issues and will continue to do so.
    We also have the National Academy of Sciences study that 
has been done. We are working to incorporate that study into 
our decisionmaking process. The study has also provided us with 
additional information about what needs to be done in that 
area. We have a very serious commitment to this. The President 
has stated his views on the need to address this area. So we 
are working to do that.
    Mr. Nethercutt. I appreciate that. However, I think it 
cannot be done short of a really serious economic commitment to 
this region and to this problem. You mentioned the National 
Academy of Sciences report. That is a good review. But I am 
wondering, as a follow-on to that, there was an instruction 
from your Department that the Fish and Wildlife Service and 
Bureau of Reclamation would review those findings and give you 
a report within 10 days. I am wondering if that report is 
complete; if so, what where the findings from those two 
agencies?
    Secretary Norton. We had feedback from the heads of those 
agencies, and we are incorporating their views into a two-fold 
kind of process. One is looking at overall improvement of 
science within the Department. The other issue is learning what 
we can for the Klamath Basin specifically and the biology 
there. The results of that should be coming out as we release 
the biological assessment and as the Fish and Wildlife Service 
does its review of that assessment.
    Mr. Nethercutt. I assume there will be lawsuits, there will 
be challenges to the biological opinions, the biological 
assessment. What is your strategy for preparing for that?
    Secretary Norton. We hope there will not be, but we are 
trying to make sure that the science and the work behind that 
is done in all of the appropriate ways to withstand litigation.
    We are also hoping to bring together the affected parties 
to find some common sense solutions and avoid the litigation.
    Mr. Nethercutt. A lot of people in rural America are 
watching very carefully. It is a big issue, and I know the 
President is beholden, with all due respect, to all the voters, 
to rural America for helping this Administration be in place. 
So I urge your continued attention.
    Secretary Norton. We will be doing some things in the 
coming weeks that I think you will find are a positive step.
    Mr. Nethercutt. Thank you, Mr. Chairman.
    Mr. Skeen. Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman.
    Good morning, Secretary Norton.
    Secretary Norton. Good morning.

                          COMPETITIVE SOURCING

    Mr. Moran. The rumor circulating in your Department that 
there is a grand plan to privatize or out-source as many as 
25,000 career Interior jobs, maybe you could share with us what 
might be the origin of that rumor and if you can deny it, maybe 
you could do so unequivocally to put peoples' concerns to rest.
    Secretary Norton. Congressman, let me refer you to a law 
that you all passed as the source of that rumor. It is called 
the FAIR Act, and perhaps someone can supply exactly what the 
abbreviation stands for.
    Mr. Trezise. Federal Activities Inventory Reform Act.
    Secretary Norton. What the Act requires us to do is to look 
at the positions within the Department of the Interior that are 
providing essentially private sector, non-governmental type 
functions that are not regulatory functions, and that are not 
ones that require the exercise of governmental-type discretion, 
and to then go through a process of analyzing those positions 
and evaluating whether those jobs should be out-sourced.
    This is first of all a process that we go through. The end 
result of that process is intended to be improved services to 
citizens and to provide cost effective Government. It is not 
designed just to reduce the number of Government employees. It 
is designed to improve the quality of service delivery.
    Mr. Dicks. Who does this within your department?
    Secretary Norton. Lynn Scarlett is the one who is in 
overall charge of the program. Sorry, Lynn. [Laughter.]
    It is something that is done and carried out by each of the 
bureaus. In terms of the numbers, for 2002 and 2003 together, 
we will be analyzing a total of 3,300 positions. I do not have 
any idea where a 25,000 number came from, unless that is over 
the next decade we would be analyzing those numbers of 
positions.

                 U.S. GEOLOGICAL SURVEY JOBS REDUCTION

    Mr. Moran. Fair enough. Let me ask you about a specific 
reduction that I am very much troubled by, and that is in the 
U.S. Geological Service. I understand that as many as 250 
Federal jobs will be lost due to a major reduction in the 
programs implemented by USGS, the only earth science and 
biological agency that the Federal Government has.
    I would like to get a sense of the actual numbers at 
headquarters and in the field and what you are doing about any 
RIF situations that might occur, and most importantly, justify 
why we should be making that kind of a reduction when a lot of 
these programs are becoming increasingly important in terms of 
homeland security, protection of the water supply, 
understanding of the topography and geology of a lot of our 
regions.
    Secretary Norton. There are a number of different kinds of 
programs that are affected by our proposal. We have gone back 
through and really looked at the various ways in which we are 
providing our services. One of the proposals is to transfer the 
USGS toxic substances hydrology program to the National Science 
Foundation. That is a portion of this. That would be a multi-
year transfer involving approximately 100 FTE that would be 
affected in USGS. That program would be ultimately transferred 
entirely to the National Science Foundation.
    Mr. Moran. With a concomitant increase in NSF?
    Secretary Norton. The NSF does its work in a different way 
than the USGS. We tend to do our work in-house, where the 
National Science Foundation tends to work through universities 
and other research activities.
    Mr. Moran. It would be a reduction, in the process of that 
transfer.
    Secretary Norton. I cannot speak for exactly what the 
National Science Foundation would do. Let me ask these folks to 
provide you with more details.
    Mr. Trezise. Mr. Moran, specifically with respect to the 
proposal to transfer the toxics program to the National Science 
Foundation, the Geological Survey and NSF have been working 
together on a transition plan which would provide for a three 
year transition of that program. There are about 90 employees 
in the program, and at the end of three years they would need 
to be absorbed elsewhere in the Geological Survey. In terms of 
the overall employees in GS, that is less than 1 percent of the 
employment. We would anticipate that all of those employees 
would be able to be placed in other positions.
    Mr. Moran. The toxic program has received a fair amount of 
publicity recently, because they found out how importantit was 
and how imperative it is to pursue that research. You are doing it with 
the university in California, is it CalTech? I am not sure which one it 
is, but it is being done in collaboration with the university. There 
has been a fair amount written about it, because of the danger to our 
water supply. It is what the USGS has done that is the source of the 
knowledge that we have to go on.
    Well, I do not want to overdo the lenience of the Chairman 
here on this issue, but I do think it is important enough that 
we are going to have to revisit it. I am not sure that NSF 
wants it, is ready for it, and I am not sure we can really 
afford to be sending that kind of effort out of house to 
contract it out and lose the kind of institutional knowledge we 
have built up in the U.S. Geological Service.
    Secretary Norton. If I can just quickly address your 
overall point. I want to make clear that our total proposed 
reduction would be 249 FTE, which is less than 3 percent of 
USGS employment. We believe that can be absorbed within the 
existing turnover within USGS, because of retirements and so 
forth. We do not anticipate any RIF at the levels that are 
proposed within the budget.
    Mr. Moran. That is encouraging, but I do have concerns over 
the loss of that kind of expertise. Even though you will be 
moving them around, they will no longer be focusing in that 
area where they have developed their expertise. I think that 
could be a problem.
    Thank you, Mr. Chairman.
    Mr. Skeen. Mr. Kolbe.
    Mr. Kolbe. Thank you, Mr. Chairman.

           ENVIRONMENTAL DEGRADATION FROM ILLEGAL IMMIGRATION

    Madam Secretary, thank you very much for being here today. 
A couple of questions I want to ask that really follow up on, 
at least one of them follows up on something this Committee did 
a couple of years ago. In fact, this Subcommittee and two other 
subcommittees included language in our report dealing with the 
problem of environmental degradation that we have experienced 
along the border as a result of the huge influx of illegal 
immigrants coming across the border. It really is a staggering 
problem, and I have had an opportunity to look at it on several 
occasions. Just mountains of trash and abandoned clothes, 
abandoned plastic bottles, human feces, camps just everywhere, 
just covering the ground there.
    We asked, in the language, we asked the Forest Service and 
BLM, the INS and EPA to work on a plan to mitigate 
environmental damage that was caused by these illegal 
immigrants crossing. I am very pleased that BLM took the lead 
on this and has worked on that.
    The report of how we are to proceed with this was supposed 
to be done by October 1st. It has not been completed. I do not 
want to be too critical, because it is your Department of the 
three of them that is taking the lead in actually getting 
something done. But as we proceed with our budget 
considerations here, it would be very helpful if you might at 
least provide for the record the initial findings and funding 
recommendations that you have, because we are going to need to 
consider that when we get around to writing a bill.
    I do not want people in Arizona to have to wait another 
year to do anything about the cleanup of this horrible mess 
that we have along the border.
    Secretary Norton. Congressman, you raise an issue that was 
significant for us last spring and summer. I asked my Chief of 
Staff to participate in a border conference and to examine that 
issue personally. It obviously assumed new importance after we 
began looking seriously at homeland security issues. We are 
working with Homeland Security, with the INS, and with others 
on the overall issue of our borders and how we insure that we 
are taking the right steps there.
    The report that you mention is currently in the review 
process. We anticipate being able to provide you with a final 
report in the very near future that will reflect our new 
perspectives on this, post-September 11th, as well as the 
initial type of information we would have given you earlier in 
the year.
    [The information follows:]

                       Immigration Impacts Study

    The report on impacts caused by undocumented aliens 
crossing Federal lands in southeast Arizona was transmitted to 
the House of Representatives Committee on Appropriations on 
April 29, 2002.

    Mr. Kolbe. Thank you. I appreciate that response. Please 
keep in mind the deadlines of this Subcommittee in drafting its 
bill, as you do that. Try to make sure we have that information 
in hand.
    Secretary Norton. It is my understanding that it should be 
mid to late March that the final report would be available.

                       IPA PROGRAM PARTICIPATION

    Mr. Kolbe. Another very local issue. I have a town in my 
district that wants to participate in the IPA program. I think 
that stands for Interagency Personnel Assignment, I am not 
exactly sure. It is a program where the salary is paid by the 
Federal agency, the housing and the other provisions are made 
by the town or the local community. It is a win-win, because 
the Federal agency gets some real world experience and the town 
gets an experienced person to assist them. They want to use 
this person to develop their habitat conservation plan. We 
have, as you know, major issues of habitat conservation in 
Arizona with the pygmy owl.
    I know you have supported Federal-local partnerships, so I 
hope you would be willing to work with us to find somebody 
possibly from the Fish and Wildlife Service who might 
accomplish the objective. It would be extraordinarily helpful 
in what we are trying to do down there.
    Secretary Norton. That is very consistent with the type of 
thing that we are trying to do to work better with States and 
local communities. I will be happy to look into that specific 
situation to see what we might be able to make available.

                           HOOVER DAM BYPASS

    Mr. Kolbe. Thank you very much. One other fairly 
substantive question. I have been told that you believe that 
Hoover Dam is one of the major security issues that comes under 
your Department. We have been advised that there have been some 
security breaches of credentials for that that are very 
disturbing, loss, theft of security credentials. We need to do 
something, as you know, to get that bypass built, so that we do 
not have these trucks going right over the top of the dam all 
the time.
    I know you do not have jurisdiction over the Bureau of 
Reclamation, or this Subcommittee does not have jurisdiction, 
you have jurisdiction. We do not have jurisdiction over the 
Bureau of Rec. But it is my opportunity to ask you about this, 
and I hope you can address this matter and suggest ways the 
Department of the Interior and the Bureau of Reclamation can 
help to move this project along as rapidly as possible. I think 
it is a critical project.
    Secretary Norton. First of all, let me say I am not aware 
of the security breach problems that you are discussing. We 
have enhanced the security at the dam. We went through a major 
process of looking at security as we made the decision to re-
open the dam for limited visitor tours. That hasbeen on our 
radar screen. I personally visited the dam.
    The Administration has endorsed the proposal for an 
alternative route, so that traffic does not have to go over the 
dam itself.
    Mr. Kolbe. We have appropriated some money, but it is very 
slow in getting us to where we need to be to actually construct 
that.
    Secretary Norton. I had some interaction with the 
Department of Transportation in preparation for a visit to 
Hoover Dam a few months ago. The Administration supports 
getting the new road done and getting it done quickly.
    Mr. Kolbe. I hope we can make this a very high priority, 
both in Transportation and the Bureau. It is critical. You know 
from having been there how that winds down there and the 
danger, not only the physical danger, but the overload of these 
trucks in what is now the Phoenix-Las Vegas corridor, a major, 
major transportation corridor. It is not in my district, not 
even close to my district, it is a major problem for our State 
and for that area of the Southwest.
    Thank you for your response, and let me just also say the 
Upper San Pedro Partnership that has been supported by your 
department has been doing absolutely outstanding work, and I 
appreciate it and hope that you will continue to support the 
work that it is doing.
    Secretary Norton. Thank you.
    Mr. Kolbe. Thank you, Mr. Chairman.
    Mr. Skeen. Mr. Wamp.
    Mr. Wamp. Thank you, Mr. Chairman.

                              ROLE OF USGS

    Madam Secretary, welcome. I want to first compliment you on 
your first year of service. To me, you combine grace and reason 
with resolve and tenacity. And that is a rare combination in 
our Executive Branch or any branch of Government, and I really 
commend you on your first year.
    Three issues. U.S. Geological Survey, Representative Moran 
mentioned it. But the budget request is so slim that I would 
just ask if there is a changing role from the Administration 
for USGS's role on other issues, just based on the budget 
request. Does this mean that certain missions will be moved to 
other areas? What is the Administration's position relative to 
USGS's role on issues like water?
    Secretary Norton. To begin with, USGS provides very 
important scientific information for our land management 
agencies. They are the scientific support for a lot of the 
challenges that we face as land managers and for administrative 
programs like the Bureau of Reclamation. So we are working to 
increase the coordination between USGS and our land management 
and other agencies.
    Secondly, there are programs that USGS performs that are 
done for the benefit and in cooperation with State governments, 
for example. Some of those have truly been done in a 
partnership kind of way. Some of those are things where the 
USGS has done the work without getting the outside partners 
financially involved. We are looking at those programs to see 
what can be done to enhance the partnership by getting those 
partners financially involved.
    Mr. Wamp. By leveraging the investment?
    Secretary Norton. By leveraging the investment. That is one 
of the things that is reflected in our proposal.
    Third, there are some over-arching analyses of the way in 
which scientific activities are performed for the Federal 
government. The National Science Foundation has won very high 
marks for the way in which it approaches its management of 
scientific activities and the cost effectiveness and quality of 
the work that it does. So they are being looked to for 
fulfilling some of the responsibilities, such as the toxic 
substances program.

                      STRATEGIC PETROLEUM RESERVE

    Mr. Wamp. Strategic Petroleum Reserve, the budget request 
does not match the stated objective to fill it. How do you see 
us filling it since it is not asked for in the budget?
    Secretary Norton. The Strategic Petroleum Reserve would 
receive royalty-in-kind transfers. There are two aspects of our 
cost on that. One is for a computer system that would allow us 
to handle the processing of the royalty-in-kind program, which 
is different than our usual accounting program. That program, 
that computer funding, is in the budget. What is the dollar 
amount?
    Mr. Trezise. About $6 million.
    Secretary Norton. The other aspect of that is 
transportation costs for the oil itself. We are still working 
as an Administration on that issue.
    Mr. Wamp. You are looking to us for help I guess also?
    Secretary Norton. There are some possibilities in terms of 
sale of some of the oil to cover the transportation costs. That 
is still an unresolved issue.
    Mr. Dicks. Would you need legislative language to allow 
that?
    Secretary Norton. I do not know the answer to that.
    Mr. Trezise. Yes, Mr. Dicks we would.
    Mr. Dicks. Thank you.

                 INDIAN TRUST REFORM AND RESTRUCTURING

    Mr. Wamp. One other Dicks issue I want to follow up on. 
Typically, cabinet Secretaries get little sympathy over here. 
But I do not know of anything I have felt more sorry for any 
Cabinet Secretary in the last eight years on than Indian trust 
reform and what a burden that is that you have inherited. As I 
have studied this, I know you mentioned it in your opening 
testimony and I know you and Mr. Dicks had some commentary on 
it.
    But can you go into a little more detail about this Bureau 
of Asset Management and how that is actually coming together, 
specifically, and whether or not this Assistant Secretary 
position you think will happen?
    Secretary Norton. I believe very strongly that reform and 
organizational restructuring will happen. We are committed to 
see that a process goes forward that will give us a structure 
allowing us to effectively manage these assets.
    I also believe strongly that we ought to be encouraging, 
allowing, and providing opportunities for the tribes to manage 
their own resources. Some of the tribes viewed our proposal as 
perhaps interfering with that. That is frankly the last thing I 
want to do. I want to enhance the ability of the Tribes to 
manage their own assets.
    We are going through a process of consultation with Tribes. 
We are working through our management consultants, analyzing 
all the different parts of that program and determining how 
best to go about meeting those reform objectives. We want to 
work with the Tribes to see that whatever proposal we come out 
with is one that does have their support and at least has 
something that they will feel comfortable with.
    I think there are a variety of different ways of 
accomplishing our goals. I made a good faith judgment that our 
proposal for a new Assistant Secretary was the best way to go. 
I keep an open mind in terms of seeing if there are other ways 
that we can accomplish the objectives. So I do not want to 
foreclose and say this is the only way to do it. I feel like we 
have come up with a good proposal. I have been asked to take 
that off the table and I have refused to do that, because I 
think it is a valid proposal.

                  MAINTENANCE BACKLOGS ON PUBLIC LANDS

    Mr. Wamp. Being concise, let me just go in one other 
direction, which I just thought of. Let us just ask, on all the 
backlog of all of our public lands, add MPS, everything 
together, it is obviously a big priority of this 
Administration, and understandably so. It is obviously a big 
priority to this Subcommittee, our Chairmen has really made it 
a big priority. Can we come up with a seven year plan? Let us 
say this Administration has seven years to address this. Can we 
come up with a long range plan to get out of debt, so to speak, 
with the backlog of maintenance on public lands in America?
    Secretary Norton. We could look at a seven year plan. But 
we are doing several things. One is trying to address backlogs 
in, for example, the national park area. We are enhancing the 
ability of the Fish and Wildlife Service to deal with some of 
their backlogs. As managers, we take seriously the 
responsibility to manage what we have and take care of what we 
have and not just keep looking at acquiring new things.
    Another important part of that is getting the management 
systems, the ranking systems, the tracking systems in place to 
really figure out the backlog, figure out what is routine 
maintenance, and prioritize the things that need to be done. 
Frankly, it is an almost limitless amount if you start going 
out and asking, what could we do for this particular area? 
People will come up with a huge laundry list. We need to be 
able to prioritize that.
    We are getting those kinds of systems in place. The Park 
Service has been working on assessments of their park areas to 
find out in a uniform kind of way what needs to be done and 
what are the most pressing needs at the various parks.
    Mr. Wamp. Very good. Thank you, Mr. Chairman.
    Mr. Skeen. Mr. Kingston.
    Mr. Kingston. Thank you, Mr. Chairman.
    Madam Secretary, it is great to see you again. On a 
personal basis, I had the opportunity to go to Ellis Island and 
the Statue of Liberty in August with my family. It is a great 
facility. I only wish you could find a way to let more people 
climb up to the top of the Statue of Liberty, because they shut 
that down in the heat of the summer because of the crowds, or 
they greatly restrict it. It is a little anti-climactic, when 
you go there and you cannot get up there.
    I do not know if there is architecturally a way to do it. 
But the staff there was just really great to us. We appreciated 
it.
    Secretary Norton. Thank you.
    Mr. Kingston. A couple of oddball questions, and I am 
really amazed at the way you can answer all these micro-issues 
so easily, so I have some more for you.

                MULTI-SPECIES HABITAT CONSERVATION PLANS

    Habitat conservation plans, the Riverside in California, it 
is a State-Federal-local partnership. It costs them about $1.5 
billion. These plans are very successful. But how can we afford 
to do these? What are our plans in terms of expanding this or 
coming up to some level where it is practical to do it?
    Secretary Norton. We are working on a number of fronts on 
endangered species. One of those is to enhance our cooperative 
efforts with the landowner incentive program and with the other 
programs that will bring in partners to work cooperatively on 
endangered species issues, before we get to regulatory 
situations that create conflict over endangered species.
    We are working with the States in a way that I think is 
fairly unprecedented. We have a new head of the Fish and 
Wildlife Service who was head of the Kansas Department of Fish 
and Wildlife and who has really been working to build 
partnerships with his State counterparts. That gives us the 
ability to amplify our resources by working with the States.
    We need to look at the result on endangered species habitat 
conservation plans. I want to make sure that we are looking at 
just what needs to be done for the species and improving the 
habitat, and not changes in legal ownership of the land. Most 
species cannot really read land titles to know who owns the 
land. I want to be sure that we are focusing on what needs to 
be done for the species and then working together in 
partnership to solve those problems.
    The multi-species habitat conservation plans like that one 
are excellent models for trying to solve those problems. So I 
am supportive of that kind of approach.
    Mr. Kingston. They had a lot of promise, but they just had 
such a big price tag that we need to just try to find a way to 
make it work.

                        USGS PROGRAM REDUCTIONS

    At USGS they are doing a lot of studying on toxic 
substances, hydrology, but yet the budget eliminates that. Any 
comments on that? Are you familiar with that?
    Secretary Norton. We already had a bit of discussion on 
that. Basically what that proposal does is transfer that 
program to the National Science Foundation. There is a 
transition process for doing so.
    Mr. Kingston. And stream gauging? You reduced the budget 
for that?
    Secretary Norton. Let me defer to my colleagues here.
    Mr. Trezise. Mr. Kingston, we are maintaining the stream 
gauging budget at the same level as in the year 2000.
    Mr. Kingston. But not the same as 2002?
    Mr. Trezise. Correct.
    Mr. Kingston. Well, I just think in terms of the flood, 
that might be something we need to look at, because there is a 
14 percent reduction.

                              MIDWAY ATOLL

    Midway Atoll, as you know, there is a national wildlife 
refuge there. But there is also an opportunity, we have an air 
strip there, and it is run by a private company. It is a great 
strategic location; the Battle of Midway 60th anniversary is 
coming up. What are your thoughts on that? There seems to be a 
little bit of a tug of war right now between the private 
company that is operating it and the Fish and Wildlife Service.
    Secretary Norton. That situation has been a great 
frustration for us. We became aware of that when an issue came 
up about providing some fuel to Midway that could then be sold 
to aircraft.
    Basically the Midway Phoenix Corporation defaulted on a $2 
million payment for fuel several years ago and owes the Fish 
and Wildlife Service $340,000 for service and equipment. We 
reached an agreement with them on a fuel contract last 
November. They agreed to pay us $300,000, and they made one 
payment of $50,000 but then notified us that they would be 
leaving the island and not following through on that contract.
    So we are in the process of negotiating with them to see if 
we can dissolve the cooperative agreement without litigation. 
We are trying to maintain the continuity of operations, but we 
may seek flexibility in reprogramming or authorization to try 
to do that. Unfortunately, it appears that our private sector 
cooperative approach has not been successful.
    Mr. Kingston. But if that happens, the Federal Government 
has to step in and pick up the cost of it?
    Secretary Norton. It either needs to be borne by the 
private party, perhaps as a result of litigation, or it needs 
to be the Federal Government, or the activities need to be 
scaled back. There is no other option that I am aware of for 
that.
    Mr. Kingston. If we can be part of that, we want to be. 
That is, as you know, a Georgia company. That is our interest 
in it. But also, our interest is that in the long run, it 
should be less expensive on the taxpayers if we keep that 
partnership and that involvement.
    Secretary Norton. I believe they have informed us that they 
are now walking away from those operations.
    Mr. Kingston. In fact, I think March 2nd, but I do notknow 
if there is a way to save the relationship or not. I do not know what 
the budget impact would be if that happens. Do you know?
    Secretary Norton. Beyond what I have said here, I do not 
know. Do you have any further information?
    Mr. Trezise. Mr. Kingston, we will be working with other 
agencies that have concerns with continuing air service at 
Midway. The Department of Defense, the Coast Guard, Federal 
Aviation Administration and private cooperators, including 
Boeing, have an interest in seeing that the airstrip is 
maintained in service. We are hopeful that we can at least 
arrive at an arrangement that will allow us to maintain a 
functioning air strip that can receive commercial service.
    As far as the facilities, we will be working with the Fish 
and Wildlife Service to see what arrangements we can arrive at 
to continue to provide the wonderful opportunities visitors 
have to visit the island.
    Mr. Skeen. Thank you.
    Mr. Regula.
    Mr. Regula. Thank you, Mr. Chairman.

                        EVERGLADES WATER SUPPLY

    Madam Secretary, I want to commend you for your 
Department's handling of the binding agreement between the 
Federal Government and the State of Florida to ensure that 
specific targets are set for ensuring adequate clean water 
supply to the Everglades and other natural areas. I would like 
to say, getting you the authority to make those agreements was 
not achieved easily. That is history, of course.
    The Committee is aware of your current negotiations with 
the Army Corps of Engineers on the programmatic regulations. 
What is the status of those negotiations?
    Secretary Norton. I recently had the wonderful opportunity 
to visit the Everglades and also to participate in our South 
Florida Ecosystem Restoration Task Force. I think that is a 
very positive process. It brings together all the different 
interests and allows them to express their views.
    The Corps of Engineers was good enough to let all of us 
have the opportunity to have input on their regulations even 
before they reached the preliminary draft stage, and we are 
still working with them. I am not sure of the exact status of 
their proposed regulations, but I do not think the official 
draft form has come out. We are going through a number of 
meetings of the Task Force, which includes the Corps of 
Engineers, to give them the opportunity to hear first hand from 
all the various interests about their views on the regulations. 
Hopefully when their draft comes out, it will already include 
input from many different entities, including our Department.
    Mr. Regula. Are they respecting your right to have input?
    Secretary Norton. Very much so. They have been working with 
us and we have been commenting informally and going through 
their preliminary regulations. Obviously, we have differences 
in view, but we have had a very good working relationship.
    Mr. Regula. I assume from what you said you are going to be 
able to ensure that the Interior Department's interests are 
satisfied.
    Secretary Norton. We are certainly working to see that that 
takes place.
    Mr. Regula. The draft regulations call for the Department 
of the Interior to participate in many of the planning, design 
and assessment activities involved in implementing the plan, 
but does not provide for a leadership role for DOI. Should DOI 
have a leadership role on the recovery team which would give 
the Interior Department more say in determining what 
performance measures and targets are used in judging success in 
restoring the ecosystem, and how will you ensure that that 
happens? Because you do have a huge stake.
    Secretary Norton. I know that there are a number of 
different processes for different projects and different 
portions of the project. Interior has been involved in working 
out how our role would be fulfilled in those different types of 
projects. I would be happy to have Ann Klee, who is my 
appointed person as chair of the Restoration Task Force, 
provide some additional information to you and your staff about 
how exactly that is carried out in different aspects.
    Mr. Regula. I assume the challenge is to ensure that there 
is adequate water to replenish the ecosystem in the Everglades.
    Secretary Norton. That is the commitment made by the 
President and by Governor Bush in the agreement that they 
signed--that as these new projects are done, the water is not 
immediately shifted away to other uses. The restoration of the 
ecosystem is the priority use for that water as it becomes 
available.
    Mr. Regula. That it would have the highest priority?
    Secretary Norton. That is my understanding, yes.
    Mr. Regula. That is very important. Well, I wish you well.
    Mr. Dicks. Would the gentleman and former chairman yield 
for just a point?
    Mr. Regula. Yes, of course.

              WATER LEVEL IN CANALS IN SOUTHERN EVERGLADES

    Mr. Dicks. Apparently there is a dispute about the level of 
the dikes in the southern part and how much water can actually 
get through. How is that going? Because that seems to me to be, 
it not getting fresh water back to, is it Florida Bay, a very 
crucial element of the success of this project?
    Secretary Norton. There are a number of different places 
where they are doing that sort of thing. And they are making 
decisions about what needs to be done with specific canals and 
with roadways and so forth. I do not know the specifics, to be 
able to give you exact information. But I would be happy to 
provide that for the various projects. I have gone down and 
toured that area. I know the general hydrology problems that we 
are facing, but I cannot tell you as to specific projects.
    Mr. Dicks. Just one final point. The Task Force has not 
approved one of the Committee's work items, an analysis of the 
human dynamics of the restoration. Why not? Do you know why 
not?
    Secretary Norton. I am not familiar with that, but I would 
be happy to provide that.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Dicks. Thank you.

                        AFRICAN AMERICAN MUSEUM

    Mr. Regula. Just one last question. I believe that you will 
be the agency to develop the African American museum, which 
will be maybe in the Smithsonian, we are not sure. What is the 
status of that at the moment?
    Secretary Norton. I have worked with the Park Service and 
just designated the head of the Park Service, Fran Mainella, as 
the head of our operation to analyze that. We will be moving 
forward with that, and we are very enthusiastic about 
fulfilling that project.
    Mr. Regula. Thank you. Thank you, Mr. Chairman.
    Mr. Skeen. Mr. Hinchey.
    Mr. Hinchey. Thank you very much, Mr. Chairman.
    Madam Secretary, I apologize for not being here earlier. It 
is very nice to see you and to go over some questions with you.
    Secretary Norton. Nice to see you.

                         EVERGLADES REGULATIONS

    Mr. Hinchey. I want to follow up on the Everglades 
situation, if I may. This question has to do with the draft 
regulations and the authority of the Department of Interior to 
concur in specific aspects of those regulations, including 
those which define the quality, quantity, timing, and 
distribution of water prior to the restoration of the 
Everglades.
    What we see happening is that there has been every effort 
made to put these decisions into protocols and mechanisms 
outside of the regulations. In effect, the initial draft in 
effect circumvents the authority of your agency to concur in 
the contents, and decisions regarding the contents of the 
regulations. So if there is little or no content in the 
regulation, then the Department of Interior has nothing in 
which to concur or not concur.
    Can you tell us how you are trying to address the 
shortcomings in the initial draft of the regulations?
    Secretary Norton. That is one of the points that was 
discussed in great detail and has continued to be discussed in 
great detail through the Everglades Restoration Task Force. We 
have informed the Corps that we would like to see that issue 
addressed in their regulations. We have until December to 
complete final regulations. They began the process fairly 
early, and we are getting those issues out on the table. 
Hopefully there will be an ability through this discussion to 
have more concrete information fleshed out as to the various 
projects and the way in which the regulations address those 
projects.
    Mr. Hinchey. May I be so bold as to strongly encourage you 
to be a fierce advocate for the Department of Interior in these 
decisions? The issue of water in the Everglades is obviously, 
as we all know, the most critical issue. If people are 
maneuvering within the Administration to try to exclude your 
agency from the important decisionmaking activities regarding 
how this water is going to be manipulated, then we are going to 
lose this ball game. We have an awful lot of money, an awful 
lot of time and effort invested in it under the leadership of 
the present Chairman and particularly the previous Chairman, to 
see that happen.
    This is the most important restoration project ever 
conceived and carried on by anyone anywhere. So I would just 
hope and will be supporting you in every way that you will be 
tough on this. You have to fight for your responsibilities and 
your decisionmaking abilities in this battle. Because as you 
know, people are trying to squeeze you out.
    Secretary Norton. The President has made a commitment in 
the agreement he signed with the Governor of Florida that the 
water will be available for the restoration of the ecosystems. 
The Administration is committed to that. My people are working 
very hard through the Ecosystem Restoration Task Force and our 
other efforts to ensure that that is going to happen. I am very 
optimistic about the way in which that process is moving 
forward.
    Mr. Dicks. Would you yield just briefly? Has the Corps of 
Engineers been told about this? [Laughter.]
    They have a different view, I am told.
    Secretary Norton. They are involved in this process.

               INTERIOR'S ROLE IN DEVELOPING REGULATIONS

    Mr. Hinchey. The initial draft regulations are at issue 
here. What those regulations contain when they finally come out 
is going to be critical. How those regulations define your role 
as an active participant in this process is critical. So we are 
going to be watching that process very, very closely.
    Also there is an interagency group, which is known for its 
acronym, RECOVER, that has provided a scientific advisory role 
in the implementations. But I wonder what your role is. I 
understand that you do not have a leadership role in that 
advisory group, or that the Department of the Interior does not 
have a leadership role in that advisory group.
    Secretary Norton. Let me provide that information for the 
record for you. I am aware of that group, but I would like to 
provide accurate information.
    [The information follows:]

                                RECOVER

    The purpose of the Restoration, Coordination and 
Verification (RECOVER) teams is to provide system-wide 
evaluations and analyses to determine whether modifications to 
the Comprehensive Everglades Restoration Plan are needed. 
Additionally, RECOVER assists in CERP implementation through 
its support of the adaptive assessment program.
    RECOVER is chaired jointly by the Army Corps of Engineers 
and the South Florida Water Management District (SFWMD. It is 
composed of six technical teams and a leadership team; each 
team with tri-chairs who are then eligible to sit on the 
leadership committee. Interior staff participate on RECOVER, 
and are serving as a team tri-chairs on nearly all the teams.
    The Corps and the State are currently drafting a Memorandum 
of Understanding that will define the framework of the RECOVER 
teams. They have sought Interior's insight into this issue. The 
Department believes that this will place Interior in an 
appropriate role to ensure that Interior science will serve as 
a solid basis for decision making. The Department looks forward 
to working with the Corps, the SFWMD and other agencies on 
RECOVER teams.

                    ROADS AS WATER FLOW IMPEDIMENTS

    Mr. Hinchey. I would appreciate that very much. And the 
question that was raised by Mr. Dicks a few moments ago, having 
to do with the way the water flows, and the impediments to that 
flow? The impediments, of course, are the roadways that have 
been built east to west across Florida. Unless the water is 
able to get through those roadways, which were built on an 
elevated level, the restoration of the Everglades is not going 
to occur. You are not going to have that wash of water back and 
forth.
    The proposal is to elevate the roadway in a way that, for 
example, Interstate 10 is elevated as you go out of New Orleans 
in that area of Louisiana. I do not know if you have ever 
driven over that road, but take my word for it, Interstate 10 
is up in the air and it is on stanchions or pillars. The 
natural ecosystem underneath it just continues to behave as it 
would normally, with minimal interference.
    That is what must occur in Florida with regard to these 
roads. This is probably one of the most expensive parts of this 
project. But unless the roads are elevated, and I mean 
seriously elevated, not just in two or three places, but 
seriously elevated all across the peninsula, you are not going 
to get that flush of water back and forth, and we are going to 
lose the battle. Then all of the money that we have spent is 
going to be in vain, and the opponents of restoration are going 
to be the winners.
    So Mr. Dicks' question is absolutely critical. I know that 
our Chairman knows this. So I would hope that you can give us 
some concrete assurances that that road is going to be, 
Alligator Alley is going to be, elevated so that the water will 
flow.
    Secretary Norton. It is my understanding that a decision on 
that is several years away, and that scientific studies are 
underway to look at how much of it needs to be elevated to 
accomplish the environmental goals.
    Mr. Hinchey. Yes, that is why I am concerned about the 
draft regulations and your role in RECOVER. If you are excluded 
from participating in the draft regulations, and if the draft 
regulations exclude your ability to then come in and make 
appropriate comments about aspects of the regulations once they 
get into place, that roadway is not going to be elevated. If 
you do not have a leadership role in the RECOVER operation, 
that roadway is not going to be elevated. People are fighting 
that, and that is very critical.
    I know the decision is several years away. But the 
decisions we make today are going to lead into that decision. 
Unless we make the right decisions today, the wrong decision is 
going to occur several years in the future.
    Secretary Norton. We are chairing the task force through 
which the decisions are being made and discussed. This is an 
important issue for the Administration. I am confident that we 
will be having those kinds of issues appropriately addressed in 
the long run.
    Mr. Hinchey. Okay, but let us address them in the short run 
as well. Let us address them in the context of the regulations. 
We have got to have a different attitude expressed in those 
regulations when they become final. The draft does not look 
good the way it is now. You need a responsible position in this 
RECOVER group, because your voice needs to be heard. The voice 
of the Department of the Interior is critical and needs to be 
heard. If it is not heard, we are not going to get good 
decisions.
    Secretary Norton. I am not feeling silenced.
    Mr. Skeen. Mr. Dicks.

              LEASES FOR DRILLING OFF COAST OF CALIFORNIA

    Mr. Dicks. Madam Secretary, I was very concerned earlier 
this month when the Washington Post reported that the Justice 
Department has appealed the Federal Court ruling which 
recognized the State of California's right to block drilling 
for oil and gas off the California coast under a group of old 
leases. As you know, George Bush, Senior, proposed the current 
ban on California drilling and Congress has extended it through 
2012. The ban includes a general provision to the Interior bill 
which the President has not proposed in his budget to change.
    Can you clarify the Department of Interior's position 
generally on drilling off the California coast and with respect 
to these old leases in particular?
    Secretary Norton. Let me start with the litigation. The 
concern about the issue is its impact throughout everything 
that the Minerals Management Service does. Our ability to 
suspend leases is one of the ways that we can make sure that 
activities do not go forward on a lease until environmental 
standards are met. We have emergency lease suspensions, we have 
suspensions for a variety of reasons. Those are basically just 
extending the status quo while other things are being worked 
out.
    The managers that handle these issues at the MMS felt that 
their ability to manage their programs would be impacted by the 
decision of the district court in that case.
    Mr. Dicks. Which granted the State of California the right 
to block, I guess, like 32 of these leases. I think the issue 
here is whether the State of California has the right to block 
these and if the State does not, then it is going to be up to 
the Administration to decide whether they want to go forward 
with these 32 older leases I think that were done even prior to 
the time when we had this ban.
    Mr. Regula. Would the gentleman yield?
    Mr. Dicks. Certainly.
    Mr. Regula. Were those not excluded in the ban?
    Mr. Dicks. Yes, I think that is correct. They were excluded 
in the ban. But the decision the Administration is going to 
have to make is, I would assume, a challenging if not difficult 
decision, on whether they in fact want to, considering the 
situation in California, want to go ahead with this if they 
should prevail in the lawsuit.
    Secretary Norton. We are certainly aware of that issue. 
Without saying too much, because of the litigation, there are 
issues as to the compensation that those lease holders might 
demand, if the Federal Government is not following through on 
what they paid for when they acquired those leases. So we need 
to balance the long standing obligations under leases that were 
issued years ago with the current concerns.
    Mr. Dicks. Just generally, do you favor, would you favor 
going ahead with these leases if a court said that you could?
    Secretary Norton. We are opposed to any additional leasing 
in the moratorium areas. The President has made that position 
clear. We have to do the difficult analysis of what the impact 
is on existing leases.

            DRILLING IN THE ARCTIC NATIONAL WILDLIFE REFUGE

    Mr. Dicks. All right. Madam Secretary, you have been 
forthright in stating your support for drilling for oil in the 
Arctic National Wildlife Refuge, a position which 
notwithstanding last summer's vote in the House remains highly 
controversial. Would you update the Subcommittee on the status 
of the Administration's current proposals for oil and gas 
exploration within ANWR?
    Secretary Norton. We are currently working with the Senate 
on that proposal. We have gone forward using the House 
legislation as the core of the Administration proposal. It 
provides very stringent environmental protections. It is the 
most stringent environmental regulation ever applied to oil and 
gas operations.
    We have agreed to the provision that would limit the 
surface impact to 2,000 acres of the ANWR area. It would 
require the use of 21st century technology and directional 
drilling so that we could reach underground for long distances 
without surface impacts.

                        CANADA LYNX CONTROVERSY

    Mr. Dicks. One other final issue. There has been a lot of 
press recently about employees of the Fish and Wildlife 
Services and other agencies planting false samples of lynx hair 
in conjunction with a Canadian lynx survey done in Washington 
State. What specifically is being done to address this problem, 
and what are you doing to ensure it is not repeated in other 
programs?
    Secretary Norton. We have referred that issue to the 
Department's Inspector General to look at the specific 
situation that happened there. We are awaiting his report on 
that.
    Overall, we need to ensure that science in the Department 
is professional and is appropriate. I would like to see that we 
have as the core principles for science in Interior high 
ethical and professional standards, appropriate training and 
allocation of staff resources, independent scientific review, 
and active participation with States and other partners in our 
science.
    Mr. Dicks. All right. Mr. Chairman, I did not know this 
when I asked the last question. Mr. Obey has a question he 
would like to have asked.
    Mr. Skeen. All right.
    Mr. Dicks. Madam Secretary, Mr. Obey could not be here this 
morning because of full committee obligations. But he has a 
number of questions which he will be submitting for the record.

                     FISHERS PEAK VISITORS' CENTER

    Mr. Dicks. There is one, however, which he wanted me to ask 
about this morning. He and Congressman Boucher have taken the 
lead in support of a new visitor's center at Fishers Peak in 
the Blue Ridge. The 2002 bill provided the final appropriation 
for the Fishers Peak construction. Do you expect to initiate 
the construction in the near future?
    Secretary Norton. My information is that the Fishers Peak 
Music Center has not yet been constructed. The Development 
Advisory Board of the National Park Service is scheduled to 
review this project in May of 2002. It reviews line item 
construction and partnership projects to ensure that technical 
requirements, value based decisionmaking, and policy guidelines 
are met. The exhibits, which are being done by the National 
Council for the Arts, are not yet at a stage where they can be 
reviewed by that board. The board will provide a determination 
at a later date as to whether or not to exempt the exhibits 
from review.
    Mr. Dicks. Okay. Thank you.
    Mr. Skeen. Mr. Nethercutt.
    Mr. Nethercutt. Thank you, Mr. Chairman.

                 LYNX PROBLEM INSPECTOR GENERAL REPORT

    Madam Secretary, as a follow-up to the issue of the lynx 
problem, when will the IG report be forthcoming? Is there a 
date set?
    Secretary Norton. There is not a set date. I assume it will 
be fairly soon that we will be getting those results.
    Mr. Nethercutt. Are you thinking within the next 30 days as 
fairly soon? Would that be the range?
    Secretary Norton. The inspector general operates 
independently, but that would be my expectation.
    Mr. Nethercutt. Have you reached any preliminary 
conclusions based on any evidence that has been presented to 
you about this situation, given the concern about the Klamath 
Basin science, given the concern of, again, Pacific 
Northwestern residents who have real troubles with respect to 
this lynx issue, as well as the Klamath issue?
    Secretary Norton. As to that particular situation, I do not 
want to comment on the lynx situation until I see the Inspector 
General's report. But overall, we want to take steps to ensure 
that we do have good, solid science as the basis for our 
decisionmaking and that we peer review appropriate decisions, 
because I think that peer review is one of the best ways of 
ensuring that we have appropriate science. That was the basis 
for referring the Klamath situation to the National Academy of 
Sciences.
    One of the other things we have found is the training of 
our scientists and making sure that the people who are 
providing scientific advice are truly qualified to do so. In 
the Klamath situation, for example, we found that the person 
who was overseeing the biologist doing our analysis was an 
economist, not trained as a scientist. We want to look at our 
allocation of staff resources to ensure that we have 
appropriate scientific expertise where we need it.
    The head of the Fish and Wildlife Service, Steve Williams, 
is taking this very seriously. As he adjusts to his new role--
he has only been in that position for a few weeks--that is one 
of his top priorities.
    Mr. Nethercutt. I think you face a daunting task in terms 
of making sure that the Administration officials are able to 
have some control over the civil servants, who have sometimes 
an agenda that may be contrary to those who are brought in with 
the new Administration. So I hope that science will rule the 
day as opposed to agendas ruling the day and finding science to 
conform to the agenda.

                           BULL TROUT REPORT

    Final question. It is my understanding that the bull trout 
report has been hung up in the Budget Office. There were some 
changes expected. The report was due January 31 a year ago. 
There is a significant increase for bull trout in the budget, 
$3.7 million, I believe. I am wondering where the report is, 
why you are asking for more money when we do not know the 
results of the report and what it will say about bull trout. I 
know we are short on time.
    Mr. Skeen. We have a vote going on now.
    Mr. Nethercutt. Could we have that answer for the record?
    Secretary Norton. I will do so.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Skeen. Thank you.

                               BANKS LAKE

    Mr. Kingston. My question concerns Banks Lake in Georgia, 
which has been under the Fish and Wildlife management for I 
think 10 years or so. There was a memorandum of understanding 
that Saxby Chambliss had pushed to get the State of Georgia to 
manage it. I do not know if you know anything off the top of 
your head, but if you could look into that and see, I was down 
there last week and people are extremely unhappy with what is 
going on there.
    Secretary Norton. We will look into that. I do not have any 
information on that right now.
    Mr. Kingston. Okay.
    Mr. Skeen. Mr. Hinchey.

       OIL AND GAS EXPLORATION OUTSIDE CANYONLANDS AND ARCHES NP

    Mr. Hinchey. Mr. Chairman, I wanted to ask a couple of 
questions about wilderness and the budget. The budget is flat, 
$10.3 billion from last year. But there are significant 
priority changes within that spending plan. It seems to me from 
looking at the budget that resource exploitation is given 
precedence over preservation, the Land and Water Conservation 
Fund promises are not being kept, and that the Federal 
responsibly to manage land is being turned over increasingly to 
private interests.
    Specifically, the Administration is opening tracts of 
pristine wilderness land outside of Canyonlands and Arches 
National Parks for oil and gas exploration. Both areas are in 
proposals to be designated as wilderness areas. Seismic testing 
has already been completed, and the Canyon Lands, up until last 
week it was recurring also outside of Arches.
    Saying that the BLM Federal land managers in Utah may have 
violated environmental laws over this past weekend, Interior's 
Office of Hearings and Appeals has ordered work stopped 
indefinitely on this Yellow Cat project, which is the seismic 
exploration of Arches National Park. The Southern Utah 
Wilderness Alliance has claimed that the project will damage 
sensitive desert soils which can take up to 300 years to fully 
recover.
    The Interior board agreed, citing, ``resource harms lasting 
decades or even centuries.'' The Utah Wilderness Alliance also 
is concerned that thumper trucks will travel about three miles 
into the Dome Plateau, which is a 35,000 acre area proposed for 
federally protected wilderness status.
    On this point, I would like to ask you two questions. Have 
you considered suspending leasing activities in sensitive areas 
such as the ones that I have described? And if the BLM asks you 
to overturn this decision and resume seismic testing, what is 
your response likely to be?
    Secretary Norton. These areas are multiple use areas. They 
are not wilderness areas. The proposal for going forward in 
these areas is one that has been underway for several years, as 
I understand it. The land managers inthis area have felt that 
it was an appropriate proposal.
    I will take a closer look at that. I just saw this morning 
about the IBLA decision. This area, if this is the area that I 
believe that it is, is essentially a flat sagebrush area that 
is above Canyonlands and below Arches. It is not the scenic 
area that we think of as associated with those two parks. It is 
an area outside the parks. Since we have within our Department 
approximately half of the State of Utah, and we have lots of 
park areas there, any place in Utah is somewhere near one of 
our parks.
    Mr. Hinchey. What about the second question? If the BLM 
asks you to overturn the decision and resume seismic testing, 
what is your response going to be?
    Secretary Norton. At this point, I will look at the issue. 
I do not have a decision now.
    Mr. Hinchey. I would like to give you a photograph. This is 
Delicate Arch in Arches Park. And the red spots, first of all, 
is not sagebrush area. This is in Arches National Park. The red 
items there are places where drilling would occur under the 
Administration proposal. So it is a situation where, from 
Arches National Park viewing out over the area right next to 
it, you have a whole array of drilling apparatus searching for 
oil, not knowing whether they are going to find it or not.
    Secretary Norton. I have no idea whether that information 
is accurate or not. I would be happy to try and obtain that 
information.
    Mr. Hinchey. I am not asking you to take my word for it. 
But I am asking you if you would kindly look into it and give 
us some information in a concrete way about what the proposals 
are and what we can anticipate with regard to these lands.
    These lands are not lands that have been designated as 
wilderness yet. That is true. But they are lands that qualify 
for wilderness designation, and they have, up to this point, 
received protection from every administration going back to the 
last two centuries. We are worried now that the changes in this 
Administration are going to make significant changes in them.
    So I would like you to look at that and give us some 
concrete answers with regard to what we can expect in these two 
areas.
    Secretary Norton. I do not have any information about your 
assertions. I will look for some additional information.
    Mr. Hinchey. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Kingston [Assuming chair]. Thank you very much. This 
hearing is adjourned.
    [Additional questions for the record follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                         Wednesday, April 10, 2002.

                         NATIONAL PARK SERVICE

                               WITNESSES

FRAN P. MAINELLA, DIRECTOR
DONALD W. (DON) MURPHY, DEPUTY DIRECTOR
A. DURAND JONES, DEPUTY DIRECTOR
SUE E. MASICA, ASSOCIATE DIRECTOR
C. BRUCE SHEAFFER, COMPTROLLER
TERESA C. CHAMBERS, CHIEF, U.S. PARK POLICE
DANIEL N. WENK, MANAGER, DENVER SERVICE CENTER
JOHN D. TREZISE, DIRECTOR, OFFICE OF BUDGET, OFFICE OF THE SECRETARY

                   Opening Remarks of Chairman Skeen

    Mr. Skeen. Welcome, Director Mainella. We are looking 
forward to hearing your testimony on the fiscal year 2003 
budget for the National Park Service. We are pleased that you 
have your two new deputies with you, Mr. Randy Jones and Mr. 
Don Murphy. Welcome, gentlemen.
    I would ask that you please summarize your opening 
statement for us, and your complete statement will be made a 
part of the official record.
    Before you begin, I would like to defer to Mr. Dicks, our 
Ranking Minority Member, for any opening remarks he may wish to 
make.

                      Opening Remarks of Mr. Dicks

    Mr. Dicks. Thank you, Mr. Chairman.
    Good morning and it is a pleasure to have Fran Mainella 
here in her first appearance before the Interior Subcommittee. 
She and I had an opportunity to meet in my office recently and 
I look forward to working with her. I also am anxious to hear 
about her first visit to the Olympic National Park and to the 
Elwha River, a very important project.

          OLYMPIC NATIONAL PARK AND ELWHA RESTORATION PROJECT

    It was with great pleasure that I hosted the members of 
this subcommittee to the Olympic, where we were given a full 
tour and update on the Elwha Restoration Project, and the 
subcommittee has been very supportive. I appreciate the fact 
that the Chairman was there and we had a great time up there on 
Hurricane Ridge.

                         EVERGLADES RESTORATION

    I also had the opportunity over the Congressional recess to 
visit the Everglades and view firsthand the work being done to 
restore one of our most precious areas in this country. This 
subcommittee, under the leadership of former Chairman, Ralph 
Regula, made this project one of its highest priorities. I am 
pleased to see that the work is continuing uninterrupted with 
this new Administration. It is imperative that the Department 
of Interior maintain its leadership role and ensure the first 
priority of the Everglades Project is environmental 
restoration. I hope we can work on that together because I do 
believe that is the first and the most important priority, 
which I think the Administration has stressed.

                             BUDGET REQUEST

    While I was pleased to see no major cuts to the overall 
Park Service budget, I do have some concerns about specific 
reductions in this year's budget proposal which I hope we will 
discuss in greater detail today.
    Like several other Interior agencies, I am concerned that 
the Park Service appears to have a budget that proposes new or 
expanded initiatives but does not provide new money, instead 
taking the money from existing programs. This is a difficult 
proposition for the subcommittee because these existing 
programs struggle each year with limited funds.

                    URBAN PARKS AND RECREATION FUND

    Mr. Chairman, there is one specific cut in the budget this 
year that I was extremely disappointed to find, the Urban Parks 
and Recreation Program, which was completely eliminated in the 
2003 request, though through this subcommittee's conservation 
spending category, this program was revived in 2001 and was 
just getting going again with two years of level funding. Now 
the Administration has chosen to single it out and totally 
eliminate it despite the fact that hundreds of communities 
across the Nation are making applications for desperately 
needed projects.

                        FEDERAL LAND ACQUISITION

    Also, I am sure the Director is keenly aware of the 
importance of Federal land acquisition under the Land and Water 
Conservation Fund but sees that the budget reduces land 
acquisition by 41 percent. I would hope the subcommittee would 
give great consideration to this cut while evaluating any new 
programs proposed in the budget.

                          MAINTENANCE BACKLOG

    Lastly, I am pleased to see the increase for park 
operations that will continue our commitment to address park 
backlog and maintenance. I am glad to see that the efforts of 
our former chairman and the former Administration will be 
continued so that we can more fully address the needs of our 
aging facilities.
    Thank you, Mr. Chairman. I look forward to hearing from the 
Director and working with her on this year's budget.

            Opening Statement of Fran P. Mainella, Director

    Ms. Mainella. I am very pleased to be here today and I am 
appreciative of any of you who were able to visit with me ahead 
of this meeting.

                       Introductions of NPS Staff

    I would like to introduce some of the folks that are here 
with me, some of the key people you may want to speak to.
    You met Don Murphy, our Deputy Director, and also Randy 
Jones, our Deputy Director. I think many of you know Sue 
Masica, our Associate Director for Administration and Bruce 
Sheaffer, our Comptroller. Also our new Chief for the U.S. Park 
Police, Teresa Chambers and I hope you will get a chance to 
know her a bit more. We have Dan Wenk, our new Manager of the 
Denver Service Center and, Dan, we are pleased to have you here 
today. John Trezise has joined us as Director of the Office of 
Budget for the Secretary. Also we have with us some 
superintendents, Marilyn Parris from Lassen Volcanic National 
Park and also Dennis Vasquez from Bandelier and also from New 
Mexico, Glenn Fulfer from Salinas Pueblo Missions. I also want 
to introduce Michael Soukup, our Associate Director for 
National Resource Stewardship and Science.

                    VALUE OF PARKS IN AMERICAN LIFE

    As you know, particularly since September 11, all our lives 
have changed and there is even a greater appreciation for the 
value parks play in the lives of every American and every 
visitor to this Nation. The Secretary designated Veterans Day 
weekend as our weekend for unity, hope and healing. Our parks 
had free admission and many of our State parks and others 
joined withus to demonstrate the importance the parks play in 
the lives of all Americans.
    I want to thank you and this committee because you have 
been so supportive of all we have done in the past and I know 
you will continue that support in the future. You are going to 
continue to see enthusiasm from our visitors for our parks.

                     MAINTENANCE BACKLOG REDUCTION

    I appreciate President Bush and the Administration coming 
forward with a budget that will continue to help us move 
forward, as Congressman Dicks said, in the operations area, but 
also in addressing our maintenance backlog, which is not very 
glamorous but is something so critical.
    For fiscal year 2003, we are requesting $660 million for 
our maintenance backlog. Part of that includes working on our 
condition assessments and working on what we call our cyclic 
maintenance so we don't get behind again. The budget also 
contains a $10 million request to better support our efforts in 
addressing the maintenance backlog by helping our regions have 
more capability to have project people either through contract 
or through staffing.

                       NATURAL RESOURCE CHALLENGE

    Our Natural Resource Challenge--we are so proud of that 
program--has another $18 million requested that helps us work 
on the science of our national parks. Also through the Natural 
Resource Challenge we are developing a baseline or benchmark to 
be able to measure and understand how we are doing in taking 
care of our resources. The $18 million increase will bring us 
to almost $68 million so far for monitoring and inventory and 
for partnership efforts working with our colleges and 
universities.

                              PARTNERSHIPS

    This budget also brings forth some more partnerships. As 
Congressman Dicks mentioned, the Land and Water Conservation 
Fund Program, particularly on the Stateside, has an increase. 
It is important to work with our Stateside partners to make 
sure that efforts are maximized.

                  COOPERATIVE CONSERVATION INITIATIVE

    We have a new program called the Cooperative Conservation 
Initiative where we are going to be able to partner on a 
grassroots level with individuals and be able to work in 
partnership to do conservation efforts that have never been 
done before. It will hopefully increase our base of operations 
as $50 million would go for Stateside Grants and $22 million 
would help us in our parks.

                 ACCOUNTABILITY FOR BACKLOG MANAGEMENT

    We are pleased with all we have been able to work on 
regarding the efforts in making sure we are more accountable. 
In this budget there is money to improve accountability, making 
sure technology is available and giving us the capability to 
deal with our maintenance backlog in an automated manner.

                               VOLUNTEERS

    Another area we continue to emphasize through the budget is 
how we continue to work with volunteers. The national parks are 
already great leaders in volunteerism. We are going to work 
even more aggressively in that area. We are going to be working 
on a Senior Ranger Program.
    I am very proud of the changes we have already made. You 
met some of our new staff and I think we have seen a lot of 
changes taking place, while still respecting the tradition of 
the National Park Service.

                        BUSINESS PLAN INITIATIVE

    One of the changes involves one of our partners, the 
National Park Conservation Association, and our business plans. 
We have here some of our superintendents who are able to 
address the business plan efforts underway in the Park Service. 
It gives us a chance to be more businesslike and address some 
of our priorities in a better manner.

                          CONCESSIONS EFFORTS

    Don Murphy is overseeing our concession efforts. We are 
working in a much more businesslike manner on that as well. Our 
50 largest concessions now will have an outside contractor, 
Pricewaterhouse Coopers working with us to be more businesslike 
in how we deal with things. You have provided some funding to 
help us in that effort as well. We would appreciate that 
continued ability.

                          MAINTENANCE BACKLOG

    You have seen some changes in the way we are addressing our 
maintenance backlog. Not only do we have a new Denver Service 
Center Director, a real dynamic person moving us forward, but 
we have also been able to work more aggressively in how we 
address our condition assessments, and how we are going to move 
forward on those efforts. Earlier, I mentioned the budget 
having some of those efforts out there. We are now contracting 
out 90 percent of all design. I think that is a real step 
forward.

                          NAPA RECOMMENDATIONS

    This committee was very instrumental in making sure we had 
the opportunity through NAPA and others to address some changes 
in the construction program. I think you will see a follow-up 
NAPA report, from initial comments we have had from them in our 
briefing, that recognizes a substantial amount of success in 
that area. We still have a way to go but we are working 
aggressively in that effort.

                  U.S. PARK POLICE AND LAW ENFORCEMENT

    We have with us also our new head of Park Police, Chief 
Teresa Chambers. You helped us look at the Park Police through 
a NAPA report. We are moving forward aggressively in that 
effort. I know Don Murphy has been working along with the Law 
Enforcement Task Force to look at Park Police and law 
enforcement as a whole and making sure we are making the 
appropriate changes. Already a change has been made where 
Teresa reports directly to me, no longer reports on a regional 
level.

                              TEAM EFFORT

    As far as addressing our maintenance backlog, our 
concessions, our park police and our law enforcement efforts as 
a whole, I think you are seeing a team that is bringing 
together a dynamic that means a focus on partnerships, a focus 
of going beyond the boundaries of our parks. There is a 
realization that we have to make sure we take care of our 
natural and cultural resources but we also have to allow for 
environmentally friendly access to our parks. This is an effort 
in which I see our team pulling together. That is why we have 
so many folks with us here today. We wanted to present this new 
team, one that I think will help us move further forward in our 
efforts.
    I would like to close by saying thank you to all of you. I 
appreciate your support for the Park Service and all that they 
do. We are here to answer any questions and to visit with you 
on any issues that we can.
    [The written statement of Ms. Mainella follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
        U.S. PARK POLICE IMPLEMENTATION OF NAPA RECOMMENDATIONS

    Mr. Skeen. The committee understands the U.S. Park Police 
are prepared to implement most of the recommendations in the 
NAPA report. Critical to implementing major change is strong 
leadership. I think you have certainly demonstrated that. I 
understand Teresa Chambers, the new Chief of the U.S. Park 
Police, is here today. Ms. Chambers, would you please come 
forward to answer a few questions?
    After a month on the job, how long do you believe it will 
take to see significant management and fiscal improvements 
consistent with the recommendations of the NAPA report?
    Ms. Chambers. Mr. Chairman, we are already seeing 
significant changes. We already have systems in place where we 
are monitoring our own budget. For the first time, the United 
States Park Police has its own account as part of the National 
Park Service. We are no longer a subactivity under an 
operations budget, so we have more hands-on involvement and 
ultimately more responsibility for accountability and 
recordkeeping.
    The Major in charge of our financial oversight was 
handpicked because of his talents in that area. He works 
closely with both me and his Deputy Chief in making certain we 
have regular updates.
    Last week we spent an entire week off-site with our command 
staff learning from some of the best in Interior about the 
Federal budget process and how it comes about, what we need to 
do to not only have a good budget process on the front end but 
how to have accountability throughout so we do not have the 
problems we have had in the past.

                        NEED FOR RECRUIT CLASSES

    Mr. Skeen. What do you see as the greatest need at this 
time?
    Ms. Chambers. The greatest need is one that is already 
under my control because we have gotten some staffing issues in 
the plans. If the budget goes through as recommended, we have 
funding there for an additional four recruit classes next 
fiscal year 2003. In our current fiscal year, we are about to 
hire a third recruit class and funds have been identified for a 
fourth recruit class. That is our most critical need right now.
    We have a tremendous force that comes together and works 
long overtime hours. This drives up the overtime budget, but if 
we can build that base of young men and women on the front end 
we can make progress. We do have a tremendously high attrition 
rate right now as do many of our Federal agencies because of 
the air marshal situation which has recruited many Federal 
officers away from their original agency. We would like to have 
an agency people can be proud to be a part of, and I think our 
attrition will slow and folks will be beating down our door to 
come and be a member of the United States Park Police.
    Mr. Skeen. We appreciate that.
    Mr. Dicks.

                EVERGLADES NATIONAL PARK; FUNDING LEVEL

    Mr. Dicks. I did have a chance to meet with Maureen 
Finnerty and her excellent staff. I was very impressed.
    One of the impressions you get is that we are spending all 
this money on the Everglades so that means the Everglades 
National Park is also getting a lot of money. I found to my 
disappointment that is not the case, the money is going to the 
restoration efforts, a very high national priority but the park 
still has things it needs to deal with. I wanted to say how 
much I appreciated the cooperation and the effort to take me 
around. I know, you being from Florida, you realize how 
important the project is.
    I have some questions, most of which I am going to put in 
the record, and ask that maybe the people in the field be 
allowed to help in answering them.

                 CRITICAL ECOSYSTEM STUDIES INITIATIVE

    The parks Critical Ecosystem Study Initiative (CESI) has 
spent five years and about $42 million on understanding the 
science of the Florida Everglades. What are the results of the 
work that has been done?
    Ms. Mainella. I will start and then Mike, you will go from 
there.
    I want to thank you for taking the time to go down and 
visit our parks. I would always encourage the committee, 
whenever possible, to go visit parks even outside your areas if 
you can because I think you get the chance to see behind the 
scenes.
    I think the science of all that we have to do in the 
Everglades and throughout our parks is absolutely critical. 
Mike is our expert and I am going to have him lead it from 
here. We really think it is an important part of all we do to 
make sure that the science is really done well.
    Mr. Soukup. If you are going to spend the kind of money we 
are talking about, you really want to have the appropriate 
direction indicated by strong science. If you look at what has 
happened with the funding under the CESI Program, a number of 
things have been done that have directed and shaped the 
direction we are going into now.
    I was there for six years and I know the modeling efforts 
are first class down there. The linkage of biological models to 
the hydrological models, in my opinion, has never been done 
anywhere else ever before and it is so complicated. The water 
is easier to get straight or to understand where it should go 
than what is going to happen after that is in place. What 
happens and how the animals and plants respond is really quite 
complicated. You will see a set of models there that are really 
state of the art.
    The fact that the topography is so flat there, a lot of 
what has been poured into USGS efforts is to really have an 
incredibly precise understanding of the topography. All of that 
has improved the accuracy of these models and to make them 
something I think we can be fairly sure is going in the right 
direction.
    Mr. Dicks. The Administration had proposed moving CESI 
funds from the National Park Service to the U.S. Geological 
Service. Why is this being done after five years and what 
effect would this have on the park's ability to conduct science 
activities related to the Corps' projects?
    Mr. Soukup. The real impact is how you spend the money, not 
who gets it. We have just crafted an MOU that is going to have 
a joint approach to spending the dollars in those funds. Some 
of that money will go back to the Park Service, some will stay 
within USGS.
    Throughout the CESI history, it has gone to a number of 
different places for the appropriate answers at the appropriate 
time. That won't be changed. I think it is just a matter of the 
money landing someplace and then people deciding where it 
should go next.
    Mr. Dicks. We may have something to say about this.
    Is there any indication the Park Service was not properly 
managing the program?
    Mr. Soukup. I don't think so. I think there was a fairly 
good track record of the agencies working together. That is not 
always without some sense of inappropriate timing about getting 
the money out. As the Park Service, we put a lot ofstrings on 
that money. We wanted to know exactly where it was going and follow up 
on how it was spent. In general, I think we understand how it was spent 
and I think you will see a fairly elaborate study done by GAO and also 
the National Academy of Science in looking at how that money was spent.
    Mr. Dicks. Yes, because there are several science panels 
reviewing the work, correct?
    Mr. Soukup. That is correct.
    Mr. Dicks. Which I think is good?
    Mr. Soukup. Yes.
    Mr. Dicks. The focus of getting the water right for the 
restoration has always been on quantity, quality, timing and 
distribution of water. In the last year or so, the discussion 
among scientists has been on the flow of water, as you 
mentioned. What does this mean for the Everglades National Park 
and other natural areas of the system? Are we making 
restoration the first priority, which is what the President, 
the Governor and all of us have said we want?
    Mr. Soukup. I think that is the thing we have to 
continually focus on--to make sure we put those processes back 
in place that are missing or shifted somewhat over time and 
location. We need to put all those processes back in place. The 
flow and the fact that you need to have a continuous deep 
slough effect that will provide a year's worth of support for 
the plants and animals is really getting back to what we had 
originally. That is the important part, that at the end of the 
dry season, we still have a deep slough that supports a lot of 
the wildlife. I think we are headed in that direction pretty 
well.
    Mr. Dicks. Mr. Chairman, I have a series of other detailed 
questions some of which I may ask in a later round but I would 
like to ask them for the record and I would appreciate if you 
have the people in the field work with you on the answers so we 
will get a good record.
    Ms. Mainella. Definitely, sir.
    Mr. Skeen. Mr. Taylor?

                          MAINTENANCE BACKLOG

    Mr. Taylor. Madam Director, we appreciate having you today 
and congratulate you on your good start.
    On the question of maintenance, we have had years and years 
of backlog in maintenance, so it will take some time. You may 
want to do this in writing, but could you give us a projected 
idea of how much we are going to be able to do in general 
percentage? Can we get rid of 20 percent of the backlog this 
year, 10 percent or 50 percent? If you can do it today, fine. 
If you want to send a letter, fine.
    Ms. Mainella. I think we are making great steps forward in 
that effort. To give you the complete answer, it would be good 
if we do that for the record, but I think we are making major 
inroads through a major increase in our obligation level and 
everything else as far as completing those maintenance 
backlogs.
    With some of the changes we are making, some of the 
emphasis, working with private sector and more contracting, I 
think you are going to see a greater success story there.
    [The information follows:]

           National Park Service Deferred Maintenance Backlog

    The exact parameters of the NPS facility backlog will not be known 
precisely until full assessments of each facility's conditions are 
completed at the end of FY 2003, the first time an objective assessment 
of NPS deferred maintenance needs and priorities will have been 
achieved. By the end of FY 2002, 123 park units will complete an 
initial inventory of assets and we will use this information to support 
our FY 2004 request. The President is committed to the continuing 
reduction of the NPS backlog and funds to complete facility condition 
assessments are fully supported by the President in his $663 million 
request for maintenance backlog reduction in the FY 2003 budget.
    The Park Service is taking a two-track approach to the backlog by 
completing the condition assessments and devoting significant amounts 
to maintenance backlog projects. Within the President's request for FY 
2003 are $205 million for line-item construction projects, $74 million 
for repair and rehabilitation projects and $47 million for cyclical 
maintenance projects. While the amounts devoted to deferred maintenance 
remain the largest in NPS history, we will not be able to measure 
precisely the progress made, in terms of percentages or otherwise, 
until the changing condition of NPS facilities is factored into the 
evaluation after FY 2003.

                  LAND HELD TO SELL TO THE GOVERNMENT

    Mr. Taylor. I would like to mention that there is a 
plethora of groups over the years, many times well meaning, who 
buy land, then come to the Park Service and the Forest Service 
to take it over. There are two or three problems with that.
    First of all, it is land that is available and it may be 
premature for the park to own it at that time because it may 
not fit in with the budget and ability to take care of it.
    I have noticed some nonprofit groups put a substantial 
increase on the price so the Government is actually taxpayer 
funded in that group because there is hundreds of thousands of 
dollars sometimes in profits in the nonprofit group.
    We may want to send some direction, although we appreciate 
groups that often act in what they perceive to be the country's 
best interest. If they purchase this land, they should be 
prepared to hold it, protect it and manage and maintain it 
themselves because we are then put under pressure to try to 
take that in as quickly as possible.

                      ENVIRONMENT FRIENDLY ACCESS

    You mentioned environment friendly access. Could you tell 
me what you meant by that?
    Ms. Mainella. I think our parks are to be available for the 
public to be able to come in and enjoy but it needs to be done 
in respect to the environment and the resource. I think we can 
do that in a way that is very friendly to the visitor but also 
friendly to the environment. I think the key is some of the 
things we are doing with our Natural Resource Challenge in 
understanding the science better, as well as working with 
partners and with various groups to understand their particular 
needs.
    For example, when we work on management plans, our 
superintendents understand we need to make sure we have all the 
players at the table. We want to make sure the recreation 
users, the environmental leadership and other groups, and the 
community are there at the table so we can understand what 
their possible interests may be. We need to address resource 
issues and try to work together to make sure we have an 
environmentally friendly ability to have access while still 
making sure we protect these parks for today as well as for 
future generations.
    Mr. Taylor. I agree with you. I didn't want that 
misunderstood. Some of the environmental groups now have taken 
the attitude that not only the parks fee simple land but the 
area outside the parks, sometimes they have said as much as 120 
miles, should be impacted by Federal Government in managing 
private property in cities, counties and so forth. I did not 
want that to be misunderstood. I certainly agree with you in 
the parks and the environmental friendly access to the parks 
and the park management.

           U.S. PARK POLICE SPECIAL WEAPONS AND TACTICS TEAM

    Ms. Chambers, you mentioned, or I have seen something 
about, a SWAT team in the Park Police. I am a great admirer of 
the Park Police and worked with your predecessors in a variety 
of ways in other subcommittees that I have chaired. Could you 
tell us about a SWAT team? The parks are all over the country.
    Ms. Chambers. Right now, at each of our three major 
locations--Washington, D.C., New York and San Francisco--we 
have officers either as individuals or as a member of a team 
who are prepared to take care of a high risk situation, a 
hostage barricade situation.
    Mr. Taylor. These are rangers that operate in regular 
duties but have been trained to focus on emergency action of 
SWAT leadership?
    Ms. Chambers. In the case of Washington, D.C., it is an 
actual unit. That is the primary responsibility of that unit. 
Their concurrent duties would be to patrol the parks, their 
beats or to serve at parade routes or anything else.
    In the two other locations, being a SWAT member is a 
concurrent duty. They are a beat officer or a sergeant on the 
street and if there is a hostage situation, then they would 
take care of that.
    Mr. Taylor. I appreciate that. From an economystandpoint 
and training standpoint, it may be wise to coordinate with the 
multitude of other agencies, Forest Service, or any number of 
environmental SWAT teams that already exist. I was asking whether or 
not we have a separate group that just stands ready to be active in 
that type of area. It is cross training?
    Ms. Chambers. That is correct, sir.

           EVERGLADES CRITICAL ECOSYSTEMS STUDIES INITIATIVE

    Mr. Taylor. One question about the Florida environmental 
situation. I have heard a number of scientists in Florida are 
questioning--not the majority--the Government's work and what 
they are doing there. Have you made some effort to get opposing 
views to see if there is any reasonable or scientific fact in 
what we are doing, knowing the Government will mess up a one-
car funeral?
    Mr. Soukup. I think it is also safe to say that scientists 
will probably not always agree about the direction we are 
going. I think you will find the overall CERP Plan is more of a 
concept and a direction that is going to require a tremendous 
amount of tracking, modification, peer review over a period of 
about 40 years.
    My impression is that most scientists feel we are headed in 
the right direction. The National Academy, I think, is in the 
second year of a study of the science that underpins where we 
are going. I think with that kind of scrutiny, we will see 
we're probably not totally accurate right now but we will hone 
in on it as we go.
    Mr. Taylor. The Government set up the situation you are 
trying to correct now, so it is not infallible. I am glad that 
we will go slowly and take assessment as we go if what we are 
doing is having the desired impact. I appreciate that.
    Mr. Skeen. Mr. Wamp.
    Mr. Wamp. You know my affection for the person who happens 
to be President of the United States and since he is not here, 
I will say what he would say, and that is, good morning, 
Frannie, and happy early birthday.
    Ms. Mainella. Thank you.

                        BUSINESS PLAN INITIATIVE

    Mr. Wamp. I have three fronts, one nationwide and then two 
parochial. This business plan initiative, I am sure we will 
come back to the Denver Service Center later. I am grateful for 
the changes we know are underway there because that has been a 
five-year process of trying to improve the efficiency.
    On the business plan initiative, my understanding is we are 
now working with graduate students from the greatest business 
schools in America, Wharton, Harvard and Yale, and they are 
becoming involved. As I studied this, I thought it would be 
great if young people in America could be attracted to the 
National Park Service because they love nature and numbers, and 
the bottom line.
    Can you update us on how that is going? I understand there 
may be some superintendents here today who have already worked 
with those professionals and have the business plans underway. 
Maybe they could give the subcommittee and our professional 
staff an update on the progress which definitely will improve 
the bottom line of management of the Park Service.
    Ms. Mainella. We are pleased with our business plans 
efforts. It is a partnership and we have some wonderful 
individuals working with us. We have been able to hire I think 
five or six of them to be permanent park employees. They bring 
that business sense to us that I think is so needed.
    The business plan effort has been a great asset to the 
Service and it also deals with partnership. Dennis, would you 
go first and talk a bit about the process?

               BANDELIER NATIONAL MONUMENT BUSINESS PLAN

    Mr. Vasquez. At Bandelier National Monument, we put 
together a business plan last summer and I had the opportunity 
to put together a business plan in the White Sands National 
Monument as a superintendent there a few years back. Last 
summer we had two business students, one from Harvard and one 
from MIT, who spent ten weeks in the park, and drew together 
the park management team and program managers in not a totally 
painless process. They forced us to look at the business of 
national parks, to look at the way we function, why we do the 
things we do, how we do those things, and allowed us to think 
in a more businesslike way about the business of national 
parks.
    From that process, we put together a very fine plan. We are 
very pleased with the identified key opportunities and key 
challenges that will allow us to prioritize those challenges 
and opportunities. It has allowed us in many ways to streamline 
and align all our financial planning documents and financial 
planning efforts under the priorities of this business plan. So 
it was a good management tool for us.
    It has allowed us to think and act in a more business savvy 
way. I realize we have not been the best practitioners of it in 
the past, but certainly at Bandelier and other parks who have 
done business plans, we are talking in a more businesslike way 
and acting in a more businesslike way. I think it has been a 
fine management tool for us.
    I see benefits on the management side. It also is a 
communications tool, and has provided great opportunities to 
communicate with the many diverse publics in ways they 
understand and in a way regular people can understand.
    I will let Marilyn Parris speak a bit more to the 
communications part of the business plan.

              LASSEN VOLCANIC NATIONAL PARK BUSINESS PLAN

    Ms. Parris. I found the business plan process to be one of 
the most valuable experiences I have ever participated in in 
the National Park Service. At the time we started our business 
plan, we were right in the middle of doing our general 
management plan for the park. Both validated each other. A 
general management plan outlines for the next 10 or 15 years 
what the management action will be. Our business plan marched 
right along with that.
    I have spent a lot of time in the communities, we live in a 
very rural area of northern California. Community support is 
very important to us, kind of a depressed economy in that area 
and they are very dependent on the national park for tourism 
and such.
    I talked a lot with these communities about the importance 
of tourism and what it is we are trying to do and it never 
clicked until we went forward with our business plan. It is 
done in layman's terms, lays out our strategies, lays out where 
our money comes from, how we spend it, what we are trying to 
achieve. For the first time in my career as a superintendent, 
they were like, I get it, it clicked for those communities in 
seeing what our strategies were, where they could be a part of 
helping us manage and meet those strategies.
    Also it proved to these communities the importance of not 
only the tourism that comes to visit our parks but having that 
park infrastructure there. I have about 70 permanent employees, 
hire up to 120 seasonals, and have about a $3.7 million annual 
budget, plus other monies.
    I wasn't born in Plumas County, California but I live 
there. Having the park infrastructure really made a difference 
with those communities in seeing the importance of having a 
park there not only for tourism.
    I have scattered those all over northern California with 
all our partners in our communities and it has been very 
effective for us.

               ROCKY MOUNTAIN NATIONAL PARK BUSINESS PLAN

    Ms. Mainella. Randy Jones was superintendent at Rocky 
Mountain. Would you share your experience?
    Mr. Jones. I completely agree with the other 
superintendents. We found it an extremely valuable management 
tool that goes far beyond just identifying budgetary needs in 
the future.
    Another side benefit in the case of Rocky Mountain, a year 
ago we hired Anne Dubinsky, one of the MBA students who helped 
on the Bryce Canyon business plan. We brought her into the park 
staff as a permanent employee where she is now managing the 
park's concessions program which is building a huge increase in 
credibility and professionalism in how we deal with concessions 
and how we run the program.

                        BUSINESS PLAN INITIATIVE

    Mr. Wamp. A decentralized, site specific approach because 
the expenses at one site are different than another and you 
can't do it from a central location. We found as we traveled 
these parks that the problems they have in large parks are 
completely different than small national monuments. You have to 
write that plan at that location. It sounds like you are 
getting a new culture at the Park Service with this business 
plan initiative.
    What about obstacles that you may still face in possibly 
recruiting these students? You said you hired several but can 
you go into the schools and recruit students to the Park 
Service so you have business savvy professionals coming in?
    Ms. Mainella. We are making every effort to do that. The 
business plans help in orientation so the colleges know we are 
interested in this aspect. I think that will help us. It is 
something we will have to be more aggressive on and we are 
moving forward.
    Mr. Dicks. Would the gentleman yield? It is my 
understanding you have done how many of these, about 50?
    Ms. Mainella. Thirty-seven and we have 12 more to come.
    Mr. Dicks. So we will get up to about 50. I am told in 
order to implement the business plan, we need additional funds. 
Can you tell us about that?
    Ms. Mainella. I think as we go forth in our business plan 
efforts we will look at where dollars can come from. We don't 
just look at appropriations as being our only source.
    We do look at what our needs are and set it out for a 
number of years, so as we do our planning, we try to put money 
in for that effort. We are trying to figure out other ways to 
find those dollars other than appropriated dollars. I think 
Marilyn your foundation has been successful in that?

              LASSEN VOLCANIC NATIONAL PARK BUSINESS PLAN

    Ms. Parris. Yes. We have about four pages of financial 
strategies beyond our base budget of meeting our needs. One is 
working closer with our foundation. Through the business plan, 
we were able to show them we had a strategic plan and they are 
marching along with us.
    It helped us go to the Forest Service. My park is 
completely surrounded by Lassen National Forest. We went to the 
Forest Service and looked for areas especially in resource 
management and fire management where we can work closer 
together.
    Yes, it does show shortfalls but it makes you think of 
other ways to deal with that.
    Mr. Dicks. Thank you for yielding.

                   WASHINGTON, D.C. AREA PARTNERSHIPS

    Mr. Wamp. Also from a parochial standpoint, you and I have 
talked before and I want the record to reflect some of the 
progress that is being made in the Washington, D.C. area, Park 
Service assets like Kenilworth and Fort Dupont. We have 
organizations like First Tee that would like to bring golf to 
inner city children. Those kinds of partnerships I think would 
really bode well for our Nation's capital. Can you give us an 
update on the progress being made with Kenilworth and Ft. 
Dupont, the possibility of soccer, the possibility of stronger 
Park Service kind of urban settings with these two assets?
    Ms. Mainella. We do feel our partnerships are critical. We 
are looking at all those options right now as we go back and 
revisit our planning effort. As you know, there had been some 
environmental issues that had to be addressed first before we 
could reopen our planning. We are in that planning process now 
and working with all the different groups and hopefully will be 
able to try to accommodate all the different interests. We do 
think those are very important.
    Don, do you know any follow up to that, Don Murphy, my 
deputy?
    Mr. Murphy. I was just at both of those parks and out at 
Langston. We met with all the partners that are going to be 
involved with First Tee. The USGA has provided a grant of 
$50,000 and has almost completed their practice facility for 
youth. The First Tee Program is hot on the trail of getting a 
nine-hole practice course in there as well.
    I have taken a personal interest, and the Secretary and I 
talked about this last Friday. She and I both are going to take 
a personal interest in doing the private and corporate 
fundraising we need to do to provide additional recreational 
services for that underserved community. I am real enthusiastic 
about it. I just got off the phone before this meeting with the 
regional director talking about our other corporate partners 
and putting together a strategic plan that is going to 
facilitate our expediting our partnerships there. It is 
extremely important to me and something for which I think the 
National Park Service ought to provide the leadership.
    Mr. Wamp. When we christen that First Tee facility in 
Washington, DC, Director Mainella and I are going to have a 
three-hole match that day.
    Ms. Mainella. We definitely will.

         BILL TO ESTABLISH MOCCASIN BEND NATIONAL HISTORIC SITE

    Mr. Wamp. As you well know, there is a House-passed bill to 
add a national park unit to the system in Chattanooga, 
Tennessee, the Moccasin Bend National Historic Site. However, 
there continues to be a moratorium on new additions. That 
moratorium was lifted temporarily when the President signed 
Ronald Reagan's boyhood home into law, which was the latest 
addition, and that is the only addition since you took over 
since he became President.
    The House-passed bill is now pending in the Senate and I 
just wanted to check with you since this is so important and 
the House-passed bill I wrote, to see if the remaining two 
issues on the Senate consideration to receive Park Service 
support for the bill in the Senate are the moratorium itself, 
which continues to be an issue, if the President says it is 
okay, then that would be resolved.
    The second issue is the Moccasin Bend Mental HealthCenter 
and the termination date at some point. It is my understanding that a 
date into the future as early as 2035, not later than 2050, that kind 
of range where by that time, that facility would be taken down and the 
original condition of the land would be turned over from the State to 
the Park Service but it would be grandfathered in under its current 
use.
    Are those the only two issues from your perspective left 
for the Park Service to support the bill?
    Ms. Mainella. It is my understanding those are the two main 
issues we have in front of us. The only other thing, there may 
be some access issues dealing with the golf course but I think 
that can be worked out on the side.
    Mr. Wamp. Thank you for your continued support.
    I yield, Mr. Chairman.
    Mr. Skeen. Mr. Hinchey?

                  GOVERNOR'S ISLAND NATIONAL MONUMENT

    Mr. Hinchey. I would like to ask a few questions. The first 
has to do with Governor's Island. Before President Clinton left 
office, he declared about 20 acres of Governor's Island, 
including its two forts, to be a national monument. I 
understand President Bush has now proposed selling the island 
to the State and the City of New York jointly for a nominal 
fee. This is probably a very good idea.
    I am concerned about the future of the national monument. 
How do you propose to deal with that?
    Ms. Mainella. We have been working with the White House to 
give them information about our vision for the monument and 
making sure we understand the dollars and cents that might go 
along with it. I am not sure of the process from there but we 
are providing that information to the White House.
    Mr. Hinchey. Is the information you are providing how the 
national monument would be consistent with the sale?
    Ms. Mainella. No, how we would manage it in the Park System 
and the benefits it provides, things of that nature such as 
cost analysis.
    Mr. Hinchey. Of the national monument?
    Ms. Mainella. The monument part, yes, the two forts.
    Mr. Hinchey. Are you talking about how you would continue 
to maintain the monument?
    Ms. Mainella. Right, we are giving that information to the 
White House but at this point, I am not sure of the progress 
from there.
    Mr. Hinchey. So the decision has not been made with regard 
to the future of the national monument. Will that decision be 
made by the White House?
    Ms. Mainella. I assume. That is the guidance I am looking 
for from the Administration. We are being asked to participate 
by giving information.
    Mr. Hinchey. I want to emphasize that we are very 
interested in the maintenance of this idea for the creation of 
the national monument at Governor's Island. It has been created 
and there is a national monument there. The Park Service has 
responsibility to help develop and maintain it appropriately 
within the context of the use of the rest of the island. I am 
told that the purposes could include a campus for the city 
university, which seems like a good idea.
    We do not want to lose the national monument and I 
appreciate what I take to be your support for continuing that.
    Ms. Mainella. We had expressed interest in that. We are 
right now giving our information and we will see what goes from 
there.

                        NATIONAL HERITAGE AREAS

    Mr. Hinchey. The system of National Heritage Areas is 
proposed to be reduced in funding under the budget. I would 
like to make you aware of the importance of National Heritage 
Areas to many places around the country. This is an opportunity 
for the Federal Government to coordinate the natural resource 
husbandry, that you are a part of, with the maintenance and 
promotion of our national history and the important reminders 
of our national history contained in these historic areas. The 
development of these heritage areas is a lovely idea and works 
very well on at least two counts.
    The Administration has proposed cutting this program almost 
in half. I want to express to you that I think that this 
proposed cut is a bad idea. These heritage areas have broad 
support across the country in many areas, including many areas 
where the people do not have ready access to national parks. I 
am speaking mostly of the south, the midwest and the eastern 
sections of the country.
    I would hope that you would take the opportunity to review 
the question of the National Heritage Areas and perhaps make 
some recommendations with regard to keeping that program's 
funding at the level it deserves.
    Ms. Mainella. The heritage areas have been an excellent 
asset. The National Park Service doesn't need to own and manage 
everything. We can work in partnership. It is a good example. I 
think the proposed reduction was just a dollars and cents 
balancing situation.
    Mr. Hinchey. I see you have been looking at this program.
    There is also a proposal in the budget also for the 
creation of something called cooperative conservation 
initiative. This is described as a $100 million initiative 
which would depend upon 50 percent non-Federal match from 
private groups, private consortium groups, and State or local 
governments. I think that this is another very good idea.

                     URBAN PARK AND RECREATION FUND

    At the same time that is being done, the National Heritage 
Areas is proposed to be cut in half and the program for urban 
parks and recreation is being eliminated. The later is a very 
modestly funded program, funded last year at $30 million. I 
want to express to you that this seems to be a misallocation of 
priorities because the urban program provides recreational 
opportunities for young people who may not have those 
opportunities otherwise. I would hope the Federal Government 
would recognize the value of these urban parks and recreation 
programs such that you would continue to stay involved with 
them and continue to fund them. Thirty million dollars is a 
very tiny amount of money to try to deal with this issue across 
the country in our urban areas.
    I would hope the value of this program could be impressed 
upon the Park Service and the Administration so we could seek 
continued funding.
    Ms. Mainella. It has been. It has been an excellent 
program.
    Again, I think the Cooperative Conservation Initiative 
(CCI) Program involves a new partnership that is going to allow 
us to do some conservation efforts that maybe we haven't been 
able to achieve in the past.

                            BAT CONSERVATION

    I know Mike Soukup and his folks have been working with 
exciting issues like bats and being able to make sure that 
protection is accomplished. If the CCI Program goes through, it 
will give us an opportunity to be able to do some additional 
bat habitat restoration on park lands and partner with a bat 
conservation association to work with us. Those are possible 
options that will offer some new opportunities we may not have 
at this moment.
    Mr. Hinchey. I wanted to ask some questions about Big 
Cypress and the Everglades restoration, but I think I will do 
that in the second round.

                SNOWMOBILES IN YELLOWSTONE NATIONAL PARK

    The last question I want to ask now has to do with the 
issue of snowmobiles in Yellowstone National Park. There was a 
10-year study that ultimately came to the conclusion that 
snowmobiles should be phased out of Yellowstone and other 
national parks over a three-year period because it is the crown 
jewel of the park system.
    Recently we have been made aware that some of the park 
employees in the kiosks have had to wear respirators in the 
morning as hundreds of snowmobiles warm up to penetrate the 
park. This seems to me to visually create a circumstance 
contrary to the image we want to project about our national 
parks.
    I am wondering where the policy of the present 
Administration and your policy is going to take us with regard 
to snowmobiles? They were proposed to be phased out over three 
years; they create a situation detrimental to the use of the 
park by the vast majority who would like to use it and do use 
it. My bias is to get the damned things out of the park but I 
want to know what you think.
    Ms. Mainella. I will ask Randy Jones who has been working 
on this to follow up for me. We have our superintendent from 
Yellowstone here. We are looking at different alternatives. 
Most of the alternatives involve change from what you see 
today, be it snow coach, or some version of snowmobiles. I was 
there in January to take a look at it firsthand. We want to 
make sure we take care of our employees when there is an air 
problem, which there often is, when there is an inversion going 
on combined with some of the two cycle operations underway 
today.
    I think as we look at the different options that are out 
for public review, we need to examine how we can better look at 
winter use access in different ways. Randy, could you follow 
up?
    Mr. Jones. We are in the middle of the public review 
process. That will continue for a little over another month and 
end in late May.
    Mr. Hinchey. The public review process of what?
    Mr. Jones. Pursuant to an out of court settlement, we 
agreed to do a supplemental environmental impact statement 
which was prepared and has been released to the public in 
computer form about a month ago and in paper form a couple of 
weeks ago. So we are out for 60 days of formal public review 
and then, pursuant to the terms of the out of court settlement, 
we will be making recommendations and a decision by mid-October 
of this year.
    Mr. Hinchey. Would you summarize briefly what is contained 
in that settlement and what is out for public review?
    Mr. Jones. The supplemental environmental impact statement 
is out for public review.
    Mr. Hinchey. What are the recommendations?
    Mr. Jones. There are four alternatives identified that were 
developed in cooperation with dealing with the local 
communities, the States and local interest groups. Alternative 
1A is the status quo under the regulations that were developed 
which would be the phaseout period you described. Alternative 
1B would be to delay that phaseout period for an additional 
year. Alternative 2 is an alternative developed by one of our 
cooperators, the State of Wyoming, that would allow snowmobile 
use. Alternative 3 is a proposal developed by the professionals 
on the park staff that has a heavy emphasis on new technology, 
including four stroke snowmobiles, and guided trips. The 
emphasis is to reduce harassment of wildlife and to control air 
pollution.
    A footnote to that--last week I was in Tetons where there 
was the third year of the clean snowmobile challenge which is a 
university and Society of Automotive Engineers event held in 
Jackson, Wyoming each year. I have been very impressed with 
what engineering students all over the country have been able 
to do to address some of the problems of noise and air 
pollution. Technology does, I think, offer some hope. We also 
have to look at how we can do a better job with snow coaches 
and public access.
    Yellowstone is a special, unique place and we think it is 
important that we provide visitor access and opportunities to 
get to places like Old Faithful in the middle of winter. So 
what is the best way to protect the park and do it with the 
best interest of the public is the balance we are trying to 
find.
    Mr. Hinchey. So you are backing away from the ten-year 
study and the recommendations, and you are backing away from 
the phaseout and now proposing some other alternatives. Will we 
see a decision made with regard to what you are going to do 
sometime within the next what?
    Mr. Jones. Mid-October.
    Mr. Hinchey. Thank you.
    Mr. Skeen. Mr. Kingston?

                    Opening Remarks of Mr. Kingston

    Mr. Kingston. I do want to ask a few oddball questions. 
Before I do, I appreciate your sensitivity on the snowmobile 
issue to visitor access and multiple use of the facilities 
there. I hope the technology in reduction of air pollution, 
noise and any other environmental impairment can be handled 
without this blanket outlawing them because the side against 
them is more vocal than the actual noise of the snowmobile 
itself. I have been out there in the winter and I know it is 
pretty much shutdown at times.

                       WASHINGTON D.C. PARK UNITS

    Is the Botanical Gardens under your jurisdiction?
    Ms. Mainella. No, sir.
    Mr. Kingston. Good. I just want to say, don't ever hire 
that contractor working on that since time began.
    The Washington Monument has reopened and looking good. 
Everyone is happy. What are you doing down there near the 
Reflecting Pool, the street in between where there is a 
fountain.
    Ms. Mainella. Pennsylvania Aenue?
    Mr. Kingston. No. If you are facing the Lincoln Monument, 
there is the Reflecting Pool and a fountain behind there. You 
have it all fenced off. What is going on there?
    Ms. Mainella. That is the World War II Memorial, I believe.
    Mr. Kingston. I am sure everyone in town but me knew that.

                   LANDS AND WATER CONSERVATION FUND

    Land and Water Conservation Fund, the goal of that is what? 
I don't mean to buy land, what is the mega goal, the big 
picture?
    Ms. Mainella. It is a partnership program.

                        FEDERAL LAND ACQUISITION

    Mr. Kingston. It would appear to me there should be a 
megagoal which should be to own all the land in the United 
States of America eventually or to own all the land not already 
developed in the United States of America, to get up to 50 
percent of the land or something. Is there any thoughtto the 
end game as to how much land should be purchased eventually?
    Ms. Mainella. With the Land and Water Conservation, there 
are two parts, the Federal side of land acquisition which helps 
us acquire new parks, things of that nature. We have a list of 
acquisitions in priority order to work with as we go forward.

                              STATE GRANTS

    Also, the Stateside of Land and Water Conservation, Don and 
I have both been administrators of that program. He was State 
Park Director in California and I was State Park Director in 
Florida. This program is a way for the park service to work as 
partners with the States and not just acquire land. The 
majority of the Stateside Land and Water Program goes to 
provide more recreational opportunities. That is a different 
side of the picture.

                        FEDERAL LAND ACQUISITION

    When we look at our lands, we look to make sure we are 
doing things for protection. We have a plan for each park which 
talks about what may be needed for protection or to work with 
partners in follow up.
    Mr. Kingston. Shouldn't there be some mega picture that 
says there is a saturation point or a proper inventory level 
for land ownership by the National Park Service?
    Ms. Mainella. Some of our land acquisition involves 
inholdings and emergency acquisitions. On an emergency basis 
when something is going to happen with a piece of land everyone 
knows should not be taking place, we are able to work with 
sellers to make that acquisition.
    As far as a total game plan, we base our acquisitions on 
what Congress has authorized. We have a priority list we work 
from. We look at the resources necessary to keep a balance in 
the system, both recreationally and natural and cultural 
resources.
    Mr. Kingston. I think it would be good at some point for us 
to have a mega picture, this is where we are going. I often 
hear you have a willing buyer, a willing seller. No kidding, 
somebody wants to sell the land at a good profit and bale out 
of a problem that they can't get a permit to build on or 
something like that. I think that is kind of an old world 
philosophy that we need to move past.
    Ms. Mainella. Randy does have a follow up if you wish.
    Mr. Jones. Every park does have a land protection plan 
which is a document that goes through a public involvement 
process before it is finalized. Those plans identify what lands 
need to be acquired in the long term interest of the park, and 
the nature of that interest, easement or acquisition.
    When we do recognize a willing seller opportunity, before 
we proceed, that track of land should be identified as a high 
priority in the land protection plan. Otherwise we should be 
saying thank you but no thank you.
    When we advise the committee of the backlog in land 
acquisition needs, it is essentially the roll up of all the 
national plans that identify the dollar amounts needed to 
accomplish all of them.
    Mr. Kingston. So if each park has an idea of what kind of 
land would fit into their need, then there ought to be an 
inventory of all those park studies that would come up with a 
total that says at this point it looks like we need to buy as 
the United States Government 100 million new acres and the 
total summary of all these, but we don't have that, do we?
    Mr. Jones. No. The starting point is the boundaries 
identified by the Congress. What we look at are the private 
lands within those authorized boundaries as to what should be 
acquired as opposed to looking outside.
    Mr. Kingston. If you picked up the telephone now and dialed 
any park superintendent, he or she could say we need to buy 20 
acres just outside here, right?
    Ms. Mainella. Most of them do have that knowledge.
    Mr. Kingston. If you took all those reports, you would come 
up with the total acreage?
    Ms. Mainella. I don't know if we do it on an acreage basis 
but we do that on a list basis of things that need to be 
acquired.
    Mr. Kingston. Do we have that?
    Mr. Jones. We can provide a list of all the inholdings in 
their priority order.
    Mr. Kingston. I think it would be interesting for this 
committee to know what that would be.
    Ms. Mainella. We will provide that.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                   DUPLICATION OF A HISTORIC BUILDING

    Mr. Kingston. If I wanted to build a historic Federal 
building that is not historic, but I wanted to match a historic 
building, I understand the National Park Service, my historic 
society says the National Park Service won't let us duplicate 
that building. A federal courthouse, for example, if you are 
building an annex to it and you want to build one of like kind 
and quality similar to a 200-year old existing building, there 
is some National Park prohibition from doing that. You have to 
have looks similar in quantity or volume but it can't be exact?
    Ms. Mainella. I know we have standards as far as being able 
to give tax credits when people are using----
    Mr. Kingston. This would be a Federal building.
    Ms. Mainella. Is it a physical attachment to a historic 
building?
    Mr. Kingston. No, it would be next door to it.
    Ms. Mainella. I am not sure. Let us look into that. If you 
can give me that particular example, let us follow up on it. I 
am not sure of that. I don't know anything in that area but I 
would be glad to check on it for you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                  CUMBERLAND ISLAND NATIONAL SEASHORE

    Mr. Kingston. Cumberland Island National Seashore--A group 
of stakeholders that included historic preservationists, 
environmentalists, island residents, academics, community 
representatives, government officials, preservationists of 
African-American heritage, reached a formal and unanimous 
written agreement about how to handle the historic resources, 
the wilderness values, ensure public access to the important 
sites and preserve the resident rights and so forth.
    Part of that called for this committee to purchase more 
land for the park which we have done, but in turn, the other 
end of the bargain, to let the public have more access to some 
of these valuable resources, some people are balking at right 
now.
    I don't expect you to be up to speed on Cumberland Island 
but in a general, philosophical discussion about the value of 
concurrently preserving different types of resources such as 
national historic structures and wilderness land.
    Ms. Mainella. We put a great emphasis on protecting our 
historic structures and actually give grants to local 
governments and others to help in doing some of that 
preservation when it is not on our land. At Cumberland I know 
we are dealing with wilderness issues as far as what access can 
take place. I think we have been working with your staff to 
figure out different alternatives that might allow us to 
achieve a win-win in regard to the cultural resources and also 
dealing with the aspect of our wilderness and making sure we 
are respectful of that.
    Mr. Kingston. It is not true that Mr. Hinchey and I are 
offering an amendment to say we will take the snowmobilers down 
there to get public access. We are not considering that.
    Mr. Hinchey. Speak for yourself.
    Mr. Skeen. Mr. Moran?

                           CUSTIS-LEE MANSION

    Mr. Moran. It is nice to see you and I appreciate your 
touring with me the Custis-Lee Mansion of Arlington Cemetery. I 
do hope the Park Service is going to ensure that land the Park 
Service owns is not encroached upon further.
    Ms. Mainella. We are continuing to work on that.
    Mr. Moran. Working on it is one thing but ensuring that it 
stays with the Custis-Lee Mansion is what we want. I trust that 
is a commitment to do that.
    Ms. Mainella. We are working on it. We are getting that 
done. I know we are getting our land protection plan updated as 
far as making sure everything was being protected. I don't know 
of any action not consistent with that.
    Mr. Moran. Your intent is that wooded area the Park Service 
owns adjacent to the Custis-Lee Mansion is going to stay with 
the Park Service?
    Ms. Mainella. Yes, that is what we are working on. The 
answer is yes.
    Mr. Moran. You keep saying you are working on it. To say we 
are working on it is about the vaguest commitment. I don't want 
to be argumentative with you, I just want to make sure that 
commitment exists.
    Ms. Mainella. Yes.

                     PRIVATIZATION OF THE WORKFORCE

    Mr. Moran. I understand the Park Service has an objective 
to privatize about 15 percent of its work force. I don't have 
any objection to privatization as such but I am troubled by 
setting up a predetermined quota for the number of civil 
service positions that will be privatized. It seems to me it is 
a judgment call. When you set up these kinds of quotas, you 
wind up being forced to make decisions not necessarily the most 
reasonable or responsible in terms of the functions assigned to 
the Park Service.
    There are also areas such as grant awards, budget and 
contract oversight, things like that I think really need to 
remain within the Civil Service and not be privatized, not be 
contracted out.
    I bring this up because we have a very serious Federal work 
force crisis. We estimate that over the next several years at 
least half of the work force is going to be eligible for 
retirement. Within two or three years, we will have about one-
third and if you look at the projections, these people were 
hired largely in the 1960s and 1970s and will be gone.
    To impose a 15 percent privatization requirement on top of 
that, to be forcing out people you need, I question if that 
isn't politically driven more than responsible policy. I know 
you are doing a study. I don't know how much that cost. How 
much is the study on the privatization deal?
    Ms. Mainella. At this point, we have 1,800 individuals in 
the Park Service whose positions will be looked at for 
competitive sourcing. This means we look at whether their job 
is it better able to be done by public employees or not.
    As far as the cost, we do not have that cost at this time. 
John Trezise is here and he may be able to follow up more on it 
but we are working with the Department to understand how we 
best get this analysis completed. Is it through contract, is it 
through in-house? So we do not have a dollar figure yet on 
that.
    Mr. Moran. At least this member thinks we need to be very 
careful that we not let go people we very much need. We have 
seen that happen in other areas of the Federal and State 
government. We have a Department of Transportation where that 
was done for political reasons and we are suffering terribly 
because we lost our best people as a result.

                            CONCESSIONAIRES

    On vendors, you have a vendor policy that holds them all 
accountable but you have a wide range of vendors, some 
multimillion dollar contractors and others one or two people, 
basic mom and pop operations. We have an operation at Belle 
Haven Marina that a number of employees and members are 
interested in and that is one guy. As you know, he is having 
lots of trouble complying.
    I tend to agree with the Park Service on virtually all 
these issues, but how much flexibility do you have between 
applying these standards that are very appropriate for the 
large corporations but maybe somewhat less appropriate when you 
are dealing with a minimal operation?
    Ms. Mainella. I know that in our larger concessions, 
anything over half a million dollars, under the new rules they 
have to go out for open competition, I can't remember if Belle 
Haven is at that level or not. If it is a smaller one, they do 
get preferential treatment and that will continue.
    We look at our concessionaires as part of our partnership. 
We want to work with them. Don, I know you haven't worked 
directly with Belle Haven but you are working with our 
concession efforts. Is there anything on flexibility you are 
familiar with? I know after September 11, we have gone back to 
our concessionaires that had to close during that time and are 
reducing, for a period of time, the franchise fees.
    Mr. Moran. I have to get to the floor but I wanted to raise 
these issues.
    In this case there are a lot of infrastructure 
improvements, capital investments that need to be made. The 
problem is you can't get a bank loan if you can't get a lease 
for anywhere near the period of the loan. No rational bank is 
going to give you money if they don't know whether you are 
going to be the concessionaire and the concessionaire can't 
comply with Park Service requirements if they can't borrow the 
money, if they are just a small operation.
    Mr. Murphy. I should probably comment on that. I couldn't 
agree more. One concrete thing we did recently was from the 
Concessions Reform Act that gave us the ability to extend 
concession contracts for up to 10 years. We had previously 
interpreted that on the lower end and were doing concession 
contracts for 5 years. But, recognizing exactly what you said, 
the need many times to amortize an investment means you need a 
longer contract.
    I just issued a memo last month directing all our 
superintendents on these smaller contracts to issue them for 
ten years, rather than five years, and to make that the 
standard.

           BLUE RIDGE PARKWAY AND SKYLINE DRIVE AIR POLLUTION

    Mr. Moran. Nice going. That is music to my ears. That is 
reasonable policy and I appreciate that.
    I was going to get into the Blue Ridge and Skyline Parkways 
because we have a serious problem there. If you drive up there, 
some days you can't see anything because ofall the pollution. 
You are doing studies on air quality but the study is going to tell us 
what we already know, they are coming from the coal-fired powerplants 
in West Virginia. It will be just one more study telling us the 
obvious, but I don't think you have any control over those powerplants. 
I don't know what you will do about the Blue Ridge and Skyline 
Parkways. It is a darned shame. Sometimes you can suffocate there with 
the air pollution. Here is this gorgeous vista and people are choking 
from the air pollution.
    Ms. Mainella. I think we have a success story in Kentucky 
so it is indirectly affecting Blue Ridge and others but we have 
been working with some of the companies on the front side as 
they start to put in new plants. This one is called 
Thoroughbred and they can help us with a new plant to have 
things at a lesser level. So we are trying that angle as much 
as we can.
    Mr. Moran. That is nice but these guys are grandfathered. 
They are not going to voluntarily do anything they are not 
required to do.

                     EMPLOYING LOCAL TROUBLED YOUTH

    You use a Conservation Corps to help maintain the national 
parks. Have you ever looked into working with local law 
enforcement to see if you can employ some of the troubled youth 
in these local areas, because it is a potential resource and I 
think it would be an opportunity for them to do something 
constructive.
    Ms. Mainella. I think we have done that in many of our 
parks. I know Big Cypress in Florida has done that and some 
others have done that. Maybe we need to emphasize that at a 
greater level.
    Mr. Moran. It would be a nice idea.
    Mr. Skeen. Mr. Nethercutt?
    Mr. Nethercutt. I want to compliment you for responding to 
my office so quickly and in a timely fashion on some questions 
we had. I appreciate the attitude of the office and your 
leadership.

                    CONCESSIONS PROGRAM IMPROVEMENTS

    I want to follow up a bit on the concessions issue. Maybe 
for the record you could tell us today and later if you need to 
supplement, what management and operation improvements you have 
made and intend to make in the concession program itself?
    Ms. Mainella. We are trying to make it more businesslike 
than it has ever been. I am going to ask Don Murphy to finish. 
We have looked at the top 50 concessions, the big ones. We are 
working with Pricewaterhouse Coopers to help us be more 
businesslike in the way we address those.
    We are responsible for the final determination but it gives 
us a chance to work along with them. Don, I think you mentioned 
some of the flexibilities, increasing contract length and some 
of the others.
    Mr. Murphy. Let me start with our Category 3 contracts 
which are smaller contractors. I mentioned the fact that for 
those contracts the standard will be 10 years rather than 5. We 
took great pains to streamline the contract language. We used 
to have contracts that were 300 pages and now we are down to 
well below 100.
    The preferential right of renewal was jeopardized by 
smaller outfitters and guides when they attempted to sell 
certain items like a T-shirt or a cap that reminded the visitor 
of the trip. We just took steps to provide clarifying language 
to our superintendents who manage those smaller contracts so 
that those contractors can now sell those kinds of items 
without jeopardizing their preferential right of renewal.
    On the larger contracts, the 50 largest, we mentioned 
Pricewaterhouse Coopers but more important is the fact that our 
people are now getting the proper business training. We have 
instituted a program at Northern Arizona University where we 
are putting our concessions managers through training in 
concessions and hospitality management. They are also paired 
with the professionals from Pricewaterhouse Coopers to learn 
more professional business techniques, management techniques 
and managing our concessions operations.
    I can't emphasize enough that there is a change in 
attitude, as well as in our relationship with our 
concessionaires; we are thinking of them as partners. While 
that may seem almost rhetorical, in some ways it is really 
fundamental to changing the way the National Park Service does 
business and professionalizes our ranks since it eliminates an 
adversarial business point of view. Although I must say now we 
are taking a more businesslike approach, we certainly look out 
for the taxpayers' interest. So the concessionaire and the Park 
Service aren't always going to agree, but at least it is based 
on sound business principles.
    That partnership attitude makes a lot of difference and 
engenders the kind of respect that is necessary in this 
relationship. Those are some of the more significant things 
that we have done.
    As you know we were in litigation with our concession 
partners and that litigation is now over although some things 
have been left hanging. We are now going to enter into a 
negotiation to resolve some longstanding issues on leasehold 
surrender interests as well as possessory interests which are 
very contentious. But I think we will be able to work out those 
things in partnership as well. Just establishing the importance 
of continual dialogue with our concession partners has made a 
tremendous difference.

                      EMPLOYING BUSINESS STUDENTS

    Mr. Nethercutt. Is there room in your system for taking in 
some business administration students in the summer to think 
about assisting the local management of a particular park?
    Mr. Murphy. Before you came in, Randy Jones mentioned he 
did hire one of our business students who had been in the parks 
helping with the business plans into his concession office 
before he left Rocky Mountain.
    Mr. Jones. At Rocky Mountain National Park, we hired a 
recent MBA graduate who is now running the concession program 
at the park. She has just turned it around, and is doing a 
wonderful job.
    Mr. Nethercutt. Do you see potential in that in other parks 
around the country?
    Mr. Jones. I hope so. We need to do a better job of going 
out and recruiting to bring in the skills we need in these 
programs.
    Mr. Nethercutt. Do you plan to do that?
    Mr. Jones. Yes, sir, we do.
    Mr. Skeen. Mr. Regula?
    Mr. Regula. That was a positive response to Mr. 
Nethercutt's question because we have had a concern.

             VISITATION AFTER SEPTEMER 11 TERRORIST ATTACK

    I am curious. Since September 11, what is the attendance 
situation?
    Ms. Mainella. We have had a drop in attendance. In fact, 
our attendance for the year 2001 dropped about 6 million. Of 
that, almost 5 million has been since September 11. However, we 
are seeing parks like Shenandoah that have actually increased 
visitation since September 11. September 11 certainly had a 
visitation impact but we see ourselves comingback. We are now 
back to 85 percent. The cherry blossoms may have pushed us over the 
edge. We do feel it is coming back.

            GRAND CANYON NATIONAL PARK TRANSPORTATION SYSTEM

    Mr. Regula. What is the status of the transportation system 
at Grand Canyon?
    Ms. Mainella. At this point, a proposal came in, it was 
reviewed by OMB and has now come back again for a review by us 
to be able to move forward with an evaluation of the various 
options. Some of the concern was the cost. Light rail was the 
first recommended direction. Grand Canyon is one park where 
attendance is still down since September 11. International 
travel has been one of the big areas that is down.
    Before we can give you a good game plan on that, we have to 
make sure we understand where we are attendance-wise and 
financially to be able to make a recommendation. That is being 
reviewed now with this new data.

    IMPLEMENTATION OF NAPA RECOMMENDATIONS FOR CONSTRUCTION PROGRAM

    Mr. Regula. In the several years since NAPA made its 
recommendations for reforming and streamlining the Park Service 
construction program, what is the status of that?
    Ms. Mainella. We have revisted our construction efforts at 
the Denver Service Center area. Thanks to you and others here 
we had a NAPA report that looked at that effort. When you see 
the newest report, I think you will be pretty proud of the 
accomplishments we have made in implementing those 
recommendations. Dan Wenk may want to speak in greater depth 
about that.
    We are using the private sector so much more with 90 
percent of our efforts for design being contracted out. We have 
developed models and other things of that nature. I feel we are 
moving much more quickly.
    We do need help in the regions a bit more to make sure we 
have sufficient project managers and contracting capacity. The 
$10 million in this 2003 budget will help immensely.
    Mr. Regula. To make it work, you have to get the 
superintendents.
    Ms. Mainella. When I say regions, I mean our 
superintendents.
    Mr. Regula. Do you have a program of some type where those 
who are now superintendents, or will be, can get some education 
or instruction in contracting policies?
    Ms. Mainella. Yes, we do. We have been doing a lot of 
training. Dan, I would love you to answer that question because 
you know more in detail than I. This is Dan Wenk, our new 
Denver Service Center Director.
    Mr. Wenk. We have gone from doing the work in-house to 90 
percent outside. We have about 165 contracts in place around 
the country with contractors who can do that design work, who 
are familiar with the local conditions and have the expertise 
we need to do it. Some of that expertise we need goes directly 
to your question, training for the superintendents and staff in 
the parks. We have conducted, I think, seven training courses 
on a nationwide basis and have had about 160 park 
superintendents take that course. Another 50 or 60 appropriate 
park personnel have taken the course. They are better able to 
understand the process they need to use as well as their role, 
because they have been made accountable for the construction 
part in their park in accordance with the NAPA recommendations. 
We are very pleased where that is going.
    Mr. Regula. Has outsourcing indicated any diminishing 
quality in your construction?
    Mr. Wenk. No. One of the great things about using the A&E's 
familiar with locations is we have standard contracts with 
these companies around the country, so we have developed 
relationships with them. We also use a very strong project 
management system where we always have involvement of National 
Park Service project managers and the staff within park areas 
and the regions. They assure the projects are being done to the 
standards and the quality that we require and the American 
public demands of the national park.
    Mr. Regula. Thank you.
    Ms. Mainella. Mr. Regula, we appreciate your being willing 
to be a star in our training video. You were a participant in 
that video for training and we appreciate that.

                      VANISHING TREASURES PROGRAM

    Mr. Skeen. The committee has strongly supported the 
Vanishing Treasures program designed to reduce the threats to 
ancient prehistoric and historic sites and structures, 
particularly in the southwest. I understand that Glenn Fulfer, 
the Superintendent from Salinas Pueblo Mission National 
Monument in New Mexico, is here today. Glenn, can you come 
forward and tell the committee how the program is working?
    Mr. Fulfer. It is a great honor to stand before you and 
this committee and to give you a little information about the 
Vanishing Treasures program. We are very proud of Vanishing 
Treasures. It is a grassroots effort conceived and brought 
forth from three New Mexico parks which got together and began 
to share information and concerns about the preservation of 
these sites, the primary resources for which a lot of these 
parks were established.
    Through the efforts of several park superintendents and 
with the support of the National Park Service leadership, 
Vanishing Treasures has now grown to include 41 parks. These 
are in the States of New Mexico, Texas, Arizona, Utah, Colorado 
and Wyoming, soon to include three California desert parks, 
Death Valley, Joshua Tree, and Mojave Desert.
    The initiative has two major thrusts: the preservation of 
the resources, and the building of a cadre of professionals in 
the parks to take care of these resources. In 1998, we received 
the first appropriations and we are very grateful for the 
funding that you provided to us.
    From fiscal year 1998 through fiscal year 2001, we have 
been able to add about 48 individuals, mainly a minority work 
force, Native Americans, Hispanic Americans, 48 new positions 
in 22 parks, and undertake 65 emergency stabilization projects 
in 37 parks. The total through fiscal year 1998-2001 has been a 
little over $7 million, small potatoes when we look at other 
programs. We feel we are a small program but we have done some 
big things. We do appreciate your help.
    Every year, we develop a year-end report which gives those 
that are interested in the status of Vanishing Treasures a 
breakdown of what we have done with the money appropriated to 
us. We have always been very proud of our level of 
accountability. If you give us money and we say we are going to 
do something special with it, then we like to come back and be 
able to say to you, this is what we accomplished.
    It is an effort very much needed in the arid West, 
something the National Park Service leadership has supported, 
and we are grateful for that. If there is anything I can answer 
I would be more than happy to do that.
    Also, the year-end report not only includes the lastyear's 
activities, it also is a combination of all the previous years 
activities. It is the history of Vanishing Treasures, what we have 
done, where we have done the work, the people hired and brought on, and 
we are proud of the program and grateful for the support we have 
received.

                     CARLSBAD CAVERNS NATIONAL PARK

    Mr. Skeen. Can you get lunch down at Carlsbad now?
    Mr. Fulfer. Yes, sir, you can.
    Mr. Skeen. Can I buy a T-shirt?
    Mr. Fulfer. Yes, sir, you can. In fact, I have T-shirts at 
Salinas.
    Mr. Skeen. I am delighted to hear this because it has been 
a real sore spot for our part of the country.

                   TENNIS STADIUM IN ROCK CREEK PARK

    Mr. Dicks. Let me bring up an item of interest I have had 
for years, the work of the Washington Tennis and Education 
Foundation. Zack Wamp's discussion about golf, I thought the 
tennis players ought to get in there.
    This has been somewhat controversial, but one of the things 
we have worked on has been the stadium at 16th and Kennedy 
which is in Rock Creek Park, one of our national parks. There 
was an agreement between the Park Service and the Foundation 
for this stadium to be turned over to the Park Service. It was 
an agreement that has been reached and apparently it still 
hasn't happened. The Foundation is very concerned about it.
    They sponsor the major tennis tournament here but the money 
goes to help inner city youth both in terms of bringing them 
into tennis and helping them with education, so it is a 
charitable effort and I think a positive one. It has done a lot 
of good work, started by Arthur Ashe many years ago. A lot of 
us in Congress have been involved and sustain it. In fact, we 
are having a tournament on the 20th. If you can find out about 
it and let me know.
    Ms. Mainella. I will do that and let you know.
    [The information follows:]

           William Fitzgerald Tennis Center--Rock Creek Park

    In 1997 an Agreement was reached between the National Park 
Service and the Washington Tennis Foundation (now the 
Washington Tennis and Education Foundation [WTEF]) regarding 
the William Fitzgerald Tennis Center at 16th and Kennedy 
Streets in Rock Creek Park. The WTEF was obligated to complete 
certain prescribed unfinished items of work, in addition to two 
major accessibility modifications, after which title to the 
facility would be conveyed to the National Park Service.
    WTEF has accomplished the unfinished items by the end of 
1998, and later accomplished one of the accessibility 
modifications. To expedite the process Rock Creek Park agreed 
to assume responsibility for the second accessibility 
modification. An Architectural & Engineering (A&E) firm has 
been contracted to evaluate the current status of the 
unfinished work, as well as the condition of the facility. The 
contractor is reviewing plans, and will be coordinating with 
the original construction contractor. We anticipate completion 
of the second accessibility modification within 60 days after 
the completion of that process.
    Assuming the WTEF has accomplished and maintained the 
required work, the accessibility modifications are completed 
and the A&E does not discover unknown substantive construction 
or maintenance deficiencies, we expect timely conveyance of the 
title to the facility.

                     SECURITY AT NATIONAL MONUMENTS

    Mr. Dicks. The other thing I wanted to ask you about is the 
question on homeland security. Can you summarize for the 
committee what actions have been taken so far this year to 
improve security at our national monuments and other at-risk 
sites?
    Ms. Mainella. We have been doing a lot. The area that we 
probably gave our greatest attention to initially are the 
Statue of Liberty and the New York areas and also the 
Washington area, the two major areas of initial impact. Thanks 
to some supplemental funding, we have been able to move forward 
with increasing the law enforcement efforts at the Statue of 
Liberty, Ellis Island and Liberty Island both reopened. We have 
not been able to actually reopen the Statue. We are consulting 
right now with the Secret Service, getting their advice, to be 
able to do that.
    We have everything reopened here in Washington D.C. 
including the Washington Monument. In the 2003 budget there is 
an additional $12 million to help us with the Park Police. 
Another $23 million is requested to deal with Washington D.C. 
monuments, getting away from the ugly barriers and putting in a 
security system that will be more appropriate at the 
Washington, Lincoln and Jefferson Memorials.

                  SECURITY AT THE WASHINGTON MONUMENT

    Mr. Dicks. One question on that whole subject, several 
months ago the Department conducted a tour of the Washington 
Monument and described the need for the screening facility as 
extremely urgent. They pointed out that under the current 
arrangement, a terrorist could be inside the Monument before he 
or she could be detected. Can you tell us why the funds for the 
Washington Monument screening facilities have not been included 
in the 2003 request?
    Ms. Mainella. These funds will be in our 2004 request. We 
are planning at that level. The screening facility as it is 
today is not the ideal scenario but it is one that gives us 
enough safety for people coming in. We are doing metal 
detection at this time, so the security is adequate. It is not 
ideal. Putting the screening facility underground and more 
distant from the Monument will be an even greater attribute. 
When we had our plan reviewed by outside sources, it was a 
strong recommendation, but we felt financially the first thing 
we wanted to do was go after car bombs or anything like that. 
So we are working on the barriers and in 2004, we will come 
back with requests for the actual screening facility.
    Mr. Murphy. We also are working under an expedited schedule 
for the security at the Washington Monument. We have done a 
design and build competition already, chosen the designer, gone 
through an expedited approval process with the Fine Arts 
Commission and also with our Historic Preservation Council. We 
have a construction schedule that really doesn't allow for any 
breaks between the design and build and approval processes we 
have to go through.
    We are redirecting some construction funds which will allow 
us to continue to the planning process and get to the 
construction process without any gap at all.
    Mr. Dicks. You are saying even if we added money in a 
supplemental, could you move forward on the screening facility 
any faster?
    Mr. Murphy. Yes. The reason is it will come to a point 
where we will get a break but right now we have provided all 
the money we can to move as quickly as we can to a point. After 
that point we will need supplemental money to allow us to 
continue even faster.
    Mr. Dicks. If the Congress wanted to do this, do you want 
to tell us how much you need to move this forward as 
expeditiously as possible?
    Ms. Mainella. I think we would best provide it for the 
record.
    Mr. Dicks. We understand it is somewhere between $18 and 
$20 million.
    [The information follows:]

               Supplemental Funding for Security Projects

    The Department and the National Park Service consider this 
to be a very important project and have included it in the FY 
2003 budget request. We would move forward as soon as the FY 
2003 budget is enacted. The first phase will install most of 
the permanent vehicle barrier system and begin site preparation 
for the underground visitor screening facility. We plan to 
request the balance of the funds to complete the project in the 
FY 2004 budget.

    Mr. Dicks. Chief, is this screening facility important?
    Ms. Chambers. Absolutely, it is, sir. In the meantime, the 
system that is in place is adequate. It would not be a 
recommended permanent solution because we want the safety of 
the visitors as our primary concern. Right now, it is true 
someone could enter the screening facility, adjacent to the 
Monument, with some type of weapon.
    We looked at the previous studies from Booz Allen Hamilton 
and others and are confident that whatever a person could carry 
into that screening facility is not sufficient to damage the 
Monument itself. So the Monument itself is in secure hands 
right now but the preferred way is to get that screening 
facility as far away as possible from the Monument itself.
    Mr. Dicks. From your professional point of view, you would 
like to see this done as quickly as possible?
    Ms. Chambers. Absolutely.

                      SECURITY IN OTHER PARK UNITS

    Ms. Mainella. Also, one of the things we do have is another 
$6 million requested in this budget to help us in law 
enforcement at some of our park units.

      CONSTRUCTION AT FORT JEFFERSON AT DRY TORTUGAS NATIONAL PARK

    Mr. Dicks. We are having a difficult time obligating all 
these construction funds. I noticed we need to do some work at 
Fort Jefferson, so that may be an ongoing issue. If you do have 
some extra money around, that might be one.
    Ms. Mainella. I will be out there in the near future with 
the Park Foundation. We will take a look at it.
    Mr. Dicks. They are doing it kind of one-sided at times and 
that means you have to set up the crew, do all their stuff, 
then they disband, then they reassemble. It would be better to 
get one crew out there, do the thing, get it done, and I think 
you would save a ton of money. So you take a look at it.
    Ms. Mainella. Yes, sir. We will.

                     URBAN PARK AND RECREATION FUND

    Mr. Dicks. I did notice you did have nice things to say 
about UPAR?
    Ms. Mainella. Yes, sir.
    Mr. Dicks. That was noted. The question from the staff was, 
if it is so good, why have they zeroed it in the budget. If you 
could help me answer that?
    Ms. Mainella. I think it has all been a balancing act and 
it is always a challenge.
    Mr. Dicks. I know. We will try to help you with that 
challenge.
    Mr. Skeen. Mr. Kingston?

            COLLEGE INTERNSHIPS IN THE NATIONAL PARK SERVICE

    Mr. Kingston. George Nethercutt got my curiosity up. In 
terms of internship, there are a lot of college programs that 
have outdoor recreation degrees. If you are a freshman or 
sophomore in college and want to try to get an internship with 
the National Park Service, are those opportunities available?
    Ms. Mainella. Yes, they are. I just met with a number of 
the curriculum chairs across our Nation, encouraging them to 
think about national parks as a place to place interns. I am 
hoping together we will be able to further enhance the 
opportunities for internships in our parks because I think that 
is a great learning opportunity as well as an opportunity to 
have folks learn about the values of our parks resource-wise 
and visitor-wise.
    Mr. Dicks. If we have some college student names, where do 
we turn them in?
    Ms. Mainella. If you get them to me I will make sure they 
are put with the proper Education and Training Coordinator. 
Don?
    Mr. Murphy. I just met with the Associate Director this 
morning on just that issue. We have directed our Human 
Resources staff to put together a pamphlet that we will be able 
to send out to you in the next couple of weeks outlining all of 
our intern opportunities, and telling how to apply as well. We 
did not have that in a central location and just nailed that 
down this morning. We should be able to get it to you in a 
couple of weeks.

                        YOUTH CONSERVATION CORPS

    Mr. Dicks. What about the Youth Conservation Corps? We have 
expanded that. Are you using that?
    Ms. Mainella. We sure are and they are very important in 
our whole maintenance backlog effort and many Youth 
Conservation Corps become employees for us in the future.

                    BLUE RIDGE PARKWAY AIR POLLUTION

    Mr. Kingston. The Blue Ridge Parkway, when you drive up 
there, I think it says ``Today's temperature,'' and then it has 
a pollution index number. Is that something that is just trendy 
or does that have science behind it?
    Ms. Mainella. I am not sure I know that answer. Mike, is 
that a scientific measurement?
    Mr. Soukup. I am not sure what we monitor in that park. It 
is probably related to ozone.
    Mr. Kingston. I believe it is ozone related.
    [The information follows:]

                         Pollution Index Signs

    The signs referred to were located at entrance stations 
along Skyline Drive in Shenandoah National Park. These signs, 
which provided park visitors and commuters with the current 
temperature and air quality index (AQI) were removed in 1997 as 
a result of questions about the timeliness of, and need for, 
the information provided.
    The park has since developed an Ozone Advisory System in 
conjunction with the Environmental Protection Agency and the 
Virginia State Department of Environmental Quality. This system 
is a telephone-based program, by which visitors can access an 
informational hotline via the park's main number that provides 
them with the daily AQI from May 1st through September 30th. 
Additionally, weather and AQI information are broadcast over 
the park radio system on a daily basis so that Rangers can 
respond to visitor inquiries.
    Discussions are ongoing within the park and with 
neighboring parks and stakeholders concerning additional ways 
to best obtain and communicate air quality information.

    Ms. Mainella. Let us check on that.
    Mr. Nethercutt. There is a GAO study that we just did last 
year which focuses on part of the Blue Ridge Parkway and TVA. 
The Administration is working in that area. If you look at 
nuclear, then you will find you can reduce, you can reduce a 
lot of the powerplants. There are three nuclear powerplants 
stopped in 1993, the last one was about 95 percent complete. 
You could cut a lot of pollution by reinstituting those plants. 
I just mention that as an aside.
    Mr. Kingston. I would mention as an aside that 76 percent 
of the houses in France get power from nuclear sources.
    Mr. Nethercutt. And England gets 40 percent of the national 
currency by doing work in Asia and reprocessing far ahead of 
the United States.

                ROCKY MOUNTAIN NATIONAL PARK CONCESSIONS

    Mr. Kingston. The Rocky Mountain National Park, the visitor 
center is where the main concession stand is up on the top?
    Mr. Jones. Yes.
    Mr. Kingston. Why don't you sell some stuff at the bottom 
near Estes Park because you have a park information center 
where you sell a few books but you don't sell the trinkets and 
junky little things you could turn a profit on.
    Mr. Dicks. Check the business plan.
    Mr. Kingston. Isn't it 26 miles up the road to the Trail 
Ridge Visitor Center?
    Mr. Jones. Yes, sir.
    Mr. Kingston. I think you are missing a big business 
opportunity. That is not even technically inside the gate, so 
you could get all those people who saved $10 by not driving in.
    Mr. Jones. We could, but we also have a wonderful community 
in the town of Estes Park that has a wide range of businesses 
that do a good job of providing merchandise for the public.
    Mr. Kingston. That is right. I forgot. They have fake 
arrowheads just as easy as anyone else.

                    CONSTRUCTION PROGRAM MANAGEMENT

    In the Denver Park Service Center, you caught some 
criticism about construction. My question isn't so much about 
Denver as much as the criticism that everyone in this room 
involved in the National Park Service catches, the $300,000 
outhouse and so forth. Do you feel on construction, this is a 
nagging problem with the National Park Service?
    Ms. Mainella. I think we learned a lot from that situation 
because we made a lot of changes. We made changes in the 
process, contracting out and doing a lot more private sector 
partnership at the Denver Service Center. We also instituted a 
Development Advisory Board which involves not only people from 
the Park Service but outside individuals looking at what we are 
doing and evaluating. Any large projects have to go through 
that review. That did not exist before, so we have added those 
elements. I think that has also helped us be a lot more 
realistic in our opportunities as far as construction and 
making sure we are using appropriate cost effectiveness.
    As you know, sometimes building in government requires 
extra bonding and other things that need to take place which 
sometimes affects pricing, but I think we are a lot better 
positioned. We also are packaging ourselves a little more 
appropriately when we tell you how much a house costs in the 
Park Service and also talking about all the roads it took you 
to get there. Sometimes we were doing that in the past.
    Mr. Skeen. Mr. Hinchey?

SEISMIC STUDIES AND OIL EXPLORATION AT CANYONLANDS AND ARCHES NATIONAL 
                                 PARKS

    Mr. Hinchey. I wanted to ask a couple questions about the 
seismic studies that were going on around Canyonlands and 
Arches particularly, and the controversy going on there.
    The Bureau of Land Management seems insistent upon moving 
forward with these seismic studies but the Park Service and 
others have intervened to try to slow down that process.
    Ms. Mainella. I don't know if the seismic studies will take 
place. I think BLM the properties are quite far away from where 
we are. I can get a more complete answer on that if you would 
like.
    Mr. Hinchey. The Bureau of Land Appeals has issued a 
disagreement with BLM's assessment that there was no impact, so 
they have intervened and the seismic studies have been stopped, 
as I understand.
    Ms. Mainella. Let me get back to you after I check on that. 
I apologize, I don't have the full details on that.
    Mr. Hinchey. It is a complex issue. I wouldn't expect you 
to have the details on it. I am sure there are very few people 
who do and they are the ones intimately involved in this. I 
raise it because of a concern for the impact these seismic 
studies, and perhaps some resultant exploratory activities for 
oil, will have on the quality of Canyonlands particularly. I 
would ask you to pay attention to that and I know you will.
    Ms. Mainella. We will, sir. It is very important. It is 
right there by that arch where the torch came in at the 
Olympics in the State of Utah. I was there at 5 a.m. or 
sunrise.
    [The information follows:]

 Bureau of Land Management Seismic Exploration Project in Vicinity of 
                 Canyonlands and Arches National Parks

    The project in question is the Yellowcat Geophysical 
Survey, approved by the Bureau of Land Management (BLM) after 
an environmental assessment and public review. During this 
process the National Park Service stated that the Survey's 
seismic testing would have no impact on either Canyonlands or 
Arches National Parks.
    The Survey was being conducted by representatives of the 
oil and gas lease owners until a stay issued by the Interior 
Board of Land Appeals (IBLA) suspended work on February 22, 
2002. (IBLA has not yet ruled on the merits of the case.) The 
Survey involved no drilling of either exploratory or 
development wells. In fact, if any proposals for field 
development were to result from this seismic testing, a full 
Environmental Impact Statement (EIS), conducted by BLM and 
involving the National Park Service, would be required.
    The closest portion of the seismic project area is 
approximately four miles from Arches National Park, and five 
miles from the world-renowned landmark--Delicate Arch. At that 
distance even the largest vehicles employed by the project are 
not visible to the naked eye.

    Mr. Hinchey. In any case, it is important to us. I want you 
to be aware of that and I know you will be paying close 
attention.

  SEISMIC STUDIES AND OIL EXPLORATION AT BIG CYRESS NATIONAL PRESERVE

    A similar situation exists in Big Cypress, something with 
which you are more familiar. I wonder if you could bring us up 
to date on what is happening there, with particular regard to 
oil explorations and the impact of that on the ongoing efforts 
to restore the Everglades in association with the Big Cypress?
    Ms. Mainella. As you know, Big Cypress is part of the 
Everglades Ecosystem and as a preserve, does have a unique 
situation where it has had oil drilling going on for a long 
time. It does have the Collier family and some other 
individuals, but mostly the Collier family has an opportunity 
because of their ownership on some of those rights to continue 
to move in that direction.
    We are working closely with the Collier family to see if 
there are any alternatives, any options from exchange to other 
options that could be considered. We are working on those 
aggressively right now.
    Mr. Hinchey. What would that mean?
    Ms. Mainella. That effort has been with our attorneys and 
others. I am not sure of any of the details other than it might 
be able to address the oil issues in Big Cypress, which are a 
big concern for us all. I would be glad to keep you informed as 
that progresses. At this point, all I know is there has been 
negotiations underway.
    Mr. Hinchey. I think we should have an answer for the 
record.
    Ms. Mainella. I'll follow up when I find out the answer.
    Mr. Hinchey. Will that answer include what the 
Administration's position is with regard to energy exploration 
in the Big Cypress at the same time that we are spending, over 
a period of time, several billions of dollars to bring about 
restoration?
    Ms. Mainella. Exactly. Big Cypress is an important part of 
our whole Everglades effort.
    Mr. Hinchey. I want to have it clear to what extent we may 
be engaged in conflicting activities.
    Ms. Mainella. Exactly.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                      VANISHING TREASURES PROGRAM

    Mr. Hinchey. I wanted to express my appreciation for the 
Vanishing Treasures Program. Your presentation was very good. 
The documents you presented about the work you are doing is 
also very impressive and would seem to me to be something that 
really needs to be done.
    It is an interesting project and I hope you will keep us 
posted on how you are proceeding with it. We would like to be 
helpful to you in whatever way we can.
    Ms. Mainella. It is a good program. It has allowed us to 
bring Native Americans on as part of our employment because of 
the skills they have been able to afford us not available 
before.
    Mr. Skeen. Mr. Nethercutt?
    Mr. Nethercutt. One comment and a short question.
    You speak of your personnel. I imagine I speak for everyone 
on the subcommittee in congratulating you and your park rangers 
at the various parks. I think we have all had exposure. Talking 
about Native Americans, I went to climb the Grand Canyon years 
ago and the Native American guides and informational resources 
they provided were great. Your people are doing a fine job out 
in the field dealing with the public.
    Ms. Mainella. They do a great job and are our best asset.
    Mr. Nethercutt. I think you are right.

            PARK RANGERS ASSIGNED TO SECURITY AWAY FROM PARK

    The Grand Coulee Dam issue, you and I talked about a bit 
previously. There are some Park Service people providing 
security there. You have answered me in writing. If you could 
update as best you can any further information you have about 
the timetable?
    Ms. Mainella. The Department is working aggressively to 
have our park law enforcement rangers so back to the parks. 
Right now we are supporting some work at the dams and other 
things like that. The date they have given us would be October 
1 that we would get our rangers back.
    We have also been doing security in Washington, D.C. and I 
understand we may be able to have some of our rangers go back 
as of May 1. So we are looking at that.
    Mr. Murphy. That is correct. The situation at the dams has 
been very difficult because BOR has had to get up to speed, had 
to have authority to hire, under contract, law enforcement 
personnel, and we are assisting them in doing that. We just 
deployed five people to their regions to assist in putting 
together their law enforcement programs. We are now trying to 
expedite that by providing additional personnel. I think we 
will make that October date.
    Mr. Nethercutt. I hope so because it is putting some 
pressure on and frankly it is not our best resource. With all 
due respect, I think we need pretty specifically trained people 
for the kind of problems we might face out our way. I know you 
are trying. Thank you.
    Ms. Mainella. Thank you.

                          SNOWMOBILES IN PARKS

    Mr. Dicks. Going back to the snowmobiles, I have been out 
there and seen the park and I think this is a serious issue. 
One thing is the improvement in technology. These four stroke 
engines are much better and there may be a way to address this 
by using the better technology. I hope you will take a serious 
look at that.
    Mr. Skeen. If there are no additional questions, I would 
like to thank the witnesses for their testimony today and this 
concludes the hearing on the National Park Service budget.
    Ms. Mainella. Thank you, sir.
    [Additional questions for the record follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, April 11, 2002.

                     U.S. FISH AND WILDLIFE SERVICE

                               WITNESSES

STEVEN WILLIAMS, DIRECTOR
MARSHALL JONES, DEPUTY DIRECTOR
STEPHEN GUERTIN, BUDGET OFFICER
JOHN D. TREZISE, DIRECTOR OF BUDGET, DEPARTMENT OF THE INTERIOR
DENISE SHEEHAN, ASSISTANT DIRECTOR, BUDGET, PLANNING AND HUMAN 
    RESOURCES
DAN ASHE, CHIEF, NATIONAL WILDLIFE REFUGE SYSTEM
TOM MELIUS, ASSISTANT DIRECTOR, MIGRATORY BIRDS AND STATE PARTNERSHIPS
WILLIAM KNAPP, DEPUTY ASSISTANT DIRECTOR, FISHERS AND HABITAT 
    CONSERVATION
GARY FRAZER, ASSISTANT DIRECTOR, ENDANGERED SPECIES
TEIKO SAITO, DEPUTY ASSISTANT DIRECTOR, INTERNATIONAL AFFAIRS
KEVIN ADAMS, ASSISTANT DIRECTOR, LAW ENFORCEMENT
ROBYN THORSON, ASSISTANT DIRECTOR, EXTERNAL AFFAIRS
PAUL HENNE, ASSISTANT DIRECTOR, BUSINESS MANAGEMENT AND OPERATIONS

                   Opening Remarks of Chairman Skeen

    Mr. Skeen. Today we have the new director of the Fish and 
Wildlife Service, Steve Williams, here to testify on the 
Service's 2003 budget request. Welcome, Mr. Williams.
    Mr. Williams. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to appear today.
    Mr. Skeen. I know that 2003 marks the 100th birthday of the 
National Wildlife Refuge System. That's quite an honor, and I 
look forward to hearing about the preparations for the Refuge 
centennial.
    Your full statement will be made a part of the record, and 
I'll ask that you summarize your testimony. But first let me 
turn to Mr. Dicks, the Ranking Minority Member.

                      Opening Remarks of Mr. Dicks

    Mr. Dicks. Thank you, Mr. Chairman. And welcome, Director 
Williams.
    The fiscal year 2003 budget for the Fish and Wildlife 
Service contains some very positive proposals, namely the 
significant increase of 18 percent for our Nation's refuge 
system, to coincide with the 100th anniversary, as the Chairman 
has mentioned, of the Refuge system next year. However, a 
closer look at the details of the budget for this agency shows 
that the increase, while laudable, comes at the expense of 
other programs, in some cases from programs that also support 
the refuge system. This budgeting tactic has been used for 
other agencies under the jurisdiction of this Subcommittee. And 
I must admit that I am troubled by it. If a program is 
important, we ought to pay for it.
    The budget also makes several reductions for programs that 
were added by this Subcommittee. While I understand the 
Administration's right to propose its own priorities, I was 
disappointed to see that a number of reductions had tremendous 
agency support. In some instances, programs were eliminated 
from the base budgets of an agency after having started as a 
Congressional priority.
    I also hope to discuss the State Wildlife Grant program at 
greater length today, so that the Subcommittee can get a better 
understanding of where the agency is going with this program. 
Having spent an enormous amount of time on this topic, I am 
still troubled by how the agency has proceeded with this 
program since it was created two years ago. I am pleased that 
the Administration did not propose the significant cut to the 
Fish and Wildlife Service that we saw last year.
    Coming from a region of the country faced with tremendous 
ESA related pressure, I am keenly aware of how important it is 
to adequately fund these programs and staff this agency. While 
I would advocate for agency increase, I'm relieved to see the 
Administration's proposed level funding instead of a reduction.
    So thank you, Mr. Chairman, I look forward to the testimony 
of Director Williams.
    Mr. Skeen. Director Williams, would you please introduce 
your companions and then summarize your testimony.

                  Opening Statement of Steven Williams

    Mr. Williams. Thank you, Mr. Chairman. I'd like to 
introduce first, to my left, your right, Marshall Jones, the 
Deputy Director. To my right, Steve Guertin, our Chief of 
Budget.
    Mr. Skeen. We're glad to see you.
    Mr. Williams. And I have assistant directors behind me 
that, with your permission as we go through questioning, I'd 
like to refer some of the questions to them for answering, if 
that's okay with you, Mr. Chairman. I'm still scurrying to 
learn the budget and learn the issues that confront the Fish 
and Wildlife Service.
    It is a pleasure to appear here today to present the 
President's fiscal year 2003 budget request. As you mentioned, 
I have prepared remarks. I'll just highlight a few of those 
remarks.
    This is my first appearance before this Subcommittee, but I 
am told and I am aware of how this Subcommittee has championed 
in particular the National Wildlife Refuge System by advocating 
increased use of those lands, cooperative partnership efforts 
and carrying out the Service's responsibility. I am pleased and 
honored to be sitting in this chair as we prepare for the 100th 
anniversary of the National Wildlife Refuge System.
    Our 2003 budget request totals nearly $2 billion, which is 
the largest ever. It provides direct financial and technical 
assistance to States, local communities, land owners and 
conservation groups, including the new cooperative conservation 
initiative. And it provides a major increase for the operation 
and maintenance of the refuge system.
    At this time, I'd like to begin some of the major items in 
the budget. We are requesting nearly $377 million for refuge 
system operations and maintenance, which is an increase of 
almost $57 million above fiscal year 2002 and $76 million above 
the fiscal year 2001 budget. Our request includes a $12 million 
increase for refuge operations, a minimum of $5 million 
increase for the highly successful cost share program, $2 
million for a new initiative on visitor facilities, $1 million 
to complete CCP's, and an increase of approximately $31 million 
to reduce the number of deferred maintenance projects.
    As I said, I want to acknowledge and express my 
appreciation for the support of this Committee that you have 
all provided through the years for the refuge system under both 
you, Chairman Skeen, and former Chairman Regula. Your efforts 
have certainly laid the groundwork for these proposals to 
advance the refuge system.
    Our budget request also includes $283.9 million forprograms 
assisting States, tribes and local communities and land owners. That 
amount includes $50 million for the Landowner Incentive grant program, 
$10 million for the Private Stewardship Grants program, $91 million for 
the Cooperative Endangered Species Conservation Fund, $43.6 million for 
the North American Wetlands Conservation Fund, $60 million for State 
and Tribal Wildlife Grants, and approximately $29.3 million for the 
Partners for Fish and Wildlife program.
    Also included in the Department's request is a proposal for 
$100 million for new flexible, incentive based programs to 
implement the Secretary's goal of conservation through 
cooperation, consultation and communication. Of that $100 
million, $50 million would be allocated to the States through 
the National Park Service's Land and Water Conservation Fund. 
The other $50 million would be available to the Service and to 
other Interior agencies for projects benefiting Federal lands 
and resources.
    We are requesting $18 million to implement this initiative. 
A minimum of $5 million would be directed toward the refuge 
system challenge cost share program and the remaining $13 
million would be available competitively to nearly all the 
Service programs, including refuges. We're requesting a total 
of about $126 million for the Endangered Species programs. This 
includes the $1.1 million increase for candidate conservation 
efforts, $2.3 million for consultations, technical assistance 
and habitat conservation plan efforts.
    For recovery of listed species, we enter into a bit of 
budget speak. The request shows up as a decrease of $3.4 
million from the enacted level. This is primarily due, however, 
to the proposed discontinuation of earmarks. If Congress 
accepts this, we would actually result in a $2.5 million 
general increase in funding for Service priorities.
    We are asking for an overall increase of $1.5 million for 
our law enforcement programs. This money is much needed to 
continue our efforts to strengthen our law enforcement program 
by providing funds to support enforcement activities of onboard 
staff.
    We are requesting $94.8 million for the Fisheries program, 
which is a net decrease of $9.1 million below the 2002 enacted 
level. An issue of concern, I'm sure, to many members, includes 
a net decrease of $1 million from the hatchery programs, in 
order to implement the Administration's management reform 
initiatives.
    I want to stress at this point our continued commitment to 
work with Congress and all other stakeholders to determine how 
to eventually apply this reduction, and more importantly, or as 
importantly to address the future of our hatcheries system and 
Fisheries program.
    The land acquisition request totals about $71 million. We 
request $5 million for the Multi-national Species Conservation 
Fund. I would conclude by saying that although this budget 
development and budget request was finalized prior to my 
confirmation, it's one that I'm proud to recommend to you. 
There are significant increases for important priorities and I 
would urge the Subcommittee to support the budget request.
    As I said, I have Marshall Jones with me, and Steve 
Guertin, head of our Budget Office and numerous assistant 
directors that sit behind me.
    [The written statement of Mr. Williams follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                            REFUGE EXPANSION

    Mr. Skeen. What are you doing to control the number of new 
refuges that are added to the National Wildlife Refuge System, 
and what are you doing to control expansion of the existing 
refuge?
    Mr. Williams. That's a good question, Mr. Chairman. There 
are a variety of efforts that have been undertaken prior to my 
confirmation. Starting with a new project idea that deals with 
preliminary project proposals, these proposals are drafted at 
the regional level, and at the local level. The proposal 
presents an idea that goes before the regional management team. 
That team evaluates the fitness of a potential unit or 
potential property to be acquired. That starts the process for 
consideration of future expansion or new areas being brought 
into the refuge system. We can provide additional information 
for you in our prepared remarks.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    I would like to bring to your attention a new effort that I 
intend to undertake and actually have initiated in discussions 
with our chief of the refuge system, Dan Ashe. Dan and I have 
discussed the need for the development of priorities and 
guidelines for future land acquisition, future refuge 
expansion, that would provide a greater direction and focus for 
future land acquisition efforts by providing a national 
priority, if you would.
    The intent here is a number of intentions. One is to help 
folks in the field understand what the priorities of the 
Service are from a national perspective. Two is to filter land 
acquisition requests that come in from the field through this 
priority and guidance document, so that we limit the number of 
requests, the acreage that would be requested to be added to 
our refuge system, and focus our efforts on those highly 
exceptional land areas that provide, for instance, critical 
habitat for threatened and endangered species, perhaps critical 
wetland values and a variety of other characteristics that an 
internal group of employees within the Service will be 
developing hopefully within the next few weeks.
    Mr. Skeen. How do you factor in operating costs when making 
a decision on a new refuge?
    Mr. Williams. My understanding is that's a relatively 
recent development in the Service as we plan for the future, 
and it's one that I am very supportive of. I also understand 
that a lot of impetus for that came through this Subcommittee.
    When proposals are sent through the chain of command, if 
you will, we have requested that those making proposals for 
expansions or new lands provide their best estimates of out-
year costs for operation and maintenance. We take that into 
account when it moves through various levels of approval and 
ultimately now those approvals are made not at the regional 
level, but at the Washington level, in fact, at the Director's 
level. When any of those proposals come forward, I can assure 
you that I will be asking perhaps similar questions to what 
this Committee would ask in terms of, what are the out-year 
costs, the ongoing operations and maintenance costs.
    I believe strongly taking care of what it is that we own 
now, not to the exclusion of additional acreage, needs to be 
factored into our considerations or our decisions before we 
take on new properties. This includes what it is costing us to 
operate currently, what are the deferred maintenance costs that 
are out there, and what future O&M would we have to take under, 
or what future O&M costs we would have with any additional 
properties.
    Mr. Skeen. Mr. Dicks.
    Mr. Dicks. Thank you, Mr. Chairman.

                     DIRECTOR WILLIAMS' EXPERIENCES

    Dr. Williams, you have spent the last seven years in Kansas 
as Director of the Wildlife and Parks. Prior to that, spent 
considerable time in both Massachusetts and Pennsylvania 
working with State wildlife agencies.
    What did your experience out in the field teach you about 
what was and what wasn't working at the U.S. Fish and Wildlife 
Service?
    Mr. Williams. One of my primary goals for the Service, 
based on my 16 years of experience in State agencies, was to 
strengthen the relationship between the Fish and Wildlife 
Service and State agencies. By that I mean, to bring State 
agencies to the table on a variety of issues, whether they be 
endangered species issues, refuge issues, fisheries issues, law 
enforcement and so on, all programs of the Service, to bring 
State agencies to the table to look for ways that we could 
assist them in their conservation mission and they could assist 
us.
    That's not to say that there aren't wonderful partnerships 
that exist, because there are. I have had the pleasure of 
working with, in my capacity as a state employee, many Fish and 
Wildlife Service employees on projects on the ground that have 
been, in my opinion, very successful and advanced fish and 
wildlife conservation. I think we can do a better job as a 
Federal agency in reaching out to the States and working with 
our employees to, as I said, advance conservation.
    Another part of that equation deals with partnerships. I 
think the Service can improve and strengthen its relationship 
with other partners. By that I mean non-governmental 
conservation organizations. We can improve our relationship and 
partnerships with the hunting and fishing and other wildlife 
oriented industry groups that promote fish and wildlife 
conservation.
    And last, my experience at the State level, and its first-
hand experience in working with sportsmen and women and three 
different States is, I think the Service can take steps to 
further improve our working relationship with the sportsmen and 
women in this country, and as far as that goes, with all 
members of the public in this Nation. But particularly those 
that are interested in wildlife dependent or wildlife related 
outdoor recreation.
    Mr. Dicks. Let me ask you, there have been several major 
controversies this year that go over the last several years. 
One is on the Canadian lynx, and the other on the Klamath Basin 
controversy, which we have previously attested to the 
Secretary, these have caused great controversy and considerable 
damage to the reputation of the Service. The conclusions to the 
National Academy Review regarding water in the Klamath Basin 
were particularly troublesome.
    In your view, what do these episodes tell you as a new 
Director about the quality of the science and the ethical 
standards within the Service?

                             KLAMATH BASIN

    Mr. Williams. If I could, I'd address the Klamath situation 
and the lynx situation separately.
    Mr. Dicks. That would be fine with me.
    Mr. Williams. I think it's important that we separate those 
two issues, because they need to be addressed. Some of the 
things we need to do to address both of those I can discuss at 
the same time. But they are separate issues.
    In terms of the National Academy of Science's review of our 
biological opinion at Klamath, I would point out that there 
were a number of conclusions that were reached during our 
biological opinion or in the biological opinion document that 
were strongly supported by the National Academy of Science. 
However, the perhaps most significant in some perspectives was 
a conclusion we reached that water levels, maintaining a 
certain water level, was important for the survival of the fish 
species in Klamath.
    I believe that our employees on the ground used the best 
information they had available. I would say that that 
information, even they would agree, I'm sure, was not the best 
that they would have liked to have available, but it was the 
best available at the time. From their analysis they drew 
conclusions based on their professional judgment. The 
conclusion that they drew, in essence, was if nutrient loading 
was a concern and is a concern for the survival of the sucker 
species in question, that higher volumes of water, higher lake 
levels, I think is an intuitive conclusion and judgment you 
might come to. If we had higher lake levels, we might expect 
better survival of the fish.
    Unfortunately, when the National Academy of Science 
reviewed our opinion and our judgment, they didn't concur. 
Looking back, with the benefit of further review, we would 
agree that the science that we had, the data that we had, were 
not conclusive, did not support our opinion that we needed to 
maintain those higher lake levels, based on the information we 
had.
    The lessons I've learned there certainly, well, there are a 
number. One is, that we need to strive to get the resources to 
monitor, survey and collect the information we need for all of 
our decisions. And honestly, we don't have or neither does any 
State fish or wildlife agency, have all the information they 
would like to have to make the best decision. So we're taking a 
look at that, how do we best apply our finite resources to 
those areas where we're going to have to make decisions, 
particularly controversial decisions and particularly decisions 
that are going to have the type of impact that we saw in the 
Klamath Basin area.
    So the use of best science is something that we continue to 
be very committed to.
    We were going to talk about peer review of science, but 
before I do that, I would point out that our opinion did go 
through some peer review prior to being published. But we are 
committed to searching out ways to bring peer review to all of 
the science, all the decisions that were involved and as 
appropriate, recognizing that there are time commitments, there 
is statutory time commitments, there is sometimes a reluctance 
to have folks peer review data, conclusions, scientific 
research. But we're committed to involving peer review, outside 
peer review, as much as possible.
    Mr. Dicks. When do you expect to receive the final 
recommendations from the Academy, and what will you do in the 
interim?
    Mr. Williams. I believe the final recommendations are due 
in March of 2003. In the interim, we are incorporating the 
conclusions of the NAS study as we speak in the development of 
the ten year biological opinion for Klamath. That's going on 
right now as we develop that biological opinion. So we're 
looking at information presented there, using that as 
additional information to help guide our opinion.
    So the lesson there in a nutshell is, we need to get the 
best science we can, better science if we can, and we need to 
incorporate peer review when and where possible. And it also 
has driven the agency to involve other folks within the agency 
with certain areas of expertise that may not be available at 
the local level where those decisions are made. So that's kind 
of my thinking on Klamath.

                              CANADA LYNX

    The lynx case is a bit of a different issue to try to 
tackle. I would start out by pointing out to this group that in 
my opinion, and it's my strong opinion, the incident 
surrounding the submission of fur from a captive lynx to a lab 
for identification involved bad judgment by those individuals 
involved. Not bad science by this agency. We need to put 
responsibility where the responsibility is. That 
responsibility, in my mind, lies with those individuals that 
were involved.
    I'd like to take a second to provide a little more 
information on the lynx survey issue, because I'm disappointed 
in some of the accounts I've read in the newspaper about what 
it was that happened. I'd just take a couple of minutes if I 
could to just kind of lay that out as I understand it, based on 
my reading of the GAO report and the Department of Interior's 
Office of Inspector General's report.
    With regard to the Fish and Wildlife Service employees, and 
that's the only two that I'll speak to, what occurred there was 
two individuals had apparently discussed concerns about the 
lab's ability to correctly identify samples that were sent in. 
That led one of the individuals to procure some lynx hair from 
a captive lynx, provide it to the second Service employee, and 
that Service employee sent it in to the lab for identification. 
There were notes made on his data sheets that were sent in, 
indicating that that sample was in essence, in his mind, a test 
sample. Once it came to light the Forest Service, Fish and 
Wildlife Service and Washington State employees had taken these 
steps, the lab stopped all examination of samples sent in and 
those sampleswere eventually weeded out from what was sent.
    Now, having said that, I don't say that as an excuse. I 
don't say that in defense of those employee's actions. It 
exhibit poor judgment at best. I think it was certainly ill-
advised, perhaps unethical. What happened was, two employees 
who took it upon themselves, perhaps for good intentions in 
their minds, but took it upon themselves to go outside of the 
scientific protocol that was established. That in and of itself 
is an unprofessional activity.
    It was not, as some newspaper reports claim, fur planted in 
the forest. It was fur that never, to my knowledge, again based 
on the reports, not fur that was planted in the forests. It was 
fur that was taken from a captive lynx and submitted as a 
sample.
    Steps that we've taken to deal with that are numerous. I'd 
just to go through a few of those. One is that we have 
developed through Director's order personnel standards which 
specify disciplinary consequences for inappropriate or 
unacceptable behavior related to science entitled Disciplinary 
Action for Unauthorized Activities in the Course of Scientific 
Studies or Investigations.
    Some of the key components of this order include requiring 
all employees that are involved in scientific studies or 
investigations to adhere strictly to established survey and 
scientific protocols; requiring any employee who questions the 
scientific methods, which seem to be the case in the lynx 
issue, any employee who questions scientific methods being used 
in the study, including quality assurance and quality control 
procedures, must use appropriate channels to address these 
concerns. They cannot take it upon themselves to address those 
concerns.
    It states that any measures taken outside of established 
study protocols to ``test'' any aspect of the study without the 
knowledge and consent of the principal investigator is always 
unacceptable and we inform employees that acting outside of 
these aforementioned established protocols would be grounds for 
disciplinary action, up to and including removal from the 
Service. That deals with performance and conduct.
    Further, I've taken steps that I categorize under 
leadership steps. I've met with regional field managers in 
three of our southern regions, next two weeks from now I'll be 
in the fourth and plan to conclude all of our seven regions, 
stressing the importance of scientific rigor and scientific 
integrity as the Director of the Fish and Wildlife Service.
    We will attempt to optimize external resources, bringing 
support from individuals and organizations outside of the 
Service to cooperate with us in looking at how we conduct 
research, how we analyze that research and the decisions made 
on that research. And finally, in terms of training for current 
and future employees, we've employed the National Conservation 
Training Center, which is a component of the Fish and Wildlife 
Service, in the full range of its instructional programs, to 
stress the importance of scientific rigor, scientific integrity 
and ethics. So we're trying to cover as many bases or all bases 
in getting through to all employees the importance of 
professional, ethical behavior and the importance of scientific 
integrity.
    Mr. Dicks. Just one final comment. Because I know we want 
to get to the other members.
    What happened to the employees? Were any of these people 
fired? Or were they just counseled and reassigned to other 
jobs?
    Mr. Williams. Again, my understanding is that when this 
came to light, the two Service employees in question were 
counseled. Immediately upon receipt of the knowledge that this 
had gone on, Secretary Norton requested an OIG audit. That 
audit came to us some time in March. We are reviewing the OIG 
findings and any appropriate disciplinary action will be taken.
    Mr. Dicks. I just would say, things like this, when we have 
to make these hard decisions about the enforcement of the 
Endangered Species Act, and the credibility of the agency is 
absolutely crucial. I do strongly support the idea of trying to 
bring peer review to bear on some of these controversial 
decisions, because of people having questions about the 
adequacy of the science.
    Thank you, Mr. Chairman.
    Mr. Skeen. Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.

                        REFUGE LAND ACQUISITION

    Mr. Williams, you state that you are going to acquire 
approximately 50,000 acres between fee lands and easement 
interest in this budget. Could you break down just the general 
percentage, is it 50-50, 35 fee and 75 easements? Or if you 
don't have that now, I'd like to have that if you don't mind, 
before the record closes.
    Mr. Williams. Yes, sir. We'll get that for you. I don't 
have it immediately available.
    [The information follows:]

                          Easement Acquisition

    In the FY 2003 Land and Water Conservation Fund (LWCF) 
request, the Service has roughly estimated 11,000 acres of 
easements to be acquired which corresponds to 22 percent of the 
request. The Service pursues less than fee acquisitions 
(easements) from willing sellers whenever practical. Since 
1997, the Service has established four new refuges, Dakota 
Tallgrass Wildlife Management Area (WMA), North Dakota WMA, 
Northern Tallgrass Prairie National Wildlife Refuge (NWR), and 
Western Montana NWR/Blackfoot Valley, that focus primarily on 
Easement acquisitions.

    Mr. Taylor. In your studying the acquisitions of land, do 
you ever study the elimination of land from Federal ownership 
that have little or no use in the major focus of the Fish and 
Wildlife Service?
    Mr. Williams. If I could, Mr. Chairman, I'd like to turn to 
Dan Ashe, of the Wildlife Refuge System, if that would be okay, 
to respond to that.
    Mr. Skeen. Absolutely.
    Mr. Ashe. Mr. Taylor, we don't do any regular comprehensive 
review on the status of lands in the National Wildlife Refuge 
System for the purpose of surplusing lands, anything similar to 
the base closure process or anything like that. We have in the 
past from time to time looked at specific refuges and 
recommended deletions, minor deletions that are necessary.
    We did one I think last year in the State of Washington 
where we had a small parcel of property that we had acquired at 
one point for an administrative site. We weren't using it, we 
had never constructed the visitor's site. So we encouraged a 
piece of legislation to transfer that piece of property to the 
local government, because they had a use for it.
    We are currently looking at a couple of refuges, John Hay 
in New Hampshire, and evaluating whether that refuge is 
necessary any longer, because it's primarily an historical 
piece of property. So from time to time we do look at 
individual pieces as issues arise. We do evaluate whether or 
not we need those refuges to accomplish some specific mission 
requirement.
    Mr. Taylor. I appreciate it. I just want to call to your 
attention that there's nothing in the Constitution or the Ten 
Commandments that says the United States Government ought to 
own the whole United States. We are gradually getting close to 
40 percent. While I share the idea of acquiring lands that are 
favorable and you want to focus especially in the area of the 
Everglades where damage has been done. I'veserved in State 
House and State Senate and as chairman of the Parks and Recreation 
Council of North Carolina and the North Carolina Conservation Board.
    We all know we have a lot of land thrust upon us that is 
not necessarily in areas we can use. I remember North Carolina 
got a lot of landfills given as parks, because about cleanup 
time, they all came in with parks, and of course, the millions 
of dollars we had to fork over for cleaning it up. But I just 
mention that.

                       FOREST SERVICE COOPERATION

    I'd like to also ask you, Mr. Williams, you're working with 
cooperative and consultation, does that include the U.S. Forest 
Service? I'd like to tell you that the multitude of wildlife 
organizations in my district, and there are a number, because I 
have 15 rural counties with about a million and half acres of 
park, forest, U.S. Forest Service and so forth.
    And I'll also say that in my 36 years of public service, I 
feel the sportsmen's organizations, the sportsmen and women of 
the country have done more to make a difference in wildlife 
than any Government agency, although we appreciate the State 
services and the Federal services. But the multitude of funds 
that they provide and the consistent means of people involved 
with it, fowl or fish or big game. It's made a real difference.
    Those organizations are now very puzzled with the failure 
of modern silviculture in our Forest Service, which is 
supported by our best universities. Their idea that Federal, 
State research organizations and most wildlife organizations, 
they realize that modern silviculture, including harvests, are 
needed for us to increase and diversify the quality of wildlife 
programs for the Nation. While your $600 million and so forth 
is a help, how we manage our other lands is also very 
important. There's sort of a Luddite approach now that, never 
harvest a tree, even though the failure to administer salvage 
is costing us tens of millions of acres in fire damage and 
insects and wildlife or disease.
    It also isn't consistent with a diversity of wildlife 
harvest. Have you gotten into that? Because the low grouse, 
game, small birds, that sort of thing, cannot stand an old 
growth forest that's consistent, that's all there is, non-
managed forest. If we could focus in that area, we could do a 
great deal in increasing wildlife on public lands.
    Mr. Williams. Yes. Thank you, Mr. Taylor. I would love to 
talk about that just for a couple of minutes. Your first 
question was, do we cooperate and work with the U.S. Forest 
Service. And in the past, the Service has, and we certainly 
will continue.
    But I think you'll see, I hope you'll see that under the 
direction of this Administration there needs to be closer 
working relationships. I've had a couple of meetings with Mark 
Ray in USDA and Dale Bosworth, the Chief of the Forest Service. 
We've scheduled additional meetings to try to better bring 
together the expertise that we have as a fish and wildlife 
conservation agency and the expertise Forest Service has in 
terms of land management.
    So the proof will certainly be in the pudding. But we are 
doing our best to work more cooperatively together on many 
issues, including timber harvest, wildfire protection and so 
on.
    I would also agree with your comments that the sportsmen 
and women have provided the bulk of the financial contribution 
to much of the fish and wildlife conservation successes in this 
country. Relative to timber harvest, I spent a fair amount of 
my educational career and professional career working in the 
northeastern part of the country. My Ph.D work was on rough 
grouse habitat. Ruffed grouse, woodcock and numerous songbirds 
and numerous other species of birds and animals are dependent 
upon early successional stage forests, or young forests. It's 
disconcerting as we see in some areas woodcock populations, 
grouse populations, perhaps declining because of or at least 
the best professional judgment is, because of aging timber 
stands in the northeast.
    Like so many other things that we do in natural resource 
management, I think we need to find a balance between old 
growth and young stands between timber harvest of some areas 
and protection of forest from harvest and other areas. But I 
view timber harvesting, if done appropriately in the right 
areas, as a wildlife management tool, as do most wildlife 
management professionals. So I can assure you that when it's 
appropriate, I would be personally supportive of it and work 
with, or as an agency, work with the Forest Service, State 
forest organizations, to provide some technical expertise in 
order to bring off timber harvest in those areas.
    I'm not opposed to the appropriate use, multiple use of our 
forests.
    Mr. Taylor. I'm glad to hear it, because it's been in the 
last few years, almost ceased in the southeast, and I'm not 
that much familiar with the northwest, but I understand that's 
true there. But we appreciate that, without getting into any 
debate about any particular forest or any particular stand 
that's being brought forth, the concept of multiple use has 
been successful in years past. I think it can be again.
    Thank you. Thank you, Mr. Chairman.
    Mr. Skeen. Mr. Nethercutt.
    Mr. Nethercutt. Thank you, Mr. Chairman. Welcome, 
gentlemen.
    Mr. Williams, have you visited the State of Washington, or 
the northwest, since you've been appointed to your position?
    Mr. Williams. I have not, sir. I am planning on going to 
Portland, Oregon, at the end of this month for a few days. I 
look forward to that.
    Mr. Nethercutt. I urge you to come to Washington State.
    Mr. Dicks. It's just across the river. [Laughter.]

                           EMPLOYEE JUDGMENT

    Mr. Nethercutt. An easy trip. It is a big river, though.
    Let me tell you, I find your answers on the lynx issue to 
be equivocal. I heard you say bad judgment of individuals, that 
these individuals questioned the lab's ability to conduct 
testing. I don't know where they got the ability to do that or 
make that judgment.
    I heard you say unprofessional. I heard you say 
unacceptable. I heard you say perhaps unethical, which I think 
you ought to strike the perhaps, with all due respect. And I do 
respect you and your agency.
    That they'd been counseled, these employees. That doesn't 
mean much to me, in the world of equivocation that surrounds 
that verb. And that they would be given appropriate 
disciplinary action, which is also equivocal.
    If, if these people had faked it the other way and said, 
there's no lynx in the area, I would argue that you would be 
absolutely inundated with outrage from those who have the 
greatest respect for the Endangered Species Act, as I do and I 
think everybody else at this table does. I think your answer 
would be completely different, with all due respect.I think 
you'd say, goodbye, you tried to fake the idea that there isn't a 
species in this area, as opposed to fake that there is.
    So can you help me understand whether you care at all about 
this or is this going to be sort of unimportant as it relates 
to the argument that can be made that the science in your 
agency is flawed across the board, and that you ought to have 
an obligation, it seems to me, perhaps, to go back and check 
every bit of science that's been done on species issues that 
comes before your agency, based on this example. I can make a 
powerful argument that you ought to do that, that in a new 
Administration, that perhaps policy and philosophy and politics 
maybe supplanted the law and fair and reasonable policy as it 
relates to the requirement that your agency have integrity.
    You talk about peer review, I agree with you. But if 
everybody's questioning your science based on the way you treat 
the employees who breached ethics, as you say, professionalism, 
unacceptable behavior, bad judgment, why are you keeping them? 
Make them an example, it seems to me. Assuming that what you 
say is correct about these adjectives that go with their 
conduct, seriously. And I'm a Republican. I support your 
Administration.
    But my gosh, I think that's--for us in the west, this is a 
big issue, just because we get whacked with Endangered Species 
Act issues all the time. And it costs us tens and hundreds of 
millions of dollars. I'd appreciate your answer.
    Mr. Williams. There's a lot of things to cover there. I'll 
try to start at the beginning.
    As I sit here, and again, first time appearing before the 
Committee, I don't know that I've ever been known to be 
extremely politically correct, but I am trying to choose my 
words carefully. I said perhaps unethical. I would strike the 
word, as I view it, perhaps, and call it unethical. How others 
view that word, what that word means, I don't know. So that's 
why, again perhaps, I put that qualifier in there.
    Mr. Nethercutt. It isn't a positive adjective, it's 
negative. As the other ones are as well.
    Mr. Williams. As far as the actions the agency took at the 
time, I can't speak to that first-hand, because obviously I 
wasn't here. But I do know that from my experience at the State 
level, there are regulations, there are policies that guide the 
actions taken, both in investigating an incident and then 
deciding upon the appropriate discipline and level of 
discipline.
    The full investigation really didn't come out until the 
IG's report came out.
    Mr. Nethercutt. I understand.
    Mr. Williams. As we decide what disciplinary action is 
appropriate, we need to make sure we're following established 
regulations, policies, whatever exists regarding personnel 
actions.
    Mr. Nethercutt. The policy ought to be, if it's unethical, 
unprofessional, bad judgment, and what were the others? Maybe 
that's enough. It seems to me that ought to be----
    Mr. Williams. I need to work obviously with what's there, 
and deal with that.

                         CULVERTS/FISH PASSAGE

    Mr. Nethercutt. That's fine. I appreciate it. As long as 
you're going to pay attention. I just think you've got a great 
agency, and this is a big smear on you that's self-inflicted. 
We heard testimony yesterday at a hearing that U.S. Fish and 
Wildlife Service has big problems with culverts. The ability of 
fish to pass from upstream to downstream and downstream to 
upstream, it's a huge backlog issue. Mr. Dicks raised the issue 
and I pursued it with respect to the question of whether you're 
following, your agency is not legally exposed for not enforcing 
the Endangered Species Act by not doing the culvert work to 
allow safe passage of these fish. I think that's a big problem.
    I just saw a report yesterday by a fellow by the name of 
Howard Shawler, U.S. Fish and Wildlife Service, are you 
familiar with his report on the mortality on fish in dams?
    Mr. Williams. No, sir.
    Mr. Nethercutt. Well, he's out there on a limb making 
statements about the transportation of fish, Snake River dams, 
big issue in the northwest. I urge you to come and see us. He's 
out there with respect to somebody else making judgments about 
this whole issue. I've got a situation, last year in our fiscal 
year 2002 Interior Appropriations Conference Report, your 
agency was obligated to provide information about the presence 
of bull trout in the State of Washington. Before--excuse me, 
you're right, Forest Service and BLM. Forgive me on the 
culverts.
    Mr. Dicks. But they have the enforcement.
    Mr. Nethercutt. I know.
    Mr. Dicks. Through the National Marine Fisheries Service, 
Endangered Species Act.
    Mr. Nethercutt. That's right.

                           BULL TROUT REPORT

    The Fish and Wildlife Service was to provide this 
Committee, the Congress, with a report on bull trout, just 
distribution maps and time lines for completion of such maps, 
by January 31st, 10 weeks overdue. I haven't had it. You're 
coming in and asking for more money for bull trout assistance. 
You want us to put the money in the bank? Where's the report? 
When can we get it?

                         BOX CANYON RELICENSING

    Mr. Nethercutt. Finally, I know I'm abusing my time here, 
we've got a little 60 megawatt dam up in Box Canyon, 
Washington, Pend Oreille County, the poorest county in the 
State. Double digit unemployment, 7,500 residents. A little 
relicensing, literally a small dam, 60 megawatts. Fish and 
Wildlife Service, we calculate, is asking for requirements for 
relicensing with other agencies, including BIA, the total we 
expect, $500 million to relicense a 60 megawatt dam. Your 
agency keeps putting on requirements that cost a tremendous 
amount of money of a county, probably they'll say to heck with 
it. That's going to mean a loss of a big business, a big paper 
company and loss of hundreds of jobs.
    So again, I'm here to tell you, I love your agency, it's a 
fine agency. However, the four or five examples that I've given 
here make me have deep questions. And maybe it's too big a job 
to try to straighten out.
    Mr. Williams. I don't think it's too big a job or I 
wouldn't be here. Honestly.
    Let me just comment on a couple of those items. I want to 
go back to something you said earlier, and not let that pass. I 
say this very respectfully. I disagree with an observation that 
the activities of the two individuals involved in the lynx 
case, and I don't want to put words in your mouth, but I'll put 
it this way, paints the entire Fish and Wildlife Service with a 
broad brush of unethical, well, I say perhaps again, 
unprofessional.
    Mr. Nethercutt. Thank you.
    Mr. Williams. And an agency that does not conduct the best 
research, that does not do the best analysis and come upwith 
the best conclusions with the information that's available. I don't 
accept that. I think the Fish and Wildlife Service, I know the Fish and 
Wildlife Service has a stellar reputation. Have we made mistakes? 
Absolutely. Do we need to be held accountable? Absolutely.
    But I don't think it's fair to use that one example and if 
I'm overextending your remarks, I apologize.
    Mr. Nethercutt. I don't. I think you ought to come to my 
district. You'll hear 200 farmers get up and say, what in the 
world is going on? This is what we suspected, that there's 
something more than science driving this. And it hits us right 
in our pocketbook and our livelihood in a natural resources 
based economy.
    Mr. Williams. And I appreciate that deeply. I spent the 
last seven years working in Kansas where the agriculture 
community is a major part of that economy and a major part of 
the State. And I've heard those same criticisms leveled at my 
agency. I'll tell you the same thing I told them, that we're 
making the best decisions, the best recommendations in some 
cases, that we can with the information that's available. We 
need to be held accountable if those decisions are later proven 
to be inappropriate. That doesn't change at any level of 
government.
    I'll just touch on a couple of things. The bull trout 
report, I apologize for the delay in that. In fact, I signed 
that today and sent it up the chain in Interior. I hope you 
will receive that very shortly.
    Mr. Nethercutt. Shortly meaning?
    Mr. Williams. As soon as I can get it through the 
correspondence control unit there within Interior.
    Mr. Nethercutt. Within two weeks? Is that reasonable?
    Mr. Williams. I don't know if I can commit for the 
Secretary's office. But I will take the message back that you 
deserve it and would like to see it as soon as possible.
    The issue regarding the dam, Deputy Director Jones, I 
understand, has met with some folks there. Again, with your 
permission, maybe he could address your concerns.
    Mr. Jones. Thank you, yes, Mr. Nethercutt. I met with 
representatives from Pend Oreille County yesterday morning. We 
had a very good discussion. They educated me about the 
situation in the county, 11,000 inhabitants, a rural economic 
base, the importance of power to the pulp mill, which is one of 
the major suppliers of jobs for the county. We had a very good 
discussion, Mr. Nethercutt.
    It was my understanding from the county that they have 
concerns about the overall relicensing of the project. Those 
concerns are not primarily with the Fish and Wildlife Service, 
and they were very complimentary of our staff in the field who 
have worked cooperatively with them. They asked that we 
continue that dialogue, which I pledged we would. I have talked 
to Director Williams about that. I have talked to our Regional 
Director Anne Badgeley, who is here in Washington, about the 
importance of her personally ensuring that that dialogue 
continues.
    And then we said that we would also encourage the other 
agencies involved, where apparently the dialogue is not as 
good, to join with us to have that kind of dialogue so that we 
can work together to ensure that our trust resources are 
protected for the benefit of the people in the county in a way 
that also does not adversely impact economic development.
    Mr. Nethercutt. I appreciate that. I appreciate my 
colleagues' indulgence and the Chairman's indulgence in this 
line of questioning. Thank you.
    Mr. Skeen. Mr. Kingston.

                      TOTAL LAND ACQUISITION PLANS

    Mr. Kingston. Thank you, Mr. Chairman.
    Mr. Williams, in terms of expansions and new acquisitions, 
was it 13 last year, the last couple of years? Something like 
that. It doesn't really matter. I think it was in your report I 
saw the number 13.
    My question is a lot broader than that. My concern is that 
every year we hear from Fish and Wildlife, National Parks, BLM, 
that we need X amount of money for more land acquisition. Every 
year I ask the question and never get a satisfactory answer 
from neither Republican nor Democrat administrations, what is 
the end game? How much land do you want? Right now, if we could 
say, hey, whatever you want, take it, what would you do?
    The reason why I say that, it just seems such a narrow 
focus of our Government that every year we come in and because 
it's politically correct we want to buy land and every year 
there's a little controversy, somebody can't get a zoning or 
building or mining permit or grazing permit, so golly, suddenly 
there's a willing seller and we're out there to buy it. It 
doesn't seem to be any real, what is the philosophy? Thirty-
three percent of the land in America is owned by the Federal 
Government, which excludes interstate highways and military 
bases.
    But what is it, should it be 50 percent? Should it be 10 
percent? Are we where we need to be? I know generally speaking, 
agencies rarely give up land. But what is your philosophy on 
that? What can you tell me to make me feel a little better 
about my Government, which I'm a part of, and my fingerprints 
are on the document as well, as a guilty party?
    Mr. Williams. Let me start out with, you asked about my 
philosophy. My personal philosophy, that's been forged by 
working in States where you couldn't get enough of land 
acquisition, and then working most recently in a State where it 
was only 3 percent publicly owned, and that included DOD 
installations and interstate highway systems and so on.
    Based on my last seven years of experience, and again, 
which was sort of night and day from where I've been, I have 
developed a very deep respect for private property rights and 
the concern that some individuals have about the acquisition of 
those private properties and putting those lands into public 
lands. So I come to you with that kind of perspective.
    I also come to you with the perspective of someone that has 
been trained in and worked in natural resource management for 
altogether 22 years. There is no, and this won't make you real 
comfortable, and probably it won't be any different than what 
you heard others say----
    Mr. Kingston. I'll tell you the truth, I didn't come to 
Washington to seek comfort anyhow. I haven't been disappointed, 
either. [Laughter.]
    Mr. Williams. Same here, very much so.
    We do need to balance our land acquisition with leaving 
lands in private hands. I can give you examples in the Flint 
Hills of central Kansas where the stewardship of tall grass 
prairie by private individuals probably could not be surpassed 
by any Federal agency. I've seen that and I appreciate that.
    What we try to do, as part of our mission to conservefish 
and wildlife resources for the benefit of the American public, land 
acquisition is a tool in trying to achieve that mission. We are looking 
for landscapes that provide fish and wildlife values that may be lost 
if we were not to acquire them, and I would hasten to add here, from 
willing sellers.
    It provides benefits for the fish and wildlife that occur 
on those lands and the habitat that occurs on those lands, but 
it also benefits for the American public. Again, coming from a 
State with very little public land, I'm keenly aware of the 
demand for the use of that public land by everyone from hunters 
to anglers to bird watchers to wildlife photographers and so 
on. So there is no set percentage that I would offer to you, or 
no set acreage.
    It depends on the region of the country, it depends on the 
requests, the desires of those folks that live in those 
regions. And that should guide our future efforts and 
acquisition. What it is people are looking for, the values of 
those lands to fish and wildlife and the values of the public 
for outdoor recreation.
    Mr. Kingston. Do you agree, and I hate to ask you yes or 
no, but should we as say, the four major entities of the 
Federal Government agencies that do the land acquisition, land 
ownership, should you have an end game ultimately?
    Mr. Williams. I'd like to answer yes or no, I'm not sure 
what you mean.
    Mr. Kingston. As I said before, a set number, golly, this 
is great, but it seems like there would come a critical point 
where you would say, we just can't afford it any more, we're 
going to have to revisit this through easements, tax credits to 
private property owners, we're going to have to find some way 
to reinvent this.
    And let me tell you what really drives me. I'm from 
Savannah, Georgia. We have the largest area in the National 
Historic Register in the country. The reason why it's been so 
successful is the private sector was in essence deputized into 
historic preservation. Everybody is into it, because there was 
a Federal tax credit for it. I often say, why can't we do the 
same with endangered species or critical habitat and so forth, 
and have it so the farmers in my area, when they get a red 
cockaded woodpecker, would love it rather than, oh, golly, 
there goes my life savings.
    Mr. Williams. I wish we could get to that point. I'm not 
sure right now how we do that. I think we'd all strive for 
that.
    Mr. Kingston. If it would be possible, if you could tell 
me, not now, but if you could send me the land that your 
refuges want to buy in the next one to five years, and kind of 
give an idea of how much money that is, how many acres we're 
talking about, and then what would be your suggestions to look 
at this from a different angle. And I'm just trying to say, 
there might be something out there that we can look in a 
different direction about.

                               BANKS LAKE

    I do want to move on and wrap up with two other issues. On 
Banks Lake, which I have now in my district, Mr. Phillip 
Hoffman came down last week and visited, which we greatly 
appreciate, we appreciate the sensitivity to it, I don't think 
you have had time to get up to speed on it personally, but I 
wanted to bring it on your list. There's a problem about water 
drainage, private property rights and that's one of those 
situations where Fish and Wildlife has a great reputation. We 
have Harris Wildlife Refuge, the Savannah River Wildlife 
Refuge, Okefenokee Swamp in my area. We're very proud, great 
people down there, Skippy Reeves, Jim Burkhardt, all friends of 
mine, they do an excellent job.
    Banks Lake, though, is an institutional problem. I don't 
think it's a management problem. I think there are some legal, 
technical issues that have caused us to throw common sense out 
the door. What we need is just, you know, somebody to cut some 
red tape and get some things done on that. I have an article, 
I'm going to give it to you, that expresses some of the 
frustration of the local population down there. Just some of it 
is petty stuff like they drained the lake, all these fish were 
dying and the locals wanted to get the fish out to eat them, 
Fish and Wildlife wouldn't let them get the fish out. That was 
not a good PR move in the fish fry country of South Georgia.
    Moving on, I just want you to be aware of that. I do think 
Mr. Hoffman is working on it very diligently.
    Mr. Williams. I know enough to be dangerous, and I think 
I'm just going to keep my mouth shut. I don't know all the 
aspects of it, I know that it involves some court orders and 
individuals.
    But our Regional Director, Sam Hamilton, has been recently 
in touch with Mr. Chambliss' office, talking about this. So 
he's really, and Paul Hoffman, as you said, from Interior has 
been down there. Sam is trying to take the lead on that and 
resolve those issues as best he can.
    Mr. Kingston. We give Sam high marks also from past 
dealings.
    Mr. Williams. Thank you.

                             MIDWAY ISLAND

    Mr. Kingston. That area is new to me because of 
reapportionment.
    On another issue, Midway Island, there has been ongoing tug 
of war, Midway Phoenix is leaving May 1st as I understand. We 
put in money last year for new hangars. But there have been 
some management problems. We have the 60th anniversary of the 
battle of Midway coming up. What are the future plans for 
Midway?
    Mr. Williams. Let me try to explain this as best I can. On 
March 6th, the Service and Midway Phoenix Corporation signed a 
no-cost settlement agreement. As part of that settlement, 
Midway will stay on, Midway Phoenix will stay on the island 
under a special use permit until May 8th of this year. They 
will continue to operate and maintain infrastructure, including 
the airfield, until May 1st.
    After May 1st, the Service will take over responsibility 
for the island's $300 million infrastructure, including the 
airfield, power generation plant and substations, water, sewer, 
residences and so on. We are looking at how we make, and are 
working on how we do the transition between when Midway Phoenix 
leaves and hopefully another contractor would come in.
    With respect to the celebration of the 60th anniversary of 
the battle of Midway, Assistant Secretary Craig Manson has 
taken a lead role there to explore ways of providing the 
opportunity for veterans of that battle to actually go to 
Midway if they choose to do so, to commemorate the 60th 
anniversary. So although at this point I can't give you a lot 
of details, but I will tell you that it is front and center on 
our radar screen. We are trying to work through what it is we 
need to do to transition to, I would hope, a new contractor to 
come into the area to operate. If we're unable to do that, plan 
B, if you would, would be to transition into, I guess I'd call 
it a caretaker status of the facilities on Midway Island.
    Mr. Kingston. I certainly thank you, and look forward to 
working with you on Midway, Banks Lake and all the other areas. 
We've had very pleasant experience with the Fish and Wildlife 
people in our area. But there are a lot of problems that I 
think, that cause often the situation we have in Banks Lake to 
go on in other areas. That's not the face, I don't think 
anybody in Fish and Wildlife wants to have in the public.
    Mr. Williams. No, sir. And strive as we do for continuous 
improvement, and we will strive for continuous improvement, 
human nature being what it is and humans being what we are, we 
all have, myself included, many opportunities to mess things up 
on occasion. We will work as hard as we can not to have that 
happen a lot.
    Mr. Kingston. Thank you. Thank you, Mr. Chairman.
    Mr. Skeen. Mr. Hinchey.
    Mr. Hinchey. Thank you very much, Mr. Chairman.
    Mr. Williams, nice to see you.
    Mr. Williams. Thank you.

                    NATIONAL WILDLIFE REFUGE SYSTEM

    Mr. Hinchey. I think a philosophical attitude such as the 
one you just expressed is something that's very handy to have 
in a job like yours.
    I wanted to talk a little about the National Wildlife 
Refuge System also. First of all to express my appreciation to 
you for a decision that was made with regard to a small 
grassland National Wildlife Refuge called Shawangunk, which is 
up in New York. The scientists with the agency, after a long 
study, finally concluded that competing interests would be 
incompatible with maintaining the integrity of that particular 
refuge. I think just watching it from the outside, I think the 
process was handled very, very well and that you reached the 
right conclusion.
    So I just wanted to express my opinion to you for the work 
that your people did and the approach they took to it, all of 
which was very well received by the people in the community as 
well.
    Mr. Williams. Thank you.

                    ARCTIC NATIONAL WILDLIFE REFUGE

    Mr. Hinchey. It's the 100th anniversary of the National 
Wildlife Refuge System this year, and it's an opportunity for 
us to look back on all the contributions that have been made to 
things in which we are vitally interested, which is maintaining 
the integrity of wildlife and the diversity of wildlife. I 
think that refuge system has been very important in that 
regard.
    There was a discussion earlier with regard to scientific 
evaluations of issues. I can't help but mention one having to 
do with the Arctic National Wildlife Refuge. It was the end of 
March 29th this year that that report was produced by the 
Interior Department scientists. That report concluded that oil 
development in the Arctic National Wildlife Refuge may pose 
substantial risks to caribou and other wildlife. This was a 
peer reviewed analysis of 12 years of research on wildlife, and 
found that caribou, musk oxen and migratory birds are 
particularly vulnerable to the kinds of disturbances 
development would bring. They found that because there is no 
other quality habitat outside the refuge coastal plain that 
provides a suitable alternative of feeding, breeding and 
rearing their young. I'm sure you're aware of that study.
    It was interesting that one week after the U.S. Geological 
Survey study warned that caribou may be particularly sensitive 
to oil exploration in the Arctic National Wildlife Refuge that 
the agency completed a quick follow-up report suggesting that 
the most likely drilling scenarios under consideration should 
have no impact on the caribou. Trying to reconcile those 
differences from the outside is a little bit difficult. I know 
from my experience that unfortunately, too often, politics 
intervenes in scientific evaluations and conclusions.
    I'm not asking you for any comment on this, frankly, 
certainly you may if you like. But it just seems to me that 
this was a clear example of the perversion of science for 
political ends.
    Mr. Williams. I will venture to offer a comment. The 
report, I would first point out, and I know you're aware, the 
report was authored by the U.S. Geological Survey, not the Fish 
and Wildlife Service. I'll refer to the first report, but 
comment more on the second one.
    The second report, as I best understand it, was an attempt 
to explain that in the coverage of the release of the first 
report that there were a variety of scenarios presented in 
terms of how much drilling would occur, where it would occur, 
the facilities that went along with drilling and so forth. I 
believe that even in the first report, there was reference to 
potential for disturbance, but also reference to the fact that 
if these drilling operations and the arrangement and timing of 
drilling operations were done in an appropriate manner, that 
disturbance would be, I don't want to say insignificant, that's 
not the right term, but would be much reduced.
    And the second report tried to point that out, that there 
were a variety of scenarios, and from the time of the study, as 
you mentioned, it started 10 or 12 years ago, until where we 
are today, there have been, I think, advances in technology, 
not advances, but development of a potential plan for drilling 
in the refuge. The 12 year study looked at a whole bunch of 
scenarios, the second study or the second report that came out, 
said here's what we're really thinking, here's what we're 
really talking about in terms of where potential drilling 
activities would take place. And if they were to take place in 
those areas, the authors of the study concluded that effects 
would be minimized by appropriate planning and appropriate use 
of technology and so on.
    That's my take on reading the studies, reading newspaper 
reports, reading the second report.
    [A description of relevant findings in the report and its 
addendum follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Hinchey. I appreciate that. The only thing I would say 
in response to that is that, this was a 12 year study, but it 
was produced on the 29th of March. So it's a study that took 
into consideration a whole array of scenarios, but it is very, 
very up to date when it was published. And it represented the 
point of view of the people who were publishing it at that 
moment, the end of March. Two weeks later we have a different 
point of view that says, in spite of the fact that the original 
report makes the point that these species are particularly 
vulnerable to the kinds of disturbances development would bring 
for a number of reasons, then you have this other report which 
says that well, you know, maybe we can deal with it in ways 
that will not be so significant.
    Mr. Williams. If memory serves me correctly, and often it 
does not, I might add, but if it serves me correctly, the first 
report also had made statements relative to reducing impact, 
minimizing impact by the appropriate siting of drilling 
platforms and appropriate siting of roads that would service 
those platforms, and also the timing of that. Even the first 
report said under certain scenarios there may be impact, under 
other scenarios that are done in the most environmentally 
sensitive way, those impacts would be minimized.
    Mr. Hinchey. Right. I'm sure that there may be some words 
like that in the report, but I'm quoting to you from the 
report.
    Mr. Williams. I understand.
    Mr. Hinchey. Where it says, ``may pose substantial risks to 
caribou and other wildlife.'' It says specifically that 
particularly vulnerable to the kinds of disturbances 
development would bring to caribou, musk ox and migratory 
birds. So the report is very, very clear, the initial report. 
It was made a little fuzzier by the addendum which somebody 
found necessary to put out shortly thereafter.
    In any case, with regard to the current situation, the 
refuge system is up for an increase in funding, or at least 
you're recommending an increase in funding, 18 percent, $56 
million. And that for all of us who appreciate the value of 
these systems, that is very, very welcome and very much 
appreciated.
    But our job is here to find fault, not to praise so much. 
[Laughter.]
    Mr. Williams. I'd be more than happy to help you break with 
that tradition right here, today.

                        LAND ACQUISITION BACKLOG

    Mr. Hinchey. So I don't want to put too much praise on you, 
and just make the observation that nearly half the funding of 
this increase is being diverted from the land acquisition 
account. And although this Committee is rich in diversity of 
opinion with regard to land acquisition particularly, I happen 
to believe that it's a good thing. I note that according to the 
Conservation Fund, that the Fish and Wildlife Service has a 
backlog of needed acquisitions that total more than $3 billion.
    So we know there's a lot of valuable habitat out there, and 
a substantial backlog that has been observed, at least by the 
Conservation Fund to exist. So I'm just wondering if that is 
the proper way to do this. The increase is certainly welcome, 
and I congratulate you for asking for it. But isn't there some 
other way we can get it without tapping into the land 
acquisition fund?
    Mr. Williams. Well, thank you. Just to add something to the 
Conservation Fund statement, the $3 billion is a figure that is 
derived from, and it's our figure, but derived from the 
estimate of what it would cost to acquire all the lands within 
the boundaries that have been laid out for each refuge, which 
really kind of defines potential areas for future acquisition. 
They may or may not ever be acquired.
    So that kind of puts that in context.
    Mr. Hinchey. That money would be necessary just to fill out 
the existing refuge system?
    Mr. Williams. That money would be used to purchase, to 
acquire lands within lines drawn on maps, within boundaries 
that local refuge managers have defined as areas that would 
be----
    Mr. Hinchey. Essential to meeting the requirements of----
    Mr. Williams. Well, in their view, important in meeting the 
requirements of that particular refuge. We may or may not ever 
get there. But it's a planning tool.
    To try to address your comment of taking money away from 
acquisition for deferred maintenance, I think that was one of 
your questions, even though I wasn't involved in the 
development of this budget, it tracks my past philosophy in 
other States, in that we need to have the opportunity and the 
resources to acquire critical lands, but we also need to take 
care of the things we have, those lands that we have now. So 
I'm encouraged that we're continuing an effort to acquire 
lands, but also stepping up and addressing problems that exist 
on lands that we currently own.
    I would just, and I hesitate to do this, but I'm just 
looking at a note here, which I could read to you and it 
wouldn't mean anything to you, but----
    [Laughter.]
    Mr. Williams. If I could have Steve Guertin, our Chief of 
Budget, explain a little bit further about the funding levels.
    Mr. Guertin. Thank you. Just to clarify two other points as 
well, the Land and Water Conservation Fund for the Service is 
funded at basically historic levels this year in the request. 
Secondly, we also can count on the Duck Stamp program, the 
permanent appropriations of about $42 million as well. So when 
you couple those two together, we have over a $100 million 
package of funding for land acquisition in total, sir.
    Mr. Hinchey. Well, that's good, but if you have a backlog 
of $3 billion, that's not going to make much of a dent. The $3 
billion, we've learned this morning, is to just identify land 
that has been identified by the people within the system who 
recognize that the acquisition of that land is valuable to 
meeting the requirements of these refuges.
    So that's good. But my observation is that it's unfortunate 
that we have these two very worthwhile purposes in contention 
with each other. I was just, I think in looking at the budget, 
we ought to try to make some changes there that would avoid 
that kind of contention.
    But I thank you, I respect what you're trying to do. I 
think given the circumstances you're working under, I think 
you're trying to do the best thing you can.
    Mr. Williams. Thank you very much. I appreciate that.
    Mr. Skeen. Mr. Dicks.

                         STATE WILDLIFE GRANTS

    Mr. Dicks. Thank you, Mr. Chairman.
    Dr. Williams, do you believe the State Wildlife Grant 
program is an effective tool to aid wildlife conservation and 
recovery efforts?
    Mr. Williams. Yes, sir.
    Mr. Dicks. Why did you cut it by $25 million?
    Mr. Williams. That, well, again----
    Mr. Dicks. You say it's because Congress rescinded. I mean, 
come on. We had to do it as a budgetary matter, that was----
    Mr. Williams. I'm going to refer that to Steve.
    Mr. Dicks. Yes, that's a good one to give to Steve. 
[Laughter.]
    Mr. Williams. And that's why I'm doing it.
    Mr. Guertin. I might actually turn that one to the esteemed 
Director of Budget for the Department, John Trezise--no, just 
kidding. [Laughter.]
    Mr. Williams. If I had known John was back there, it would 
have been a lot easier.
    Mr. Trezise. Thank you, Director Williams.
    Mr. Dicks, the formulation of the budget every year starts, 
as you know, with the enacted level and the Interior support 
table. Then when the Office of Management and Budget looked at 
the Interior support table, it reflected a $60 million State 
Wildlife Grant program. That's the starting point that they use 
for their formulation decisions.
    It is an important program, and in balancing all of the 
needs that the Department faces we would have liked to increase 
that program above the----
    Mr. Dicks. You would have liked to keep it at least at last 
year's level?
    Mr. Trezise. Yes, but there were a number of competing 
considerations.
    Mr. Dicks. Understand. Let's not waste a lot of time, 
because we haven't got a lot of time here.
    One of the things that I tried to do in this program was to 
put in some language that said that the States had to do 
planning if they wanted to compete for these grants on a wide 
array of wildlife, not just game, but to look at their 
conservation requirements and to develop a plan to say, here's 
what we're going to do for conservation of our endangered 
species and our other problem areas in the State. Do you have 
any problem with that?
    Mr. Williams. That's a great question, because I'm seeing 
from both sides now. I don't have any problem with the concept. 
It depends, the devil is always in the details of what that 
plan must include and who would be responsible for ultimate 
approval of that plan. Let me expand on that. If we're talking 
about resident species, not under the authority and 
jurisdiction of the Fish and Wildlife Service, as a State 
director, I saw the arm of Federal Government from Washington 
come out and question how we were managing resident species. I 
and many others would have philosophical concerns with that.
    So should States have some kind of plan in place that 
assures that these monies are spent efficiently and effectively 
to benefit fish and wildlife conservation? I think they should. 
The details, the components of the plan and who ultimately 
approve those plans for any individual State, I think that's 
something that would merit further discussion.
    Mr. Dicks. But, the law is in place, and I think you are 
enforcing it, is that not true?
    Mr. Williams. Yes, and I think where we are right now----
    Mr. Dicks. Because they do have to have a plan and they do 
have to discuss a wide array of wildlife, not just game.
    Mr. Williams. That's right. Where we are now, States are 
comfortable with that.
    Mr. Dicks. And the States are coming in with it. So I think 
we should stay with that. And it's Federal money. The Federal 
Government has every right to put conditions on money that it's 
going to give to the States. A lot of people wonder why we're 
doing this in the first place. Members of this Committee 
question whether we should be giving money back to the States 
for this purpose at all.
    Now, we have the Endangered Species Act responsibility. 
Your agency has it. We've got to emphasize conservation. So it 
seems to me that we have to stay with this and make sure, and 
then the States will get the money, they can use it the way 
they want to, but they have a plan on record that forces them, 
in my mind, to at least address the subject matter.
    Mr. Williams. I agree.
    Mr. Dicks. I think a lot of the most enlightened 
environmental groups in the country feel this is crucially 
important if you're going to maintain biodiversity, you're 
going to maintain these species. I just hope we can stay with 
that.
    Mr. Williams. I agree with that, and if I can just add 
something quickly, if we're dealing with only threatened and 
endangered species, federally listed species, it even makes 
more sense, when money is provided to States, that a plan be 
one that receives some Federal oversight. When you talk about a 
broad array, I thought you meant covering all species, whether 
they're threatened or imperiled or endangered or what have you. 
That was where I was directing my comments about State concern: 
those species that are not federally listed or there's no 
Federal nexus, I should say, that's where States said, we're 
happy to put these plans, most States have these plans anyway, 
it's just, where does the State-Federal authorities lie.
    Mr. Dicks. Do you think this money should be done by 
competitive grant, or should it be done by just an allocation 
to the States?
    Mr. Williams. Given the various grants that are out there, 
the allocation makes sense to me, to give all States an 
opportunity to, after developing plans, to try to put those 
plans in place. Because these issues occur, as you well know, 
in every State in the country.
    Mr. Dicks. Right. What is the status of the fiscal year 
2001 wildlife competitive grants funds--we had a competitive 
grant fund at first--that you announced many years ago but 
which have been tied up in the courts? Marshall's responsible.
    Mr. Williams. Let's let Marshall answer that one, I agree 
with you, sir. [Laughter.]
    Mr. Jones. Well, Mr. Dicks, we did our best.
    Mr. Dicks. It wasn't quite good enough.
    Mr. Jones. But we do have an unfortunate situation now. As 
you know, after discussions with you and with Mr. Skeen, we had 
the $25 million. What we decided was that we would allocate $15 
million of that to States which had already applied and that we 
would hold the other $10 million for States which had not 
applied for grants, States which arguedthat they were waiting 
for us to publish final guidance before they submitted their proposals.
    We announced the allocation of those $15 million to five 
States, but then another State filed suit and got an 
injunction, which has prohibited us from distributing any of 
the funds. So right now we are gridlocked in court, not 
something that we sought, and certainly not something which 
benefits wildlife. But we understand that there are States on 
each side of the issue and there may have been some discussion 
among those States, but they haven't achieved any resolution. 
In the meantime, the Government has filed briefs in that case, 
and we'll wait to see what the judge does.

                         FISH HATCHERY REFORMS

    Mr. Dicks. Switching out to the Pacific Northwest, right 
across that river, actually Oregon is involved here too, the 
budget documents refer repeatedly to the process of carrying 
out critical reforms in fish hatchery programs. Can you update 
the Committee on this process, what you're talking about here, 
or have one of your lieutenants discuss it?
    Mr. Williams. Yes, we can. And I'd like to ask Bill Knapp 
to address that, please.
    Mr. Knapp. Thank you, sir.
    We are working in several ways to examine our hatcheries 
system and reform the way it operates, its business practices, 
its application of science, its relationship to its partners.
    One of the forums that we're involved with is a year long 
process of working with our partners and stakeholders in a 
collaborative strategic planning process, where we are bouncing 
issues off of each other, sharing solutions, looking at the 
hatchery system and asking, what does it do well, what could it 
do better, how could we make it do things better.
    You may be aware that the stakeholders and partners 
recently issued a draft report which is their perspectives on 
those questions. We are folding that report into a document 
that we are developing which we hope will be available later 
this summer.
    We've also established eight work groups, each one run by a 
member of our directorate, led by a member of our directorate, 
looking at eight major categories of issues, again, that fall 
under good business practices, good governance, good science.
    Mr. Dicks. Where is it being done?
    Mr. Knapp. It is being done throughout the country in the 
sense that we are working with State fish and wildlife leaders, 
we are working with the international association, we are 
working with NGOs, organizations like that. The work groups 
that have been meeting and convening that are internal have 
been meeting throughout the country as well, regionally, 
nationally. It is a very dynamic and extremely demanding 
process.
    We hope to reflect the reforms in a strategic plan that 
we're working on now, the first component of which should be 
ready the end of this summer.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Skeen. Thank you very much. We're adjourned.
    [Additional questions for the record follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                         Thursday, March 7, 2002.  

                         U.S. GEOLOGICAL SURVEY

                               WITNESSES

CHARLES G. GROAT, DIRECTOR
MICHAEL A. KELLEY, BUDGET OFFICER
JOHN D. TREZISE, DIRECTOR OF BUDGET, DEPARTMENT OF THE INTERIOR

                   Opening Remarks of Chairman Skeen

    Mr. Skeen. Let me welcome the USGS Director, Dr. Charles 
Groat, who will discuss the Survey's 2003 budget request. For 
fiscal years 2002, 2003, the budget request for the Survey has 
included proposals to significantly reduce and in some cases 
eliminate entire science programs. In many cases, there is 
broad-based bipartisan Congressional support for these same 
programs, and I think I speak for the entire Subcommittee when 
I say we are concerned over these science programs and the 
impact these reductions would have on the Nation's natural 
resources.
    We want to welcome you here this morning. Let's get down to 
some work with this thing. Mr. Dicks?

                      Opening Remarks of Mr. Dicks

    Mr. Dicks. Thank you, Mr. Chairman.
    I want to echo the Chairman's comments here. I am extremely 
disappointed to see this year's budget proposal submitted by 
the Administration. A year ago, the new Administration 
requested $813 million for USGS for fiscal year 2002, a $69 
million reduction that included big cuts in the water resources 
program, cooperative mapping program and biological research 
programs. The Congress wisely rejected these proposals, and 
under the leadership of Chairman Skeen, provided a $31 million 
increase for the USGS rather than a cut.
    Now, I want to caution you, we don't want to have you lose 
your job. [Laughter.]
    Mr. Groat. You read the paper this morning.

                       PROPOSED BUDGET REDUCTIONS

    Mr. Dicks. So make sure you say you support the 
Administration's budget, but then we'll move on.
    Here it is, a year ago, and we are in exactly the same 
place, looking at a budget that cuts the same programs. This is 
in spite of the fact that USGS programs have widespread support 
from other Federal and State resource management agencies, 
academic institutions, and the members of this Subcommittee. 
The National Research Council has issued report after report in 
support of USGS programs and has even called for funding 
increases.
    I am deeply concerned about this disconnect, the 
Administration's apparent disregard for the Subcommittee's 
judgment and these repeated attempts to disrupt a successful 
Federal program. Let me read off some of what was provided to 
us from your own budget office to highlight the 2003 budget 
changes. National water-quality assessment program, $5.8 
million reduction. National cooperative geologic mapping, $6 
million reduction. Streamgauging activities, $2.1 million 
reduction. Water Resources Research Institutes, $6 million 
reduction.
    Fire science, $2.8 million reduction. Mineral resources, 
$1.3 million reduction. National Mapping improved Internet 
access, $1 million reduction. High speed performance and 
computing, $3 million reduction. Urban dynamics, $800,000 
reduction. Volcano hazards, if anything we should be studying, 
$1 million reduction. Minerals information, $750,000 reduction. 
And it just goes on and on and on. And I'll just put those in 
the record.
    Mr. Dicks. I must admit that I am somewhat confused as to 
how the Administration decided to submit a budget at these 
levels. I look forward to hearing the testimony of Director 
Groat, who has been at USGS since 1998 and should be very well 
versed on each of these programs and what these budget levels 
would mean to the work of the Survey.
    So we welcome you here for your testimony, but I must say, 
we're disappointed in the budget that the Administration has 
submitted. Thank you, Mr. Chairman.
    Mr. Skeen. Dr. Groat, if you would summarize your 
statement, your full statement will be made part of the record.

                     Opening Statement of Dr. Groat

    Dr. Groat. I'll do that, Mr. Skeen, thank you very much.
    Mr. Skeen. We're glad to have you here this morning.
    Dr. Groat. Well, this is certainly important business for 
us, as it is for you. Mr. Dicks, I appreciate your comments. I 
will submit my testimony for the record, and I want to say that 
I have with me this morning Ike Kelley, who's our budget 
officer, and behind me, our Associate and Regional Directors, 
who are the subject matter experts on some of these things.
    I do recognize the seriousness of the cuts, Mr. Dicks and 
Mr. Skeen, and I recognize the challenge of being positive 
about a budget that has cuts in it. But I would like to take a 
few minutes to talk to you aboutsome of the positive things 
that have happened as a result of the Administration's actions and your 
support for us in the past.

                        SEPTEMBER 11TH RESPONSE

    One of the things I want to highlight is something that's 
probably been less publicized than most things about the USGS, 
and that's our response to the tragic events of 9/11. Our 
organization, through our EROS Data Center, and through our 
mapping facilities and geology and water as well, has provided 
a lot of support to the Administration and to the country in 
response to the Twin Trade Towers crisis, and in the 
preparedness the country is undertaking for future terrorist 
attacks.
    We distributed over 100,000 maps to local response groups 
and emergency responders in the Trade Center incident, and 
we're participating in the homeland defense program through the 
120 cities program. We are also working hard through our 
National Map Program to update the Nation's topographic mapping 
system, which is the only continuous and uniform set of maps 
across the country, which are going to be increasingly 
important in homeland security developments.
    We have pilot programs right now in our National Map 
Program in Delaware, Florida, Missouri, Pennsylvania, Texas, 
Utah, Washington, and Idaho. This is an important part of our 
role, in the present and in the future.

                        EARTHQUAKE PREPAREDNESS

    There are some core mission programs of the U.S. Geological 
Survey that are supported in this budget, and we're very 
pleased to see that. You're right, Mr. Dicks, most of the funds 
that were added by the Congress this past year have been 
eliminated from our budget. But some of the funds that have 
been added in recent years have been retained. We're very 
pleased that, in the hazards area, the 2002 funding increase 
for the Advanced National Seismic System has been maintained, 
particularly in your area and many areas of the West and 
Midwest. Earthquake preparedness is an extremely important 
topic. We have been able to improve that program through the 
additions that have been made.
    We do, in the long run though, have an overwhelming 
challenge of funding our earthquake preparedness program, the 
Advanced National Seismic System, at the levels at which it has 
been authorized. That is a challenge not just for this 
Administration, but for any administration, and for any 
appropriations committee.

                    ENERGY RELATED BUDGET INCREASES

    We are also heavily involved with some increased spending 
authority in our new budget for the Administration's and the 
President's National Energy Policy. We are going to be spending 
an additional $2.7 million to support the National Energy 
Policy, and specifically the Energy Act of 2000. We will be 
conducting estimates of undiscovered oil and gas resources in 
the West. During 2002, we have some funds from the Bureau of 
Land Management to estimate volumes of oil and gas beneath the 
five study areas in the Rocky Mountains. In 2003, the increase 
that the Administration is proposing will allow us to work 
beyond those areas.

                    ALASKA DIGITAL MAPPING INCREASE

    It also includes a million dollars for digital base maps in 
Alaska, particularly the National Petroleum Reserve, where 
increased development is planned, and where our maps will be 
the basis for roads and other infrastructure creation there.

                          GEOTHERMAL INCREASE

    There is also half a million dollars of additional funding 
identified to support renewable energy resources. Both of you 
gentlemen being from the West appreciate the value of 
geothermal resources. We have a small amount, half a million 
dollars, that will allow us to update some of the work we did 
in the 1970s on geothermal resources and focus this initial 
year on cooperative work in the Great Basin region of the West.

                     ENVIRONMENTAL HEALTH INCREASE

    We also have a million dollars to initiate a new program in 
the U.S.-Mexico border region. I think, Mr. Skeen, that you 
certainly appreciate the challenges that there are in that area 
from inadequate water resources along the Rio Grande, the 
issues related to environmental health that plague large 
numbers of people who make their living and live along the 
border. We have a cooperative relationship with the National 
Institute of Environmental Health Sciences, where the 
environmental information that we have been gathering through 
our core programs over the years--geochemistry, water 
information, rocks--allows us to make a series of maps that 
relate environmental stresses to environmental health issues. 
Clearly, adequate supplies of good water are a key part of 
health on the border. We plan to emphasize the ground-water 
aspects of that as well. So we will produce maps and documents 
that will be useful to local areas and to the National 
Institute of Environmental Health Sciences in understanding 
health challenges in the area.

                        COASTAL GEOLOGY FUNDING

    Another area where we have maintained funding in this 
budget that was put in at the request of the Administration and 
supported strongly by the Congress is in the coastal area. I 
don't think there is any part of this country's geography that 
is experiencing more growth pressures than coastal areas. 
People are moving into them for their scenic beauty and their 
recreational and economic value. As you all know, coastal areas 
pose some significant threats in terms of natural hazards. 
There are difficulties with water supplies, with aggregate 
materials, with many resources there.
    So we are maintaining that program, and we've had a very 
successful pilot program in the Tampa Bay area where we have an 
interagency, interdisciplinary program that is meshing our 
science with the needs of decision makers in the area to 
provide a pilot that we hope will be mirrored around the 
country as the coastal program grows. With the Ocean Commission 
working this year and due to complete its work next year, we 
hope that we will have an opportunity to work with them in 
developing our coastal program to meet the country's need.

              BIOLOGICAL RESEARCH AND INFORMATION FUNDING

    Finally, we've also had an increase, that has been 
maintained, that came from 2001 and 2002, an extremely 
important area for us. That's in the biological research 
centers that support the Fish and Wildlife Service. The $3.4 
million that was put in in 2001 allows us to extend our science 
support in a more direct way to the Fish and Wildlife Service, 
and we have plans to increase our interaction with other 
Department of the Interior bureaus in that way.
    The biological Gap Analysis Program and the NBII program 
that were increased have been continued and supported. We feel 
those are on the frontiers of where we want to be going in the 
future.

                     GROUND-WATER RESOURCES FUNDING

    The budget also provides increases in an area that links to 
what I described for the border, and that is ground-water 
resources. The Congress asked us to deal with the question of 
ground-water resources and their viability. They are the most 
under-appreciated, misunderstood part of this Nation's water 
resources, and we have some unique capabilities to help 
understand thosebetter, particularly working in cooperation 
with States and universities. So the funding that you provided in the 
past to allow that program to get started has been maintained and is 
extremely important, I think, to the whole country.

                           PROGRAM DECREASES

    Let me close with a few comments about the reduction. 
Certainly we have some significant reductions in our budget, as 
you indicated. I would put a note of optimism to that in the 
sense that, if you remember last year, we were in twice as 
difficult a shape as we are this year. I think the intent of 
the Congress did have some influence.
    Mr. Skeen. Time heals all.
    Dr. Groat. Time can heal some things and can make some 
things better. We think the fact that our cut has been reduced 
significantly this year is due to your influence and the 
influence of better understanding of our programs. So, despite 
the fact that we have a significant reduction in our NAWQA 
program, the intent of trying to fund that program in some 
other way indicates that it's not a criticism of the program 
itself, but is rather a question of budget priorities. The 
Department and the Administration had to make some very 
difficult choices among good programs in carrying out the 
fiscal policy that we are supporting. And in this case, while 
we lose direct support for it, which we of course don't 
welcome, on the other hand, we are given the opportunity to get 
other sources.

                       TOXICS PROGRAM REDUCTIONS

    The toxics program that you mentioned, Mr. Dicks, is a $14 
million program that has an interesting twist to it in that the 
budget proposes to eliminate $4 million and transfer $10 
million to the National Science Foundation for that program. 
That reflects similar actions taken in other parts of the 
Government. In our case, the toxics program is not a grant-
driven program. It supports laboratories; it supports long term 
field tests. It supports a determined pursuit of toxics in the 
environment and their fate and effect.
    So, while the National Science Foundation is a wonderful 
organization that has high scientific credibility, we do have 
some concerns about whether the program as we carried it out 
would be carried out in the same way there. We're having 
discussions for our transition period for that program with 
NSF.

           ELIMINATION OF WATER RESOURCES RESEARCH INSTITUTES

    We also, as you indicated, will lose support for the Water 
Resources Research Institutes. That partnership has been a good 
one for us, and we have benefitted from that. That was a 
difficult choice that had to be made to do that.
    So let me close by saying that, despite the fact that we 
have some cuts in programs that are valued by the Congress and 
by others, we have some strong support from the Administration 
for some of the programs that you also value. We're maintaining 
many activities. We have some opportunities for some new starts 
in areas of core capability for us, as I mentioned, in energy 
and water in this budget that does represent growth of those 
programs. So, we will continue under any budget circumstances 
to do the best that we can to remain strong, dynamic, and ready 
to meet the needs of the Nation.
    With that I will close and respond to any questions that 
you might have.
    [The written statement of Dr. Groat follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                      EFFECT OF BUDGET REDUCTIONS

    Mr. Skeen. Last year, this Subcommittee went to great 
lengths to restore unjustified cuts in the Survey's budget, 
indicating Congress' support for these programs. But once 
again, you are proposing to cut or eliminate many of the same 
programs.
    What activities would be lost as a result of these budget 
cuts?
    Dr. Groat. Of the general budget cuts, Mr. Skeen?
    Mr. Skeen. Yes.
    Dr. Groat. I think the most significant activities that 
would be lost, totally lost, are in the area of our toxics 
program. Because that is a program that would be totally 
eliminated.
    The NAWQA program, which provides baseline and long-term 
understanding of pollutants and watersheds across the country 
on a selected basis, would lose about six study units. So we 
would lose those units totally, from the program, but we would 
maintain 36 units.
    So most of the cuts would not eliminate programs totally, 
with the exception of the toxics program, but they would reduce 
our activity in those areas in several cases.
    Mr. Skeen. The water situation in those States, I'd like to 
tell the folks around the country, we've got 12 year-old kids 
who have never seen a rain storm. So we appreciate the work 
that you have put together to take good care of this.
    Dr. Groat. I think one of the things that you recognized in 
your comment about kids never seeing rain is the fact that 
water quality, and most importantly, water quantity, is 
incredibly important----
    Mr. Skeen. They go hand in hand.

                   REPORT ON FRESH WATER AVAILABILITY

    Dr. Groat. They go hand in hand. This Subcommittee asked us 
to recommend to you what needed to be done to understand better 
the availability of fresh water in this country, and we are in 
the process of finalizing a report to you on that. We are also 
working with the Senate on a bill that would identify us as a 
player in assessing the availability of fresh water resources 
in the country.
    So we recognize that water issues are preeminent to the 
well-being of this country and the world and hope to continue a 
strong role in understanding both the quality and quantity of 
those resources.

                      ENVIRONMENT AND HUMAN HEALTH

    Mr. Skeen. I notice that the President's budget proposes a 
new program to address the environment and human health and 
groundwater resources along the U.S. and Mexico border. That's 
what we are alluding to. Why is this such a priority, and what 
is the nature of problems?
    Dr. Groat. Mr. Skeen, I think that program embodies for us, 
and hopefully for the people that we work with, all the 
qualities we'd like to see in programs where there are 
opportunities for growth for the USGS and its partners.Ground 
water is a significant resource in the area. There are partners there 
in the State water resources research institutes and in the State 
geological surveys and water organizations that can come together with 
us as a science organization to better understand the distribution of 
those resources.
    It is also an opportunity to apply the environmental 
information that we have been gathering as part of our major 
programs over the years to an area of great concern to all 
Americans, and that is their health. So it represents the 
application of core U.S. Geological Survey biology, waters 
geology, and mapping capabilities to a very critical problem.
    So it is a good program from a science point of view; it is 
a good program from a critical resource point of view. And most 
importantly, in our future, it is a good program in a 
partnership point of view. More and more of the work we do is 
going to be done with State and university partners. This 
program has all those elements. So I think it is a good one, 
and I hope that we are able to grow it.
    Mr. Skeen. I'm right with you on that particular point, 
because we anticipate the bringing of the extra piece of 
universities and water resources institutes from the region 
into the particular studies.
    Dr. Groat. In this year, Mr. Skeen, our intent is to focus 
on an area that we both know well, and that is the southern New 
Mexico-El Paso areas where both ground-water and health issues 
are very preeminent. We have good cooperation, especially with 
the water resources research institutes in New Mexico and Texas 
on that, as well as the State agencies.
    Mr. Skeen. We'd like to work with you on that.
    Dr. Groat. Very much so.
    Mr. Skeen. Mr. Dicks.

                        TOXICS PROGRAM TRANSFER

    Mr. Dicks. Thank you. I appreciate your efforts to explain 
the budget, and we realize that some of these things happen 
downtown at OMB. You are proposing, as you said, to transfer 
the Toxic Substances Hydrology Program to the National Science 
Foundation. The toxics program has done important work in the 
past, including looking at mercury in the Everglades and 
finding new, efficient ways to clean up contaminated 
groundwater.
    In fact, the USGS authors whose papers were listed among 
the most cited in the Environmental Science and Technology 
Journal, are from your toxics program. Have you been assured 
that the NSF will continue these programs? Can you comment on 
the specifics of the transfer in terms of the effects on USGS 
staff and any shifts in the focus of the program?
    Dr. Groat. Yes, sir, I can. First of all, I am pleased that 
you recognize the value of that program, and the fact that the 
toxics program deals not only with toxic materials in the 
environment with long term field sites and with our laboratory 
work, but also is a key part of some other programs in the USGS 
that are important. The toxics program supports Everglades, 
clearly, and the mercury work there. It is also an important 
part of the California Bay Delta program, and an important part 
of the amphibian program in trying to deal with the 
environmental factors related to those serious concerns.
    The concern that we would have in the sense of a transfer 
to the National Science Foundation is not that they would not 
support quality science. They do that, and they do that very 
well. But the very nature of the toxics programs being an 
integral part of the USGS effort, not only with the toxics 
themselves but with other programs that depend on that 
expertise, is that there is no guarantee or identified way----
    Mr. Dicks. That it would be sustained in the future.
    Dr. Groat [continuing]. That it would be sustained in the 
future through an NSF driven program. So while we are really 
encouraged that the Administration is not proposing elimination 
of the program as such, but rather is proposing a transfer, we 
are concerned about the impacts that that will have on what the 
toxics program within the USGS is intended to do.
    Mr. Dicks. Remind me, what was the number last year for the 
toxics?
    Dr. Groat. It's a $14 million program, Mr. Dicks. The 
budget proposes to transfer $10 million and eliminate $4 
million, adding up to the $14 million.
    Mr. Dicks. Okay, so it is completely done away with. So 
this is one where the Committee is going to have make a 
decision on whether we agree with that or not.
    Dr. Groat. We have been having discussions with the 
National Science Foundation about a 3-year transition period, 
which would allow impacts on our programs to be reduced, as 
well as the opportunity to successfully conclude some 
activities. So it is not an immediate cut, totally, but it is a 
phased cut.

                   EVERGLADES RESTORATION INITIATIVE

    Mr. Dicks. Who would provide the science for the 
Department's initiatives like the Everglades Restoration 
initiative?
    Dr. Groat. Some of the science that we do in those programs 
is not related to the toxics program. But frankly, with respect 
to the mercury work that you referred to and other toxics 
related contributions, we would no longer have the capability, 
because the staff that did them would not be there.
    Mr. Dicks. So this would undermine the Administration's 
Everglades--I shouldn't say undermine. This certainly wouldn't 
help----
    [Laughter.]
    Mr. Dicks [continuing]. The Administration's efforts in the 
Everglades, if all of a sudden they lost one of their 
scientific experts who was giving advice on how to deal with 
this important issue. Is that not a possibility?
    Dr. Groat. The USGS contributes to the Everglades program 
in a very broad way. That support would be maintained. However, 
the component of it, which particularly in the Everglades 
relates to mercury and some of the effects mercury has on 
critical ecosystems there, would be lost. It would definitely 
be a negative.

               NATIONAL WATER QUALITY ASSESSMENT PROGRAM

    Mr. Dicks. The National Water-Quality Assessment was 
praised by the NRC as a program of exemplary quality and 
importance. Yet your request is for a decrease of $5.8 million. 
How will this affect the program? What is the total number 
again for the National Water-Quality Assessment?
    Dr. Groat. It's a $64 million program. This reduction would 
eliminate 6 of the 42 study units that are supported by that 
$64 million. So it would not wipe out the program, but it would 
cause us to make some difficult choices as to which basins that 
are part of that program would no longer be continued in the 
study. And I appreciate the fact that it has been reviewed and 
it has received good marks for its scientific quality. We think 
that the quality of all of our programs, as they have been 
reviewed by NRC, have been judged to be good. We take that as a 
plus.
    So this budget reduction is not picking on any particular 
program from a quality point of view, clearly. It is part of a 
difficult decision process that relates to our water activities 
in general.
    Mr. Dicks. The current 42 study units are far below the 
proposed program, isn't that right, or the original program 
design?
    Dr. Groat. Yes. The NAWQA program has been around for a 
while. It has gone through two or three generations of suites 
of units that have been studied. The 42 is less than we had 
originally on the books. So the program has dwindled in size, 
due to the fact that funding has not increased for that 
program. This would be a further reduction in the scope of the 
program.

                   STREAMGAGING AND FLOOD PREDICTION

    Mr. Dicks. Flood prediction has become critically important 
to protecting the lives of U.S. citizens. On average, U.S. 
flooding kills more people each year than any other single 
weather hazard, including tornadoes and hurricanes. The 
Administration has acknowledged this by including an increase 
of $4.5 million in the National Weather Service budget for the 
Advanced Hydrologic Prediction Service, to improve river 
forecasts and water resource management.
    However, these forecasts rely on data from USGS stream 
gaging network. Can you explain to me why there is a $2.1 
million decrease for this streamgage network?
    Dr. Groat. Mr. Dicks, I think the reduction in the 
streamgage network was part of the overall reduction that came 
about as removing things that the Congress added money to. 
You're clearly right, not always appreciated is the fact that 
much of the Weather Service's flood forecasting capability 
comes from use of data from our streamgage network. Reducing 
that network by approximately 135 gages across the country 
would certainly have some impact on that. It would not totally 
reduce the Weather Service's capability, but it would limit it.
    Mr. Dicks. Well, thank you, Mr. Chairman. I have further 
questions, but I know there are other members who want to ask 
theirs at this point.
    Mr. Skeen. Thank you. Mr. Nethercutt.

                    RATIONALE FOR BUDGET REDUCTIONS

    Mr. Nethercutt. Thank you, Mr. Chairman.
    Welcome, gentlemen. It is troubling, really, to see the 
budget reductions. I know you have to make difficult choices, 
but with respect to water quality and flood control and fire 
suppression and fire control. It seems to me, it may not be 
far-sighted to make these reductions. I know in my part of the 
State of Washington, we had some very, very serious floods four 
or five years ago. Little communities just got flooded out. And 
the whole issue of streamgaging was critically important.
    As a result of those floods, and others around the country, 
I think there was a move to increase the number of streamgages 
to give predictability to the downstream communities who could 
at least prepare, have a little better warning as to when the 
water is coming in high water areas. So what is the 
justification, other than trying to make the size 13 foot fit 
into a size 12 shoe? Is there any rationality to it?
    Dr. Groat. Let me just start with the comment about the 
program. You are absolutely right. In response to the Congress' 
request that we provide a recommended program for streamgaging 
for the Nation, the National Stream Flow Information Program, 
we have identified the need for additional gages in areas that 
need to be supported with Federal funds, so that we don't lose 
them when we have cooperator challenges. The challenges to the 
streamgaging program come in two forms right now. First is the 
fact that we are having to reduce the number that we support 
through this budget action. But maybe more significant in the 
immediate near term is the fact that the States, with their 
difficult budget situations across the country, are having 
difficulty coming up with the cooperative funds that they 
provide for streamgages. As you know, many if not most of these 
gages are supported through our cooperative program, which is a 
50-50 cost share.
    So the decrease in Federal funding will be paralleled by 
some decreases in State funding, which poses a real challenge 
for the program. Concerning your comments about the water 
quality part of the water resources program and decreases 
there, including the toxics program, there has been a proposal 
for reduction of Federal funding for the program directly 
through appropriations to the USGS. There has been the license, 
in fact the encouragements for us to seek other sources of 
funding to continue those NAWQA study units and to continue the 
streamgaging program.
    The difficulty and the challenge, of course, is the 
environment that we're working in at both the Federal and the 
State level. I don't think there is any lack of appreciation of 
the need for both flood information and water resource 
information. But I do think there is a difficulty in raising it 
to the priority that it gets the funds put toward it in 
comparison with other things. That reflects back on the 
difficult choices that I referred to before.

                         FIRE SCIENCE REDUCTION

    Mr. Nethercutt. And I appreciate that you have a tough row 
to hoe. If you cut anything, somebody is going to be upset. But 
I do think water quality should be high on the list of 
protected programs. Certainly the very negative impact that 
flooding has on communities is a high priority. I note that 
this is the second year in a row that the Administration has 
proposed reducing the Survey's fire science program, the $2.8 
million before and again $2.8 million this year, for 2003.
    I take it, can we take it from that budget reduction that 
the Department feels that fire science and wildfires issues are 
a low priority?
    Dr. Groat. I don't think so, Mr. Nethercutt. I think in 
fact, given the difficult fire season of a couple years ago, 
that the profile of ability to deal with fires, both Forest 
Service forest fires and in the case of our fire science 
program, which is geared more toward the grasslands and other 
areas, is an extremely high priority. I think the challenge 
that we face as a science organization is having the profile of 
the fire science that we do high enough in the overall fire 
program to be appreciated.
    The budget recommendation that we've put forward does say 
that the fire program of the Bureau of Land Management should 
be sought as a way to support this work. So it is not saying 
the program ought to be abolished, it is saying that we ought 
to get it through other fire funds given to the Department. It 
certainly is easier if it comes directly to us. But it is not a 
black mark on the program as such.
    And we agree, it is an extremely important program. Our 
fire science program emphasizes biology, but we also do work in 
looking at the effects of fires on basins and the effectsfrom a 
geology and hydrology point of view that it has on landslides and 
flooding, the total after-effects of fires as well. So we are a 
significant player in fire science, and it's only this part of the 
program that has the immediate change in a sought-after source of funds 
for it.

                        NATURAL HAZARDS RESEARCH

    Mr. Nethercutt. I am informed that BLM has a rather narrow 
fire science mission, they can't do the kind of work that you 
do. I noticed your comment about Congressional adds, but I 
think it really is the Subcommittee's obligation to make its 
best judgment. Certainly this independent branch of the Federal 
Government has, or co-equal branch has the right and the 
obligation, I think, to make those judgments. It helps us to 
have your sense of what is valuable and maybe what is not, and 
where we were caught short and where we are not.
    Following on Mr. Dicks' comment about the $4.5 million 
increase to NOAA in the budget for natural hazards research 
programs, and that is dependent on USGS data, I don't know if 
that is the same issue he was speaking of that you responded 
to. But there are cuts in the USGS water quality programs that 
NOAA increases its budget to do certain work based on 
scientific work by your agency. But yet we are cutting our side 
of the ledger.
    Dr. Groat. I think there is clear evidence that the 
Administration does appreciate the importance of floods and 
flood hazards, both in the NOAA increase, and a proposal for a 
$300 million increase in the FEMA budget.
    Mr. Nethercutt. Yes, that was just pointed out to me.
    Dr. Groat. For flood plain mapping.
    Mr. Nethercutt. That's a $300 million increase.
    Dr. Groat. Which we hope as the Nation's civilian mapping 
agency that we would have a role in helping FEMA spend that 
money, assuming they get it, for better flood plain maps.
    I think what our cuts in streamgaging reflect is more a 
lack of understanding of the role that streamgages play in that 
flood protection network. That is probably as much our 
responsibility as anybody else's, to make sure that 
understanding is there. So I don't think it is any kind of 
prejudice against the importance of flooding, I think it is 
just that understanding that needs to be expanded.
    Mr. Nethercutt. Yes, sir. We appreciate your being here, 
and your testimony to help us try to make our best decisions as 
a Committee as well. Thank you, Mr. Chairman.
    Mr. Skeen. Thank you. Mr. Kingston.

                           AMPHIBIAN RESEARCH

    Mr. Kingston. Thank you, Mr. Chairman.
    Dr. Groat, it is great to see you again. I saw with great 
disappointment you guys were cutting the amphibian research. We 
have a long way to go on that. That is a pretty big cut.
    Dr. Groat. Yes, sir. There is a proposed reduction of half 
a million dollars from that program. And that again was part of 
the reduction of Congressional adds to the program. We received 
no prejudicial language about the amphibian program as such, 
and we still consider it as one of the leading efforts to 
integrate our understanding of a very critical indicator 
species and a very critical part of the natural systems through 
a combined effort of biology, hydrology in particular, and 
mapping science.
    So we are strongly committed to the program. We recognize 
the shortfall that that cut will bring, but it does not reduce 
our commitment to the program and our efforts to carry it out, 
as you and others have so adequately helped us define it.
    Mr. Kingston. Why is it important to study an indicator 
species?
    Dr. Groat. Well, I think that whether we are talking about 
the Nation's biological resources, its water resources, or its 
mineral and energy resources, with the capabilities we have now 
to measure, to monitor things that are truly indicative of 
environmental health, that we have to make some good selections 
of those parts of ecosystems, in the case of amphibians that do 
really reflect what is happening to those systems, and to do a 
very thorough job of understanding how they are faring. The 
amphibians gave us a very good opportunity, because there was a 
clear threat. There was a clear loss of important parts of the 
populations, and, as it turns out, there are some very complex 
causes for that that really reflect the complexity of the 
environmental challenges we have in this country, whether they 
be human or natural or climate change sources of challenges.
    So these indicator species and indicators of other 
resources are going to be extremely important. We have to do a 
thorough job of understanding them.
    Mr. Kingston. Do you have any idea, could you guess where 
we are in the process on a scale of one to ten, how much 
progress we made? If ten is our destination, are we at a one or 
a two, are we at a seven or an eight?
    Dr. Groat. I would say probably a four or a five. I think 
what we have been able to do with the funding so far is to 
complete the monitoring and survey assessment network across 
the country, so we are getting a better feel each year for the 
state of health of the populations of amphibians. Through our 
toxics program and through work coming directly through the 
amphibians, we are beginning to look into the relationships 
between the declines in populations and the stressors that are 
causing that. We have published some pretty good papers, I 
think, that reflect the growing understanding and reflect the 
complexity of it. Because it is complex.
    I think the four relates to a better understanding of the 
problem, but a long ways to go in understanding the complex 
causes of the problem. And as you said, that will have clear 
ramifications for other organisms, including humans, that 
depend on the same environments that are threatened in terms of 
the amphibians.
    Mr. Kingston. So the Committee needs to take a real strong 
look at that, because it sounds like we just don't need to pull 
the plug on something that is halfway and would have a very 
good benefit to everybody if we come to a good conclusion and 
know how to handle it.
    Dr. Groat. We certainly want to continue our activity in 
the amphibian program and have appreciated your support in the 
past.
    Mr. Kingston. But a reduction like this would really slow 
it down some?
    Dr. Groat. It would certainly slow it down. It would not 
diminish our commitment to it, but it would slow it down, yes.

                 MAPPING EFFORTS IN TERRORISM RESPONSE

    Mr. Kingston. Also, your national mapping and remote 
sensing data programs that you have, did they play a role in 
the post 9/11 aftermath?
    Dr. Groat. They did, indeed. The EROS Data Center in South 
Dakota is the base for our remote sensing program. We are 
really pleased that the support of the Landsat program, both 
Landsat 7 and Landsat 5, has been maintained, because it 
provides a space base for land remote sensing. Those images 
were used extensively in the response to 9/11 and are being 
used in the preparedness for the national defense program 
against terrorism.
    Our mapping capabilities that come out of the EROS Data 
Center and out of the Central Region and our other mapping 
centers for geospatial information, including topographic maps 
and orthophotoquads, are an extremely important part not only 
for protection of the country and its infrastructure, but for 
the day-to-day business of local, State, and national 
governments. So we are really committed to modernizing those, 
because old data is not good data in that sense. We are 
emphasizing through our National Map Program and our 
participation in the 120 cities program the need to update 
those across the country.

                     MAPPING AND HOMELAND SECURITY

    Mr. Kingston. Among other things, those maps would show 
emergency evacuation routes.
    Dr. Groat. Yes.
    Mr. Kingston. Probably the most high profile example of 
needing that, if you have read the book Blackhawk Down, was 
when the rescue convoy went on the wrong street, through a 
series of complications. It would appear to me that this would 
be a key part of homeland security. Are Tom Ridge and the 
homeland security folks involved with you guyson this mapping? 
Do they understand what a great source of knowledge this is? Do they 
want to increase your budget any for that reason?
    Dr. Groat. We have had continuing discussions with NIMA, 
the National Imagery and Mapping Agency, and with Governor 
Ridge's staff at the homeland security program, about the need 
and the value of these sorts of maps. You hit it right on the 
head when you talked about evacuation routes. One aspect of the 
USGS as a civilian mapping agency doing this and being funded 
to do this is that that information does become public. It is 
available to local responders, State responders, as well as the 
Federal establishment.
    So our concern in that program is that we continue to do 
that work because it is in the public domain, and that we 
receive the funding necessary to do it on the accelerated basis 
that is needed for homeland security. So the funding issue is 
certainly a significant one. We have limited funds to do that. 
We are committing everything we can to it. And we would hope 
that there would be some opportunities through supplemental 
funding to provide that very fundamental information, which is 
as important to homeland security as are some of the more 
visible aspects of it that are receiving funding through the 
supplemental process.

               PUBLIC AND PRIVATE PARTNERSHIP IN MAPPING

    Mr. Kingston. I understand there are a lot of private 
companies that are involved in that, and that you have worked 
with a lot of them through grants. I think you even have an 
award program for somebody who's done----
    Dr. Groat. We do. In fact, much of the work that is done in 
preparing our maps and our input into the geospatial 
information system is done by private contractors. Most of it 
goes out through two contracts to gather the data and to 
actually produce the product. So it is a true partnership with 
the private sector.
    Mr. Kingston. Well, I applaud you on the kind of 
partnership approach that you have been taking as I understand 
in more recent years, but I also encourage you to do that. 
Because as a businessman, I know as a purchaser that it is very 
important to have a lot of different vendors. I think for all 
of us, because that technology is evolving so quickly, it is in 
the national interest to have a lot of different players that 
are out there on kind of a subcontractor or independent 
contractor basis.
    Dr. Groat. I agree with you wholeheartedly. We do have a 
very diverse set of private cooperators and people that we fund 
privately to do this work. It is a strength.
    Mr. Kingston. Well, thank you. It is good to see you again.
    Mr. Chairman, I yield back.
    Dr. Groat. Thank you, Mr. Kingston.
    Mr. Skeen. Mr. Dicks.

                  WATER RESOURCES RESEARCH INSTITUTES

    Mr. Dicks. The National Research Council Commission on 
Geosciences, Environment and Resources recently released a 
report on the future roles and missions of the U.S. Geological 
Survey. The report noted the Survey's research programs would 
benefit from increased interaction with industry and 
universities. The report cited the Water Resources Research 
Institutes as an example of how enhanced collaboration with 
researchers at academic institutions could help the Survey to 
accomplish its research goals.
    How does the Federal Government benefit from the work of 
the Water Resource Research Institutes? How do State and local 
governments benefit?
    Dr. Groat. Our relationship with the Water Resources 
Research Institutes is really emblematic of the relationships 
we are trying to build across the country with, in this case, 
university-based groups. Because they bring expertise to the 
science program that both complements what we have and, in some 
cases, extends what we have through letting other folks do the 
work with funding that we are able to provide.
    So it also provides a base within the States, which is tied 
to State interests. Each Water Resources Research Institute is 
on a land grant college campus within the State, and its 
mission is to serve the State broadly as a university and 
specifically as an institute. So it really strengthens our 
relationship in doing what President Bush and Secretary Norton 
have made high priorities, and that is, increasing 
relationships with State and local groups to help provide 
information for sound decisions. This is one way the U.S. 
Geological Survey can increase our ability to do that.
    So those partnerships as defined there, and also through 
our increasing co-location on college campuses across the 
country, with State and other Federal agencies, is increasing 
this interaction at the State and local level. We see it as an 
important part of how we are going to do our work in the 
future.

                          PEER REVIEW PROCESS

    Mr. Dicks. Is there a peer review process in the Survey for 
allocating funds to science projects? If so, how does this 
process work?
    Dr. Groat. Our scientific programs are generally driven 
through a proposal and review process within the disciplines. 
We have a strategic plan, we have science directions, we have 
priorities that we march to. But within that, we have to define 
programs and projects. That is left to our program leaders and 
our scientists to make proposals, which are then reviewed at 
several levels within the Bureau, within the USGS, before they 
are accepted for funding.
    Programs, as they are developed, are also reviewed by 
outside advisors and members to ensure that it is not just 
totally an internal review. So the peer-review aspect both of 
the programs themselves and of the products of those programs 
are what I think contributes to the good opinion that the NRC 
has had about our programs, that they are quality programs and 
they are objective programs.

                          PERSONNEL REDUCTIONS

    Mr. Dicks. How many scientists and support personnel will 
have to be RIF'd as a result of the significant funding 
reductions proposed in your budget?
    Dr. Groat. Well, Mr. Dicks, we hope none. There is a 
potential personnel impact on the level of 249 or so people, if 
you add up all the reductions. But we would hope through 
attrition, through the opportunity for early outs and others, 
that we would not have to go to that extreme.
    Mr. Dicks. You think you can handle it?
    Dr. Groat. Well, I'm not sure. We don't know yet if we can 
handle it. That certainly is one of the tools in the quiver 
that might have to be called on. But we have no plans now to 
use that tool.
    Mr. Dicks. And of course, if Congress rescues you again, 
then you wouldn't have to face these kinds of problems.
    Dr. Groat. We would not have to face those difficult 
decisions. [Laughter.]

                  REDUCTIONS EFFECT ON SCIENCE QUALITY

    Mr. Dicks. What would be the effect of these cuts on your 
ability to do high quality science at the USGS?
    Dr. Groat. I would hope that, even cut down to ten people, 
we would still do high quality science. Because that is our 
hallmark. We consider ourselves credible and objective, and we 
are going to maintain that posture at all costs. It more has an 
impact on our ability to provide the suite of quality science 
that we think we are uniquely qualified to provide. It does not 
reduce the science as a whole, it reduces it in selected parts.

                       BASIC AND APPLIED SCIENCE

    Mr. Dicks. So you would still do, it is important to have a 
mixture of basic science and applied science?
    Dr. Groat. Absolutely. Absolutely.
    Mr. Dicks. Would the applied science be affected here by 
these cuts?
    Dr. Groat. Both the applied and the basic science would be 
affected. Our toxics program is a good example. There is a lot 
of good fundamental research that goes on in the toxics program 
to understand how, these toxic elements behave in the 
environment. There is also an applied element where that 
understanding is being applied to places like the Everglades 
and by people who are concerned about water treatment and water 
quality mitigation.
    So most of our programs, hazards programs, coastal 
programs, are a combination of good, sound basic research that 
drives the applications that are important to the country.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Skeen. We have a vote on, so I think we had better--
    Mr. Dicks. Do you want to continue?

                            ENERGY RESEARCH

    Mr. Skeen. Does anybody have any further questions?
    Mr. Nethercutt. One quick question. Sir, I notice that the 
Administration has worked very hard to get the energy policy 
plan through the House and it was frustrated in the Senate. I 
know that USGS does a lot of energy scientific research that 
appears to be at risk in the budget.
    Can you quantify quickly for the Subcommittee how important 
you feel the energy research might be as it relates to the 
budget condition you find yourself in?
    Dr. Groat. We have actually some additional spending 
responsibilities under the proposed budget in the energy area, 
specifically the Energy Policy Act, for assessment of 
undiscovered resources in the West and also to provide basic 
mapping in the National Petroleum Reserve. We have a multiple 
kind of energy program that ranges from coal to oil and gas 
resources and a modest effort now in, if this is accepted, in 
geothermal resources. Given the increased emphasis on programs, 
we think that those will remain important.
    We do not see any substantial cuts to existing programs, 
nor do we see substantial growth. But we would hope in the 
future, as this priority continues for the country, that those 
programs would be higher profile, and that the growth we've 
seen this year would be continued.

                ASSESSING UNDISCOVERED ENERGY RESOURCES

    Mr. Nethercutt. I think we can get a lot from the science 
that your agency provides as it relates to energy.
    Dr. Groat. I think a lot of what we do in assessing 
undiscovered resources in oil and gas, for example, that is not 
part of any regulatory or private sectors gives it some 
objectivity that is really needed, as you know, in the intense 
debate that is going on in the Congress over the energy policy.
    Mr. Nethercutt. Thank you, Mr. Chairman. Thank you.
    Mr. Skeen. Mr. Dicks.

                     VOLCANO MONITORING ACTIVITIES

    Mr. Dicks. You talked a little bit about monitoring 
volcanic activities and things of that nature, which USGS has 
been one of the leaders in. How are we doing on that? How do 
you see that program in terms of the budget? Will we be able to 
do the, having the monitoring capability, the sensors, all this 
stuff that we need to do?
    Dr. Groat. It is not growing, Mr. Dicks. We are continuing, 
within existing funds, to use the best technology to monitor. 
The fact that the technology is improving so greatly, radar 
interferometry, for example, and the tools that are available 
from space and on the ground to monitor volcanoes in a much 
more real time sort of basis are out there, is causing us to 
spend an increasing amount of our budget on these enhanced 
tools.
    What we lack the ability to do in that case is to expand 
the monitoring network, say, for example, in the Aleutian 
Islands, where the actual impacts on air travel are important. 
So we have not had to cut the program, but we have not been 
able to grow the program, with the exception of the add that 
was removed in this particular approach, yes.
    Mr. Dicks. Put in the, if you could add for the record, 
just expand upon what you could do if you had adequate 
resources in this area.
    Dr. Groat. In the volcano program?
    Mr. Dicks. Yes. That would be important to me.
    Dr. Groat. We would be happy to do that.
    [The information follows:]

                       Volcano Monitoring Funding

    Over the past decade, the Volcano Hazards program has built 
a near-real time eruption monitoring system for 44 of the 70 
active or potentially active U.S. volcanoes, including 
volcanoes in the Cascades of Washington, Oregon, and 
California; the island of Hawaii; and the Long Valley (CA) and 
Yellowstone calderas; as well as the volcanoes of the Aleutian 
Islands of Alaska. The volcanoes of the Aleutian Islands of 
Alaska pose a frequent threat to airline safety on the busy 
north Pacific jet routes. New resources would enable USGS to 
upgrade the existing monitoring program, expand the network to 
include additional hazardous volcanoes, and increase volcano 
hazard assessments and research activities.

    Mr. Dicks. Thank you very much. Thank you, Mr. Chairman.
    Mr. Skeen. Thank you very much.
    Mr. Groat. Thank you, Mr. Chairman. And thank the Committee 
for its support in the past years, and particularly you, Mr. 
Skeen. We have enjoyed working with you and appreciate your 
understanding and support of our programs.
    Mr. Skeen. Thank you. Have a good day.
    [Additional questions for the record follow:]


              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Adams, Kevin.....................................................   309
Ashe, Dan........................................................   309
Burton, R. M. ``Johnnie''........................................   550
Chambers, T. C...................................................   189
DeLuise, F. M....................................................   561
Devaney, E. E....................................................   574
Frazer, Gary.....................................................   309
Groat, C. G......................................................   449
Guertin, Stephen.................................................   309
Henne, Paul......................................................   309
Jarrett, J. D....................................................   609
Jones, A. D......................................................   189
Jones, Marshall..................................................   309
Kelley, M. A.....................................................   449
Knapp, William...................................................   309
Mainella, F. P...................................................   189
Masica, S. E.....................................................   189
Melius, Tom......................................................   309
Murphy, D. W (Don)...............................................   189
Myers, W. G......................................................   579
Norton, Hon. G. A................................................     1
Saito, Teiko.....................................................   309
Scarlett, P. L...................................................     1
Sheaffer, C. B...................................................   189
Sheehan, Denise..................................................   309
Thorson, Robyn...................................................   309
Trezise J. D...........................................1, 189, 309, 449
Wenk, D. N.......................................................   189
Williams, Steven.................................................   309


                               I N D E X

                              ----------                              

                       Secretary of the Interior

                                                                   Page
Abandoned Coal Mine Land Reclamation.............................    24
African American Museum..........................................    41
Banks Lake National Wildlife Refuge..............................    49
Biography of Gayle A. Norton, Secretary of the Interior..........    20
Biography of Lynn Scarlett, Assistant Secretary of the Interior..    21
Budget Overview..................................................     8
Budget Reduction.................................................    22
Bull Trout Report................................................    47
Canada Lynx: Controversy.........................................    45
    Inspector General Report.....................................    46
Competitive Sourcing.............................................    28
Cooperative Conservation Initiative..............................  3, 9
Endangered Species Conservation..................................    15
Environmental Degradation from Illegal Immigration...............    30
Everglades: Developing Regulations...............................    42
    Funding......................................................    14
    Human Dynamics...............................................    40
    Regulations..................................................    41
    Restoration, Coordination, and Verification (``RECOVER'')....    42
    Roads as Water Flow Impediments..............................    42
    Water Levels in Canals in Southern Everglades................    39
    Water Supply.................................................    37
Fishers Peak Visitors' Center....................................    45
Harnessing National Resources....................................    15
Homeland Security................................................    17
Hoover Dam Bypass................................................    32
Indian Education................................................. 5, 12
Indian Trust Reform Efforts...............................4, 10, 22, 34
Interagency Personnel Assignments Program (IPA)..................    31
Klamath Basin....................................................    27
Land Acquisition and Management; No Net Gain.....................    25
Land Owner Partnerships..........................................     9
Land Use Planning................................................    16
Maintenance Backlog on National Parks............................    13
Maintenance Backlog on Public Lands..............................    34
Managing for Excellence.......................................... 6, 18
Midway Atoll National Wildlife Refuge............................    36
Multi-species Habitat Conservation Plans.........................    35
National Park Funding............................................     5
National Wildlife Refuge System: Centennial......................    14
    Funding......................................................     5
Natural Resource Challenge.......................................    13
Office of Insular Affairs........................................    17
Oil and Gas Exploration and Development: Arctic National Wildlife 
  Refuge.........................................................    45
    California Coastal Areas.....................................    44
    Canyon Lands and Arches Vicinity.............................    49
Opening Remarks of Mr. Dicks.....................................     1
Opening Remarks of Mr. Skeen.....................................     1
Opening Statement of Secretary Norton............................     2
Other Conservation Tools.........................................    10
Other Funding....................................................     5
Strategic Petroleum Reserves.....................................    33
US Geological Survey: Job Reductions.............................    29
    Program Reductions...........................................    36
    Role of Agency...............................................    33
Uncontrollable Travel Costs......................................    18
Wildland Fire Management.........................................    16
Written Statement of Secretary Norton............................     7
Questions for the Record.........................................56-187
    Abandoned Coal Mine Land Reclamation.........................    85
    Budget Priorities............................................    62
    Bureau of Indian Affairs: School Privatization...............    78
        Trust Asset Management Proposal..........................    83
    Canada Lynx..................................................    71
    Cooperative Conservation Initiative..........................    56
    Departmental Science.........................................    83
    Endangered Species...........................................    68
    Everglades Restoration.......................................    64
    Indian Trust Reform..........................................    79
    Internet Access..............................................    81
    Klamath Water Issues.........................................    74
    Midway Atoll National Wildlife Refuge........................    76
    National Wildlife Refuge Expansions..........................    77
    National Wildlife Refuge Land Acquisition....................    63
    Riverside, California Multi-Species Conservation Plan........    70
    Territorial and Insular Affairs..............................    89
    Wetlands.....................................................    75
Questions for the Record from:
    Congressman Skeen............................................    90
    Congressman Nethercutt.......................................   109
    Congressman Peterson.........................................   115
    Congressman Dicks............................................    93
    Congressman Moran............................................   116
    Congressman Hinchey..........................................   138
    Congressman Sabo.............................................   187

                         National Park Service

Accelerating Partnerships........................................   194
Air Pollution: Blue Ridge Parkway and Shenandoah NP..............   229
    Index Signs Along Skyline Drive in Shenandoah NP.............   238
Biography of Ms. Fran P. Mainella................................   198
Biography of Mr. Donald Murphy...................................   199
Biography of Mr. Randy Jones.....................................   200
Biography of Ms. Teresa Chambers.................................   201
Biography of Mr. Dan Wenk........................................   202
Budget Request Observations......................................   190
Business Plans Initiative.................................192, 208, 210
    Bandalier National Monument..................................   209
    Lassen Volcanic National Park..............................209, 211
    Rocky Mountain National Park.................................   120
Business Students, Purpose and Employment of.....................   208
Carlsbad Caverns National Park...................................   234
College Internship...............................................   237
Concessions Efforts..............................................   192
    Business Students............................................   231
    Concessionaires..............................................   228
    Program Improvements.........................................   230
    Rocky Mountain National Park.................................   238
Construction: Fort Jefferson, Dry Tortugas National Park.........   237
    NAPA Recommendations Implementation........................193, 232
    Program Management...........................................   239
Cooperative Conservation Initiative..............................   192
    Bat Conservation.............................................   214
Cumberland Island National Seashore..............................   227
Curtis-Lee Mansion...............................................   227
Elwha Restoration Project at Olympic National Park...............   189
Employing Business Students......................................   231
Employing Troubled Youth.........................................   230
Environmental Friendly Access to National Parks..................   206
Everglades National Park: Critical Ecosystem Studies Initiative 
  (CESI).......................................................204, 208
    Funding Level................................................   208
    Restoration..................................................   189
Governor's Island National Monument..............................   212
Grand Canyon National Park Transportation System.................   232
Historic Buildings and Historic Districts: Duplication of a 
  Building.......................................................   225
    Policy and Guidance on Additions.............................   226
Introductions of NPS Staff.......................................   191
Land Acquisition: Federal.................................190, 216, 217
    Land Held by Private Organizations to Sell to the Government.   206
    Prioritization List..........................................   219
Land and Water Conservation Fund.................................   216
    State Grants.................................................   217
Law Enforcement in Parks--see Security Issues and US Park Police.
Maintenance Backlog:......................................190, 193, 205
    Accountability...............................................   192
    Managing Facilities..........................................   195
    Reduction....................................................   191
Management Reforms...............................................   196
Moccasin Bend National Historic Site, Bill to Establish..........   212
National Heritage Areas..........................................   213
National Resource Challenge....................................191, 196
Oil and Gas Exploration in: Arches National Park.................   239
    Big Cypress National Preserve................................   240
    Canyonlands National Park....................................   239
Olympic National Park............................................   189
Opening Remarks: Mr. Skeen.......................................   189
    Mr. Kingston.................................................   216
    Mr. Dicks....................................................   189
Opening Statement of Ms. Fran P. Mainella........................   190
Park Operations..................................................   196
Park Values in American Life.....................................   191
Partnerships.....................................................   192
    Washington, D.C. Area........................................   211
Privatization of the Workforce...................................   228
Security Issues: National Parks and Monuments....................   235
    Park Rangers Assigned to Security Duties Away From Parks.....   243
    Park Units Outside Washington, D.C. Area.....................   237
    Washington Monument..........................................   235
Snowmobiles in National Parks..................................214, 244
    In Yellowstone National Park.................................   214
Team Effort......................................................   193
Tennis in Rock Creek Park........................................   234
US Park Police: NAPA Recommendations...........................193, 203
    Recruitment..................................................   203
    Special Weapons and Tactics Team (SWAT)......................   207
Urban Parks and Recreation Fund...........................190, 214, 237
Values of Parks in America Life..................................   191
Vanishing Treasures Program....................................233, 243
Visitation after September 11, 2001..............................   231
Volunteers.......................................................   192
Washington, D.C. Area Park Units.................................   216
Written Statement of Ms. Fran P. Mainella........................   194
Youth Conservation Corps (YCC)...................................   238
Questions for the Record........................................245-307
    Backlog Maintenance..........................................   272
    Business Plans...............................................   248
    Concession Contracts.........................................   274
    Construction--Denver Service Center..........................   281
    Cooperative Conservation Initiative & Challenge Cost Share...   254
    Ellis Island.................................................   288
    Enhancing Fee Programs.......................................   292
    General Policy...............................................   245
    Natural Resource Challenge...................................   275
    Operations of the National Park System.......................   294
    Personal Watercraft..........................................   287
    Security in Parks............................................   280
    Snowmobiles..................................................   287
    South Florida Restoration....................................   249
    Valley Forge NHP.............................................   291
    Yosemite NP..................................................   290
Questions from Mr. Dicks.........................................   296
Questions from Mr. Hinchey.......................................   306

                     U.S. Fish and Wildlife Service

Arctic National Wildlife Refuge..................................   345
Banks Lake National Wildlife Refuge..............................   343
Biography of Mr. Steven Williams.................................   326
Budget Request, Comprehensive Summary............................   315
Bull Trout Report................................................   339
Box Canyon Relicensing...........................................   339
Canada Lynx......................................................   333
Cooperative Conservation Initiative..............................   314
Culverts and Fish Passage........................................   339
Everglades Restoration, Comprehensive Plan.......................   314
Employee Judgment................................................   337
Experience of Director Williams..................................   330
Financial and Technical Assistance to States, Tribes, and other 
  Entities.....................................................315, 351
Fish Hatchery Reform.............................................   353
Forest Service Cooperation.......................................   336
Klamath Basin....................................................   331
Land Acquisition and Refuge Expansion................327, 334, 341, 349
Management Reforms...............................................   323
Midway Island National Wildlife Refuge...........................   343
National Wildlife Refuge System..................................   344
Opening Remarks: Mr. Skeen.......................................   309
    Mr. Dicks....................................................   309
Opening Statement of Mr. Steven Williams.........................   310
Pacific Northwest Salmonid Conservation..........................   314
President's Management Agenda....................................   323
State Wildlife Grants............................................   351
Written Statement of Mr. Steven Williams.........................   313
Questions for the Record........................................355-448
    Bear River National Wildlife Refuge..........................   394
    Canada Lynx..................................................   366
    Coastal Programs.............................................   373
    Construction of Visitor Centers..............................   402
    Cooperative Conservation Initiative..........................   368
    Cooperative Endangered Species Conservation Fund.............   392
    Coordination with the Forest Service.........................   405
    Cost Allocation Methodology..................................   384
    Endangered Species...........................................   397
    Expanded Refuges.............................................   355
    Fisheries....................................................   378
    Fish Screens.................................................   387
    Grassland Birds..............................................   407
    Joint Ventures...............................................   371
    Klamath Basin................................................   364
    Land Acquisition Management..................................   358
    Landowner Incentive Program..................................   399
    Management Agenda............................................   409
    Mexican Wolf.................................................   361
    Midway Atoll National Wildlife Refuge........................   390
    National Wildlife Refuge Fund................................   395
    National Wildlife Refuge System..............................   359
    Neotropical Migratory Birds..................................   377
    New Refuges..................................................   355
    Private Stewardship Grants...................................   400
    Recreation Fee Demonstration Program.........................   396
    State Wildlife Grants........................................   369
    Tern Island Seawall..........................................   394
    Timber Harvesting on Refuges.................................   404
    Washington Hatchery Projects.................................   389
Questions from Mr. Skeen.........................................   410
Questions from Mr. Peterson......................................   411
Questions from Mr. Moran.........................................   425
Questions from Mr. Hinchey.......................................   417
Questions from Mr. Sabo..........................................   424

                         U.S. Geological Survey

Assessing Undiscovered Energy Resources..........................   471
Basic and Applied Science........................................   470
Biography of Dr. Charles Groat...................................   459
Budget Highlights................................................   457
    Budget Decreases.............................................   453
        Amphibian Research.......................................   466
        Effects of.............................................460, 470
        Fire Science.............................................   464
        National Water Quality Assessment Program................   462
        Water Resources Research Institutes--Elimination.........   454
        Rationale for Reductions.................................   463
        Stream Gaging............................................   463
        Toxics Program...........................................   453
    Budget Increases: Alaska Digital Mapping.....................   451
        Biological Research and Information......................   452
        Energy Related...........................................   451
        Environmental Health.....................................   452
        Geothermal...............................................   452
        Ground Water Resources...................................   453
    Budget Maintenance: Coastal Geology..........................   452
Earthquake Preparedness..........................................   451
Elimination of Water Resources Research Institutes...............   454
Energy Research..................................................   470
Environment and Human Health.....................................   460
Everglades Restoration Initiative................................   462
Mapping: Efforts in Terrorism Response...........................   467
    Homeland Security............................................   467
    Public and Private Partnerships..............................   468
Natural Hazard Research..........................................   465
Opening Remarks: Mr. Skeen.......................................   449
    Mr. Dicks....................................................   449
Opening Statement of Dr. Charles Groat...........................   450
Peer Review Process..............................................   469
Personnel Reductions.............................................   469
Reductions Effect on Science Quality.............................   470
Report on Fresh Water Availability...............................   460
Response to September 11, 2001...................................   450
Stream Gaging and Flood Prediction...............................   463
Toxics Program Transfer..........................................   461
Volcano Monitoring Activities....................................   471
Water Resources Research Institutes..............................   468
Written Statement of Dr. Charles Groat...........................   455
Questions for the Record........................................473-503
    Biology......................................................   487
    General Questions............................................   473
    Geology......................................................   487
    Mapping......................................................   484
    Water Programs...............................................   480
Questions from Mr. Skeen.........................................   490
Questions from Mr. Regula........................................   495
Questions from Mr. Dicks.........................................   498
Questions from Mr. Moran.........................................   492
Questions from Mr. Hinchey.......................................   501

                       Bureau of Land Management

Questions for the Record........................................505-535
    Construction and Maintenance.................................   513
    Cooperative Conservation Initiative..........................   507
    Enterprise Architecture--Information Technology..............   528
    General Questions............................................   505
    Land Resources...............................................   519
    Land Use Planning............................................   522
    Mining Law Administration....................................   521
    NLCS, Cultural, Recreation...................................   524
    Oil and Gas..................................................   520
    Planning.....................................................   509
    Rangeland Inventory and Monitoring...........................   511
    Use Authorizations...........................................   530
    Wildland Fire Management.....................................   515

                      Minerals Management Service

Questions for the Record........................................537-549
    Electronic Government Initiative.............................   545
    Environmental Studies Program................................   548
    Internet Shutdown............................................   537
    Offshore Minerals Management.................................   543
    Royalty-In-Kind..............................................   542
    Strategic Petroleum Reserve..................................   537
Testimony of Mr. R.M. Burton, Director...........................   550

           Natural Resource Damage Assessment and Restoration

Testimony of Mr. Frank De Luise, Restoration Program Manager.....   561

                       Office of Insular Affairs

Questions for the Record........................................563-573
    American Samoa...............................................   564
    CNMI Immigration, Labor and Law Enforcement Initiative.......   572
    Commonwealth of the Northern Mariana Islands.................   565
    Compact of Free Association..................................   567
    General Questions............................................   563
    Guam.........................................................   566
    Territorial Assistance.......................................   569
    Virgin Islands...............................................   566

                      Office of Inspector General

Testimony of Mr. Earl Devaney, Inspector General.................   574

                        Office of the Solicitor

Testimony of Mr. William Meyers, Solicitor.......................   579

          Office of Surface Mining Reclamation and Enforcement

Questions for the Record........................................581-608
    Abandoned Mine Lands Trust Funds.............................   581
    Administration...............................................   600
    Appalachian Clean Streams....................................   606
    Federal Reclamation Program..................................   605
    Fee Collection Compliance....................................   600
    Other........................................................   607
    Regulation and Technology....................................   593
    United Mine Workers Health Fund..............................   601
Testimony of Mr. Jeffrey Jarrett, Director.......................   609

                                <greek-d>


</pre></body></html>
